<html>
<title> - HANDS OFF: THE FUTURE OF SELF-DRIVING CARS</title>
<body><pre>[Senate Hearing 114-416]
[From the U.S. Government Publishing Office]











                                                        S. Hrg. 114-416

                              HANDS OFF: 
                    THE FUTURE OF SELF-DRIVING CARS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 15, 2016

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation









[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-428 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    vONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 15, 2016...................................     1
Statement of Senator Thune.......................................     1
    Prepared statement of Clyde Terry, Chair, National Council on 
      Disability.................................................     4
    Prepared statement of John Bozzella, President and CEO, 
      Association of Global Automakers, Inc......................     5
    Letter dated February 11, 2016 to Secretary Anthony R. Foxx 
      from Mitch Bainwol, President and CEO, Alliance of 
      Automobile Manufacturers; and John Bozzella, President and 
      CEO, Association of Global Automakers......................     9
Statement of Senator Nelson......................................     3
Statement of Senator Heller......................................    43
Statement of Senator Booker......................................    45
Statement of Senator Peters......................................    46
Statement of Senator Klobuchar...................................    49
Statement of Senator Daines......................................    51
Statement of Senator Gardner.....................................    54
Statement of Senator Markey......................................    56
Statement of Senator Blumenthal..................................    58

                               Witnesses

Dr. Chris Urmson, Director, Self-Driving Cars, Google X..........    10
    Prepared statement...........................................    12
Michael F. Ableson, Vice President, Strategy and Global Portfolio 
  Planning, General Motors Company...............................    15
    Prepared statement...........................................    16
Glen W. De Vos, Vice President, Global Engineering and Services, 
  Delphi Automotive..............................................    17
    Prepared statement...........................................    19
Joseph Okpaku, Vice President, Government Relations, Lyft........    24
    Prepared statement...........................................    26
Dr. Mary (``Missy'') Louise Cummings, Director, Humans and 
  Autonomy Laboratory; Director, Duke Robotics; Professor of 
  Mechanical Engineering and Material Science; Professor of 
  Electrical and Computer Engineering, Duke University...........    27
    Prepared statement...........................................    29

                                Appendix

Letter dated March 22, 2016 to Hon. John Thune and Hon. Bill 
  Nelson from Paula S. Davis, Vice President, Corporate Affairs 
  and Communications, HARMAN.....................................    65
Letter dated March 22, 2016 to Hon. John Thune and Hon. Bill 
  Nelson from Parnell Diggs, Esq., Director of Government 
  Affairs, National Federation of the Blind......................    66
Statement from Securing America's Future Energy (SAFE)...........    66
Response to written questions submitted to Dr. Chris Urmson by:
    Hon. John Thune..............................................    68
    Hon. Steve Daines............................................    70
    Hon. Bill Nelson.............................................    71
    Hon. Edward Markey...........................................    72
    Hon. Gary Peters.............................................    72
Response to written questions submitted to Michael F. Ableson by:
    Hon. Bill Nelson.............................................    73
    Hon. Gary Peters.............................................    75
Response to written questions submitted to Glen W. De Vos by:
    Hon. John Thune..............................................    77
    Hon. Bill Nelson.............................................    79
    Hon. Gary Peters.............................................    81
Response to written questions submitted to Joseph Okpaku by:
    Hon. John Thune..............................................    82
    Hon. Dean Heller.............................................    83
    Hon. Steve Daines............................................    84
    Hon. Bill Nelson.............................................    84
    Hon. Gary Peters.............................................    85
Response to written question submitted by Hon. Bill Nelson to:
    Dr. Mary Cummings............................................    86
 
                              HANDS OFF: 
                    THE FUTURE OF SELF-DRIVING CARS

                              ----------                              


                        TUESDAY, MARCH 15, 2016

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:34 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Wicker, Ayotte, 
Heller, Fischer, Gardner, Daines, Nelson, McCaskill, Klobuchar, 
Blumenthal, Markey, Booker, Manchin, and Peters.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Good afternoon, everyone. I want to thank 
everybody for coming today as we discuss automated vehicles and 
the boundless opportunities that these technologies offer.
    Americans love their cars. Since the automobile first 
rolled off the assembly line in River Rouge, Michigan, cars in 
America have offered independence, mobility, and adventure. 
Now, profound changes are coming to our roads. Technological 
advancements are progressing at a rapid pace and fully self-
driving cars will be here sooner than we think.
    We are facing an opportunity to expand the options for 
transportation by car while also making it smarter and safer. 
Yet, technological challenges remain, and people will need to 
become comfortable with the idea of being passengers in their 
own cars. We all like that feeling of control when we hold the 
steering wheel.
    But perhaps the greatest hurdle to the deployment of these 
vehicles may be a regulatory environment with a patchwork of 
state and Federal laws unable to keep pace with these evolving 
technologies. Everything from driver assist functions like lane 
departure warnings to completely autonomous vehicles will 
transform transportation and mobility, profoundly affecting 
safety issues that have confronted society since the invention 
of the car.
    In 2014, 32,675 Americans lost their lives due to car 
accidents. More than 90 percent of these tragedies are linked 
to human error, driver choices, intoxication, and distraction. 
Automated vehicles have the potential to reduce that number 
dramatically. Unlike human drivers, automated vehicles don't 
get tired, drunk, or distracted.
    Combatting drunk driving has been a particular priority for 
me. South Dakota's 24/7 sobriety program, which works to change 
behavior though round-the-clock monitoring, is one successful 
program. But I'm eager to hear how autonomous vehicles could 
further reduce accidents due to drunk driving.
    In addition to helping reduce accidents on American roads, 
autonomous vehicles promise to improve the quality of life for 
older Americans and members of the disabled community. No 
longer will a lack of accessible transportation hinder 
opportunities for employment or community involvement. As 
America's population ages, families may no longer have to 
struggle with the difficult decision of when to take the keys 
away from mom or dad.
    Automated vehicles could also end one of the most 
frustrating parts of modern urban life, the traffic jam. This 
alone would improve the quality of life for many commuters with 
more time for families as commutes shorten. And, if the car 
does all the driving, time spent in a car could be productive, 
such as reading work e-mails, checking the box score from last 
night's game, or catching up on the highlights on Sports 
Center. I'm speaking of some of my own pastimes here.
    With no more gridlock, traffic will flow more smoothly and 
efficiently. Even fuel economy is likely to improve, since 
automated vehicles will be more efficient than human drivers.
    These advancements also have the potential to reshape 
communities. Currently, parking garages and surface lots take 
up one-third of the land in cities. Imagine a technology that 
will revolutionize parking as we know it, allowing that land to 
be reclaimed and repurposed.
    To implement this future, we need to challenge ourselves to 
overcome the 20th century conception of what a car must have: 
side and rearview mirrors, a brake pedal, a steering wheel, and 
even the concept of a licensed human driver. Because so much is 
possible, we must be careful not to stymie innovation because 
of a lack of imagination.
    Federal and state governments may need to rethink how they 
regulate and license vehicles for the future. We must ensure 
that the United States remains the cradle of innovation and 
that we continue to lead the way in the development and 
deployment of automated vehicles.
    In addition, questions regarding liability, insurance, 
privacy, security, and infrastructure need answers. These 
aren't small things, but none of them is insurmountable. And if 
Congress, the Department of Transportation, industry, and 
stakeholders work together, we will see all the benefits 
promised.
    This morning, the Committee had the great opportunity to 
see some of this technology in action, when we brought self-
drive to Capitol Hill. Continental, Volkswagen, BMW, and Tesla 
provided vehicles that gave us firsthand experience to see what 
the future may hold and a preview to the discussions at this 
hearing. I want to thank them for making those vehicles 
available.
    This afternoon we are joined by witnesses representing 
Google X, General Motors, Delphi, and Lyft, companies with 
direct stakes in automated technology. We are also joined by 
Dr. Cummings from Duke University, who is also a distinguished 
naval aviator and a returning witness before our committee.
    Dr. Cummings, thank you for your service to our country.
    We look forward to hearing from all of our witnesses to 
learn more about what they're doing in this space and their 
vision for the future. But before we hear from our witnesses--
some will also, by the way, play a short video, assuming the 
technology works, and I'm not sure, when we got underway, that 
it did.
    But before we get to that, first up, Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    So, I'm in the Tesla, and we're coming back across the 
Anacostia River and getting up on the bridge to get onto the 
ramp for 395. I'm instructed in the driver's seat, ``Engage the 
autonomous switch.'' I click it twice. ``Take your hands off 
the wheel.'' All of a sudden, the car is speeding up, and they 
say, ``It automatically will go with the flow of the vehicles 
in front and back.''
    But now we are approaching the on-ramp onto 395, and it is 
a sharp turn, and the vehicle is still speeding up. They said, 
``Trust the vehicle.'' And as we approach the concrete wall, my 
instincts could not resist, and I grabbed the wheel, touched 
the brake, and took over manual control.
    I said, ``What would have happened?'' They said, ``If you'd 
left your hands off the wheel, it would have made that sharp 
turn and come on around.'' So I'm here to tell you----
    The Chairman. I'm glad you're here.
    [Laughter.]
    Senator Nelson.--that I'm glad I grabbed the wheel. But we 
know that if this is working, as it apparently is, then there 
are going to be many lives that could be saved by preventing 
preventable accidents, because what if you suddenly look down 
at your cell phone, and all of a sudden, the car in front of 
you stops, or one comes over into your lane?
    Things like efficiency and productivity could also increase 
considerably. Underserved communities without reliable means of 
transportation could finally be integrated into the national 
economy. In so many states, this technology could be 
particularly beneficial for seniors and those with 
disabilities.
    But we have to have the technology right so that self-
driving cars can live up to their promise. The Federal 
Government has a critical role to make sure that the regulatory 
and legal environment, in which American businesses do 
business, is able to allow the development and manufacturing of 
these vehicles.
    It also means that we're going to have to, in our case, 
exercise responsible oversight. As we have seen in this 
committee on other subjects, such as the Takata airbags and the 
GM ignition switch recall, individual components of vehicles 
with defects can suddenly snowball into major problems.
    With an autonomous car, the stakes are all the more higher. 
You can imagine, in this world of cybersecurity and cyber 
attacks, what would happen to autonomous vehicles that get 
hacked while they're out on the road. One small defect could 
end up becoming a massive safety crisis. And if the problem 
comes up, manufacturers and regulators are going to have to get 
together and quickly find those solutions.
    No more cover-ups, no more head-in-the-sand approaches to 
safety. If we are going to avoid the tragedies, we've got to be 
johnny-on-the-spot.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Nelson. They didn't let me 
get behind the wheel.
    Senator Nelson. I know.
    The Chairman. I suppose they figured if you could navigate 
a spaceship, you could probably navigate a driverless vehicle.
    Senator Nelson. Well, it was a terrestrial challenge.
    [Laughter.]
    The Chairman. I want to ask unanimous consent to submit for 
the record statements from the National Council on Disability, 
the Global Automakers Association, and a letter from the Global 
Automakers and the Auto Alliance to Secretary Foxx at the 
Department of Transportation. So those will be included, 
without objection.
    [The information referred to follows:]

     Prepared Statement of Clyde Terry, Chair, National Council on 
                               Disability
    Chairman Thune, Ranking Member Nelson, and Esteemed Members of the 
Senate Committee on Commerce, Science, and Transportation:
Introduction
    Thank you for the opportunity to provide written testimony for this 
timely and important hearing on autonomous vehicle technology. The 
National Council on Disability (NCD) is an independent Federal agency 
charged with providing the Administration, Congress, and other Federal 
agencies with advice and recommendations regarding disability policy--
including policy discussions around emerging technologies such as 
autonomous vehicle (AV) technology--to improve the lives of people with 
disabilities. We applaud the Committee for examining this topic at 
today's hearing and we offer ourselves to the Committee as an ongoing 
resource as you examine this topic and consider appropriate legislative 
responses.
An Exciting Innovation for Everyone, But a New Era for Some
    Aside from being one of the most exciting innovations in 
transportation since the Model T began rolling off the assembly line in 
1913, AV technology holds tremendous promise for many people with 
disabilities and seniors who currently lack access to independent 
transportation. In our recent report, ``Self-Driving Cars: Mapping 
Access to a Technology Revolution,'' the National Council on Disability 
examined the challenges and advances associated with this revolution in 
transportation technology and proposed directions in research and 
development that will most benefit those people with disabilities who 
are the most transportation disadvantaged because their disabilities 
prevent them from driving even a modified conventional vehicle.
    Despite significant advances in accessible public transportation, a 
lack of reliable and accessible transportation remains one of the 
biggest deterrents to employment and community involvement for people 
with disabilities in the United States. Accordingly, autonomous 
vehicles have the potential to become an essential component of their 
independence, economic development, and well-being. Autonomous vehicles 
hold great promise to advance social inclusion by offering people with 
disabilities independent mobility to get to school, jobs, and all 
places that Americans go each day. They also offer the possibility of 
ending the isolation that many people who are aging experience by 
keeping them connected with others and to activities that are often 
lost when we lose the ability to drive.
An Opportunity We Can't Afford to Miss
    These remarkable benefits will not come at once and will not occur 
without cooperation among Federal and state governments, research 
institutions, and private industry.
    Benefits will not emerge if the technology develops without 
universal accessibility for people with diverse disabilities, including 
intellectual and developmental, sensory, and physical disabilities. 
Accessibility must be infused in the research and development of AVs. 
Without explicit inclusion of accessibility in the development of AV 
technologies, the potential for opportunity wanes. As an example of the 
importance of this type of forethought as technology evolves, during 
the early days of the Internet, and still today, accessibility for 
people with disabilities was not considered by web developers, and many 
people with disabilities experienced and even now still do experience 
unnecessary obstacles to information (e.g., text that is inaccessible 
to screen reader software, lack of captions on audio content, keyboard-
only navigation). Those obstacles diminish the opportunities available 
to people with disabilities that the Internet presents for people 
without disabilities. This is a lesson for AV researchers and 
engineers--the time is now to commit to and include accessibility.
    From what we've seen so far, many in the industry understand the 
potential autonomous vehicles have to change the lives of people with 
disabilities, and that people with disabilities are a primary market 
for this technology. It's important to make sure that accessibility 
stays at the forefront of this conversation so that people with 
disabilities don't get left behind. Decisions that are made by 
policymakers, innovators, regulators and marketers will all impact how 
this technology is adopted and whether it achieves the potential it has 
to change the lives of people with disabilities who are transportation 
disadvantaged. We look forward to working with industry, advocates, and 
policymakers to shepherd this technology so as to result in a new era 
of inclusion for people with disabilities. Accordingly, we encourage 
you to include discussions of needs of this population as you convene 
future hearings on the topic of AV and to seek out the views and 
experiences of people with disabilities in those discussions.
Conclusion
    NCD is grateful to the Committee for elevating this important topic 
through today's hearing and we encourage Committee members and their 
staff to review our report, ``Self-Driving Cars: Mapping Access to a 
Technology Revolution'' which is available on our website at: https://
www.ncd.gov/publications/2015/self-driving-cars-mapping-access-
technology-revolution. We look forward to providing further testimony 
at future hearings on this topic.
                                 ______
                                 
        Prepared Statement of John Bozzella, President and CEO, 
                 Association of Global Automakers, Inc.
    On behalf of the Association of Global Automakers (``Global 
Automakers''), I am pleased to provide the following statement for the 
record of the Senate Committee on Commerce, Science, and Transportation 
hearing entitled ``Hands Off: The Future of Self-Driving Cars.'' Global 
Automakers represents international automobile manufacturers that 
design, build, and sell cars and light trucks in the United States. 
These companies have invested $52 billion in U.S.-based facilities, 
directly employ more than 97,000 Americans, and sell 47 percent of all 
new vehicles purchased annually in the country. Combined, our members 
operate more than 275 production, design, R&D, sales, finance and other 
facilities across the United States. Global Automakers and our member 
companies are committed to creating the safest, cleanest and most 
technologically advanced vehicles on the road.
    The automotive industry is in the midst of an unprecedented wave of 
technological innovation that is redefining how we think about 
transportation. Advancements in connected and automated vehicle 
technology present significant opportunities for enhancing mobility, 
saving lives, improving transportation efficiency, and reducing fuel 
consumption and associated emissions.
    Global Automakers' members have made and continue to make 
substantial investments in the research and development of advanced 
technologies, and we appreciate the opportunity to provide comment on 
these matters. Over the past several decades, our members have made 
tremendous strides in safety by improving vehicle crashworthiness: how 
well the interior cabin protects occupants in the event of a crash. Our 
members have also made initial forays into vehicle automation, 
equipping vehicles with the first generation of crash avoidance 
technologies that seek to prevent crashes from occurring altogether. 
The next step in this evolution is continued research, development, and 
deployment of a suite of automated and connected technologies that will 
further help us achieve this goal.
    Automakers and automotive suppliers are leading the way in the 
development of advanced automated vehicle technology, and according to 
a recent report by Thompson Reuters, several Global Automakers' members 
were listed among the top automated vehicle innovators worldwide.\1\ 
Through significant investments in research and development, 
manufacturers are working hard to provide increasingly automated 
features and functionality in their vehicles.
---------------------------------------------------------------------------
    \1\ ``The 2016 State of Self-Driving Automotive Innovation,'' 
Thompson Reuters (2016)
---------------------------------------------------------------------------
    As we think about advanced motor vehicles, it is important to note 
that automated vehicle technology is much broader than the concept of a 
self-driving or driverless car. In fact, a number of vehicles on the 
road today already provide automated functionality through advanced 
crash-avoidance and convenience features such as crash imminent 
braking, lane keeping assist, and adaptive cruise control. These 
systems, which are often considered foundational to the development of 
more highly automated systems, are designed to provide support to the 
driver only in certain situations, and automated vehicle control is not 
typically sustained over an extended period of time. As these systems 
become more advanced, a vehicle's capability to operate without active 
control of the driver will increase.
    As vehicles become not only more automated, but also connected 
through Dedicated Short Range Communications (DSRC) technology and 
other wireless technologies, consumers are expected to experience 
substantial safety and mobility benefits. An estimated 90-95 percent of 
crashes are attributable to driver error, whether it be a recognition, 
decision, or performance-related error. Advancements in vehicle 
sensors, communications technology, and vehicle automation have the 
potential to significantly reduce the occurrence or severity of crashes 
in the future by helping correct for these errors in human driving. 
Crash prevention not only saves lives, but reduces congestion, 
resulting in environmental benefits as well. In addition, automated and 
connected technologies create significant opportunities for improving 
vehicle efficiency and highway throughput by making it possible for 
vehicles to operate closer together, optimizing the utilization of 
existing infrastructure. Furthermore, automated vehicles provide the 
potential for enhanced independent mobility options for those without 
access to transit or those with disabilities.
    For these and other reasons, automated vehicles have garnered 
significant media attention and have captured the imaginations of both 
the public and policymakers. However, the concept of increased vehicle 
automation is often met with mixed reactions ranging from fear, 
uncertainty, and doubt, to excitement and anticipation for the mobility 
opportunities that self-driving vehicles could provide. Because we do 
not know the full extent of what the future may hold, it is important 
that automated vehicle policy be considered in a way that is flexible 
and responsive to changes in technology so that the benefits of 
connected and automated vehicles can be achieved. It is therefore 
necessary to understand not only what policies may be needed to 
encourage the safe and widespread development, adoption, and 
integration of these advanced systems into the existing fleet, but also 
how existing laws may unintentionally act as an impediment to 
innovation.
    In addressing the many important policy considerations related to 
automated vehicles, legislators and regulators at all levels of 
government will need to engage in an informed discussion that includes 
all of the key stakeholders. Automated vehicle policy questions often 
include, but are not limited to, issues such as:

  <bullet> What additional safety requirements might be needed?

  <bullet> How should cybersecurity and privacy concerns be addressed?

  <bullet> What is the role of the driver, and will drivers need a 
        special license?

  <bullet> What approaches to liability and insurance are appropriate?

  <bullet> Should the policies for driverless cars differ from those 
        where a driver is present in the vehicle?

  <bullet> How can automated vehicle technology provide greater 
        mobility and accessibility?

  <bullet> What infrastructure investments may be required to support a 
        more connected and automated fleet?

  <bullet> How will automated vehicles operate in a mixed fleet 
        environment alongside non-automated vehicle drivers?

  <bullet> Can we safely share the spectrum that is the backbone of 
        DSRC connected car technology?

    These are complex issues with profound cultural ramifications, and 
resolving them will require significant coordination between federal, 
state, and local government in collaboration with industry stakeholders 
and the public. There are distinct roles that each level of government 
will play in addressing specific issues, but the result should be a 
national approach that enables the effective and widespread adoption of 
technology. We believe that the Federal Government, working closely 
with key stakeholders, should adopt a leadership role to help provide 
meaningful guidance for the development of a cohesive and complementary 
policy that is responsive to current and future technology.
    One important policy goal should be avoiding a patchwork of 
different Federal and state standards. States such as California, 
Nevada, Florida, and Michigan, as well as the District of Columbia, 
have already enacted laws related to the testing and operation of 
automated vehicles. Each of these states has taken a slightly different 
approach to the issue which presents significant challenges for the 
auto industry. For instance, what would happen when an automated 
vehicle is certified as meeting the design criteria for one state but 
not another state? Would the vehicle be banned from crossing the state 
line? From a manufacturers' perspective, a single national approach to 
the design and production of automated vehicles is of paramount 
importance. This approach should be developed at the national level, 
led by the Department of Transportation in consultation with other 
relevant agencies.
    As policymakers develop a legal and regulatory framework for 
automated vehicles, it will be important to ensure that regulations do 
not get so far ahead of the technology that they stifle innovation. For 
instance, many state statutes take a ``one size fits all'' approach to 
automated vehicles--either a car is an ``autonomous vehicle'' or it is 
not--and they fail to account for various levels of automation. As 
previously mentioned, automated vehicle technology is broader than the 
concept of the driverless car and clear definitions are important. Some 
state statutes create uncertainty regarding advanced driver assistance 
systems already in certain vehicles.
    Distinguishing between various levels of automation will be 
important in addressing when a vehicle become an ``automated'' or 
``autonomous'' vehicle, how this may impact the roles and 
responsibilities of the driver, and what additional requirements might 
be imposed on the vehicle. While we encourage legislative uniformity in 
this regard, the debate over the most appropriate definitions for 
classifying automated vehicle technology is still ongoing.
    To date, the Department of Transportation (DOT) has taken a 
measured approach towards automated vehicles regulation, and we commend 
the Federal regulators for their initial work to create a more balanced 
environment for innovation. By way of example:

  <bullet> On May 30, 2013, the National Highway Traffic Safety 
        Administration (NHTSA) issued a Preliminary Statement of Policy 
        Concerning Automated Vehicles as a mechanism to provide 
        guidance to the states permitting testing of emerging vehicle 
        technology.\2\ The document was designed to provide recommended 
        principles that states may wish to consider with respect to 
        automated vehicles. In addition, the agency also provided an 
        overview of its automated vehicle research program, and sought 
        to develop high-level descriptions explaining various levels of 
        automation.
---------------------------------------------------------------------------
    \2\ ``Preliminary Statement of Policy Concerning Automated 
Vehicles,'' NHTSA (2013)

  <bullet> On April 1, 2015, NHTSA Administrator, Mark Rosekind, wrote 
        to the Director of the California Department of Motor Vehicles 
        to provide an update on NHTSA's research on automation. The 
        agency indicated that it expects to complete several research 
        efforts over the next 24 months. In the event that NHTSA were 
        to conclude there is a need for Federal safety standards 
        concerning any aspect of these technologies, NHTSA's research 
---------------------------------------------------------------------------
        will provide important support for those standards.

  <bullet> On January 14, 2016, DOT issued an updated Statement of 
        Policy which announced a number of initiatives, including the 
        development of (1) guidance on the safe deployment and 
        operation of autonomous vehicles, providing a common 
        understanding of the performance characteristics necessary for 
        fully autonomous vehicles and the testing and analysis methods 
        needed to assess them, and (2) model state policy on automated 
        vehicles that offers a path to consistent national policy. DOT 
        also announced that NHTSA, upon request, would seek to provide 
        interpretations for how existing Federal Motor Vehicle Safety 
        Standards may apply to advanced technology, and that where 
        interpretation authority were not sufficient would encourage 
        manufacturers to submit requests to allow the deployment of 
        automated vehicle systems. In addition, the Department also 
        indicated that it plans to develop new tools and seek new 
        authorities when necessary to ensure the safe deployment of the 
        technology.\3\
---------------------------------------------------------------------------
    \3\ ``DOT-NHTSA Policy Statement Concerning Automated Vehicles 
(2016 Update),'' DOT-NHTSA (2016)

    Despite these steps, we believe DOT, in coordination with NHTSA and 
other Federal transportation agencies, must provide greater leadership 
on this issue, as we continue to observe a steady increase in the 
number of disparate legislative proposals aimed at regulating automated 
vehicles at the state level. As of March 1, 2016, over 25 automated 
vehicle bills were introduced in various parts of the country. To the 
extent possible, we believe the aforementioned NHTSA activities should 
be as inclusive as possible throughout all stages of development in an 
open and transparent process. Equally as important is ensuring 
awareness of this ongoing activity so that interested policymakers can 
continue to be informed when making key decisions that could affect the 
way in which automated vehicles are integrated as part of society. The 
initiatives that DOT has engaged in are an important first step towards 
a balanced, data-driven policy that will be national in scope; however, 
the Department must assume a more active and engaged role to accomplish 
this goal. Providing clear long-term strategic direction and leadership 
that extends beyond research is critical.
    Federal leadership is also of paramount importance given the 
convergence of automated technology and DSRC technology supporting 
connected cars. Vehicle-to-Vehicle (V2V) and Vehicle-to-Infrastructure 
(V2I) technology can be utilized to enhance and supplement the benefits 
of automation. DSRC technology will allow the transmission of messages 
between vehicles about vehicle speed, heading, brake status, and other 
information with range and ``line-of-sight'' capabilities that exceed 
camera or radar-based systems currently supporting automated features. 
DSRC is expected to augment on-board sensor information to help improve 
the decisions made by automated vehicles regarding safety-critical 
situations and also improve the transition to a more automated fleet in 
the future through increased situational awareness between both 
automated and non-automated vehicles on the road. We expect NHTSA to 
publish a notice of proposed rulemaking later this year that would 
require new motor vehicles to be equipped with DSRC equipment, and 
Global Automakers supports NHTSA's plans to mandate the technology.
    DSRC is a critical technology to achieve the full benefits of 
networked, automated vehicles. For these reasons, we need to ensure 
that the 5.9GHz spectrum band is protected for DSRC to operate without 
harmful interference. We continue to work on testing in this area and 
hope to have a positive conclusion in the near future; however, we 
caution policymakers against making hurried decisions concerning 
whether unlicensed technologies can share operations in the 5.9 GHz 
band. Thorough testing needs to be completed before any consideration 
is given to allowing unlicensed technologies to operate in the band.
    As vehicles become more connected and automated, automakers also 
are proactively taking steps to protect the security and integrity of 
automated vehicle systems and consumer data. While privacy and 
cybersecurity are complex issues, the enormous benefits of automated 
and connected car technologies outweigh the challenges that come with 
living in a connected world. As automakers pursue these innovations and 
the benefits that they bring, we recognize strong cybersecurity and 
privacy protections are essential to building consumer confidence.
    In 2015, the auto industry established the Automotive Information 
Sharing and Analysis Center (Auto-ISAC) to share intelligence on 
immediate threats and vulnerabilities between trusted industry 
stakeholders. In addition, the Association of Global Automakers, 
Alliance of Automobile Manufacturers, and the Auto-ISAC are working 
collaboratively to develop cybersecurity best practices which will be 
modelled after the Cybersecurity Best Practices Framework the auto 
industry published in January of this year.\4\ This Best Practices 
Framework, which was inspired by the National Institute of Standards 
and Technology (NIST) Framework for Improving Critical Infrastructure 
Cybersecurity, and other cybersecurity models, provides a foundation 
for the development of industry-led best practices that we believe 
provides greater flexibility to respond in a dynamic technology 
environment, compared to the traditional regulatory and guidelines 
models typically used by NHTSA.
---------------------------------------------------------------------------
    \4\ ``Framework for Automotive Cybersecurity Best Practices'' 
(2016)
---------------------------------------------------------------------------
    In addition to measures to address cybersecurity, U.S. automakers 
proactively took steps in 2014 to protect the privacy of consumers 
through the responsible stewardship of information collected from in-
vehicle technologies and services and the meaningful disclosure of 
privacy policies and practices.\5\ We engaged with privacy advocates 
and the Federal Trade Commission (FTC) during the development of these 
principles. As of January of this year, all major automakers are 
accountable to the FTC for these privacy commitments.
---------------------------------------------------------------------------
    \5\ ``Privacy Principles for Vehicle Technologies and Services,'' 
(2014)
---------------------------------------------------------------------------
    The automobile industry continues to provide innovative 
technologies with demonstrable safety, mobility, and environmental 
impacts. Our industry is undergoing rapid changes as we work to meet 
today's safety and environmental regulations, and as we strive towards 
the long-term goals of saving lives, reducing greenhouse gas emissions, 
and providing the consumer with exciting vehicles that meet their 
needs. These changes take time, commitment and investment to see 
through. They require close collaboration and coordination among and 
between government, industry, academia, and other stakeholders. Global 
Automakers and our member companies believe that automated vehicles 
represent the next giant leap towards our shared long-term goal of 
safer and cleaner vehicles.
                                 ______
                                 
                 Alliance of Automobile Manufacturers, Inc.
                     Association of Global Automakers, Inc.
                                                  February 11, 2016

Hon. Anthony R. Foxx,
Secretary,
U.S. Department of Transportation,
Washington, DC.

Dear Secretary Foxx:

    We are writing to you on behalf of the members of the Alliance of 
Automobile Manufacturers, Inc. (Alliance)\1\ and the Association of 
Global Automakers, Inc. (Global Automakers),\2\ to express strong 
support for your efforts to identify and address obstacles in the 
current regulatory framework to the implementation of safety 
innovations. We agree with you that this is an exciting and optimistic 
time for the auto industry; indeed, we believe the joint efforts of the 
Department and industry will further promote our shared safety, fuel 
economy and mobility goals.
---------------------------------------------------------------------------
    \1\ The members of Alliance of Automobile Manufacturers are BMW 
Group, FCA U.S. LLC, Ford Motor Company, General Motors Company, Jaguar 
Land Rover, Mazda, Mercedes-Benz USA, Mitsubishi Motors, Porsche Cars 
North America, Toyota, Volkswagen Group of America and Volvo Cars of 
North America.
    \2\ The members of the Association of Global Automakers are 
American Honda Motor Co., Aston Martin Lagonda of North America, Inc., 
Ferrari North America, Inc., Hyundai Motor America, Isuzu Motors 
America, Inc., Kia Motors America, Inc., Maserati North America, Inc., 
McLaren Automotive Ltd., Nissan North America, Inc., Subaru of America, 
Inc., Suzuki Motor of America, Inc., and Toyota Motor North America, 
Inc.
---------------------------------------------------------------------------
    In the spirit of your initiative, we highlight four examples where 
the National Highway Traffic Safety Administration (NHTSA) could help 
accelerate safety technologies. All four are in the pipeline. We ask 
that the Department move expeditiously to address the following 
petitions for rulemaking and requests for interpretation in order to 
facilitate these technologies that help allow for a safer driving 
experience:

        Advanced Forward Lighting (Adaptive Driving Beam Headlamps): 
        Petition for Rulemaking to amend Federal Motor Vehicle Safety 
        Standard (FMVSS) 108 to permit Adaptive Driving Beam (ADB) 
        headlamps that are already allowed in Europe. ADB preserves or 
        enhances forward illumination while protecting against glare 
        for oncoming drivers.

        This petition was submitted by Toyota in March 2013 and is 
        supported by the Alliance, Global Automakers and the Truck & 
        Engine Manufacturers Association (EMA).

        Expanded Field of View (Camera-based vision systems): Petition 
        for Rulemaking to amend FMVSS 111 to allow the use of camera-
        based rear and side vision systems in lieu of side and rearview 
        mirrors. Camera-based rear and side view monitoring systems are 
        enablers to increased fuel economy and driver field of view, 
        which is particularly helpful for older drivers. European 
        regulators are moving quickly to allow these systems.

        This petition was submitted by the Alliance and Tesla Motors in 
        March 2014.

        Advanced/More Efficient Powertrains (Fuel Cell & Hybrid 
        Vehicles): Petition for Rulemaking to amend FMVSS 305 to allow 
        physical barriers and to specify isolation resistance 
        requirements to provide protection against electric shock. 
        Amending FMVSS 305 as requested would enable the introduction 
        of fuel cell and 48-volt hybrid vehicles.

        This petition was submitted by the Alliance in November 2014.

        Advanced Crash Avoidance Safety Systems (Automatic Emergency 
        Braking): Request for Interpretation of the requirements of 49 
        C.F.R. 581 relating to low-speed bumper performance. A 
        favorable interpretation is needed to help accelerate the 
        implementation of advanced crash avoidance technologies such as 
        automatic emergency braking (AEB) technology, the adoption of 
        which is leading to a statistically significant reduction in 
        crashes and the corresponding injuries and property damage.

        This request was submitted by the Alliance and Global 
        Automakers in January 2016.

    Finally, we write to convey our agreement with you that we have 
entered an era in which we are rapidly reinventing personal 
transportation with the potential to save lives. Toward that end, we 
recommend that the Department consider establishing procedures for 
addressing regulatory obstacles to the adoption of innovative 
technologies on an expedited basis that are identified by industry in 
the future.
    Specifically, we recommend that 49 C.F.R. 552 be amended to add a 
new subpart--Subpart C--to establish procedures for the submission and 
expedited disposition of rulemaking petitions and requests for 
interpretations that seek to eliminate roadblocks to the integration of 
innovative, transformative automotive technology that can significantly 
improve safety, mobility, and sustainability. Such procedures, if 
established, would not be unprecedented as similar procedures were 
established in 2000 to help facilitate the development of airbag 
dynamic automatic suppression systems (DASS) then under consideration. 
Of course, with any expedited rulemaking process, it will be important 
to make sure that all stakeholders have sufficient input to ensure that 
the results are scientific and data-driven.
    The Members of the Alliance and Global Automakers are proud of 
their role in developing and implementing technologies that are making 
personal transportation ever safer, cleaner and more fuel efficient. We 
welcome your prompt consideration of these matters. We stand ready to 
help in whatever way we are able.
            Sincerely,

Alliance of Automobile Manufacturers
Mitch Bainwol
President and CEO
Association of Global Automakers
John Bozzella
President and CEO

cc: The Honorable Mark R. Rosekind, Administrator
National Highway Traffic Safety Administration
Mr. Blair Anderson, Deputy Administrator
National Highway Traffic Safety Administration

    The Chairman. We have before us today a great panel. I want 
to welcome them here. First is Dr. Chris Urmson, who is 
Director of Self-driving Cars for Google X; Mr. Mike Ableson, 
Vice President, Strategy and Global Portfolio Planning, General 
Motors Company; Mr. Glen De Vos, who is the Vice President, 
Global Engineering and Services, Electronics and Safety at 
Delphi Automotive; Mr. Joseph Okpaku, who is the Vice President 
of Government Relations for Lyft; and, as I mentioned earlier, 
Dr. Mary (``Missy'') Louise Cummings, Director of Human and 
Autonomy Lab and Duke Robotics at Duke University.
    So welcome to all of you. Thank you for participating 
today. We'll start on my left and your right with Dr. Urmson 
and then proceed as each of you complete. And if you could, at 
least as close as possible, stay to the 5-minute time allotment 
so we will have ample time for Members to ask questions. I 
think we'll have good participation today. So thank you all for 
being here.
    Dr. Urmson?

           STATEMENT OF DR. CHRIS URMSON, DIRECTOR, 
                  SELF-DRIVING CARS, GOOGLE X

    Dr. Urmson. Thank you, Chairman Thune, Ranking Member 
Nelson, and members of the Committee. Thank you for inviting me 
to testify today about the potential for self-driving cars to 
improve the lives of people everywhere.
    My name is Chris Urmson, and I've been leading the 
technology development of Google's self-driving car program 
since 2009. The video we would have shown earlier captures many 
of the reasons why we're excited about this technology. NHTSA 
estimates that 38,000 people were killed on America's roads 
last year, and 94 percent of accidents involve human error.
    Self-driving cars can help us change that. Not only could 
our roads be a lot safer, but self-driving cars could bring 
everyday destinations and new opportunities within reach of 
those who might otherwise be excluded by their inability to 
drive a car. We believe that to actually realize all those 
benefits and many more, we need cars that are fully self-
driving. That is, the car must be designed to do all the work 
so that the occupants are not expected to take control of the 
vehicle at any time.
    We're now testing self-driving prototype vehicles in three 
different states. Over the last 7 years, we've driven over 1.4 
million miles in autonomous mode. All our testing using real 
complex scenarios helps us analyze, evaluate, and improve how 
our cars perform.
    Today, Congress has a huge opportunity to help ensure that 
self-driving cars can be safely deployed at scale. We currently 
face a growing patchwork of state laws and regulations on self-
driving cars that has the potential to become unworkable. In 
the past 2 years, 23 states have introduced 53 pieces of 
legislation that affect autonomous vehicles, all of which 
include different approaches and concepts. If every state is 
left to go its own way, it would be extremely impractical to 
operate an autonomous vehicle across state boundaries. We are 
grateful to the Department of Transportation and Secretary Foxx 
for their vision and commitment to help in the deployment of 
self-driving cars.
    NHTSA has issued helpful clarifications of existing safety 
standards. But we must remember that current regulations were 
written at a time when the idea that a car could drive itself 
was science fiction. NHTSA has indicated that new authorities 
may be needed to safely deploy these technologies going 
forward.
    Congressional action is needed to keep pace. We propose 
that Congress move swiftly to provide the Secretary of 
Transportation with targeted new authority to approve 
lifesaving safety innovations. This new authority would allow 
the deployment of innovative safety technologies that meet or 
exceed the level of safety required by existing Federal 
standards while ensuring and prompt and transparent process.
    We look forward to working with this committee, DOT, and 
NHTSA to ensure that this type of new authority can effectively 
achieve the safety and innovation benefits of fully self-driven 
cars. We also believe that it will help continue U.S. 
leadership on this technology for the years ahead.
    The importance of getting self-driving car technology 
safely into people's hands is best summed up by those who need 
it most. During a recent California DMV workshop to discuss the 
technology, regulators heard from Justin Harford, a man who is 
legally blind. Justin said, ``What this is really about is who 
gets to access transportation and commerce and who doesn't, and 
I'm frankly tired of people with disabilities not being able to 
access commerce.'' Our team at Google believes that self-
driving cars can ultimately remove these transportation 
barriers from our society.
    Thank you for your help in creating a path for this 
technology and for your time and consideration today.
    [The prepared statement of Dr. Urmson follows:]

 Prepared Statement of Dr. Chris Urmson, Director, Self-Driving Cars, 
                               Google [x]
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee:

    Thank you for inviting me to testify today about the potential for 
autonomous vehicle technology to improve the lives of people 
everywhere.
    My name is Chris Urmson. Since 2009, I have been leading the 
technical development of Google's self-driving car technology. I also 
served on the faculty at Carnegie Mellon University and was previously 
Director of Technology for the team that won the 2007 DARPA Urban 
Challenge.
    We are grateful for the opportunity to discuss the promise of this 
technology, including the potential for tremendous gains in safety and 
productivity. I will share an overview of our work on self-driving 
cars, including where we currently stand, and some of the lessons we 
have learned along the way. Perhaps most importantly for this 
conversation, I will discuss the crucial role that Federal policymakers 
have in enabling the development and deployment of this innovative 
safety technology for the U.S. public. Today, Congress has a huge 
opportunity to further this field by enabling the U.S. Department of 
Transportation to pave the way for the deployment of this innovative 
safety technology, which will help reduce the more than 6 million 
traffic accidents that are reported in the U.S. every year.
Google's development and testing of fully self-driving cars
    When Google started working on self-driving vehicles over seven 
years ago, our goal was to transform mobility by making it safer, 
easier, and more enjoyable to get around. What drives our team is the 
potential that this technology has to make our roads safer. NHTSA 
estimates that traffic accidents killed over 38,000 Americans in 2015 
and the World Health Organization estimates that 1.2 million lives are 
lost to traffic accidents globally every year. These are numbers that 
could be reduced significantly with fully self-driving cars, especially 
since 94 percent of accidents in the U.S. are due to human error.
    In addition to improving roadway safety, self-driving cars can 
bring everyday destinations and new opportunities within reach of those 
who might otherwise be excluded by their inability to drive a car. For 
people who are blind, elderly, or living with conditions that would 
otherwise make driving difficult or impossible, this technology offers 
the promise of mobility and independence that has never before been 
available. One woman in Southern California who lost her ability to 
drive 15 years ago told us, ``my life has become very expensive, 
complicated, and restricted'' since she had to start paying drivers and 
enduring long waits for buses and trains.
    The technology also has the potential to reduce current Federal 
spending pressures for roadways, parking, and public transit--all of 
which were key considerations in this Committee's work on the FAST Act. 
Over the next three decades, the U.S. Department of Transportation 
expects that self-driving cars will play a key role in reducing transit 
operating costs, improving highway efficiency, and freeing up existing 
parking infrastructure (which currently takes up a total area of 3,000 
square miles in the U.S., equivalent to the size of Connecticut).\1\
---------------------------------------------------------------------------
    \1\ U.S. Department of Transportation, ``Beyond Traffic 2045: 
Trends and Choices,'' February 2, 2015, <https://
www.transportation.gov/sites/dot.gov/files/docs/
Draft_Beyond_Traffic_Fra
mework.pdf>.
---------------------------------------------------------------------------
    These benefits are closer to being unlocked now that significant 
portions of the automotive industry are investing in self-driving car 
technology. In the years immediately following the DARPA Urban 
Challenge, both government and private sector investments in this 
technology were extremely limited, but now a wide range of companies 
across the auto and tech industries--including those testifying on this 
panel today--are placing bets on self-driving cars.
    Between 2011 and 2013 our development efforts focused on autonomous 
driving for highways by modifying existing vehicles like the Toyota 
Prius and the Lexus RX450h. Our early tests involved employees driving 
manually up to a freeway, engaging the autonomous mode, and then 
monitoring the car until the exit. But in 2013, we decided that to 
fully realize the safety promise of this technology and serve the most 
people--even those without a license--our technology needed to be 
capable of doing all the driving, without human intervention necessary. 
NHTSA defines this as ``fully autonomous vehicles,'' or ``Level 4'' on 
a NHTSA scale for automation established in 2013. Developing a car that 
can shoulder the entire burden of driving is crucial to safety: we saw 
in our own testing that the human drivers can't always be trusted to 
dip in and out of the task of driving when the car is encouraging them 
to sit back and relax.\2\ The Virginia Tech Transportation Institute 
has measured this phenomenon extensively and found that human operators 
of partially self-driving cars in a NHTSA-sponsored study took up to 17 
seconds to respond to alerts and take control of the vehicle.\3\
---------------------------------------------------------------------------
    \2\ Google SelfDriving Car Project, Monthly Report, October 2015. 
<http://static.google
usercontent.com/media/www.google.com/en//self-drivingcar/files/reports/
report1015.pdf>
    \3\ National Highway Traffic Safety Administration, ``Human Factors 
Evaluation of Level 2 and Level 3 Automated Driving Concepts,'' August 
2015 <http://www.nhtsa.gov/DOT/NHTSA/NVS/Crash%20Avoidance/
Technical%20Publications/2015/812182_HumanFactorsEvalL2L3-
AutomDrivingConcepts.pdf>
---------------------------------------------------------------------------
    That's why in 2014, we announced that we were developing a new 
self-driving vehicle prototype from the ground up--one designed to 
require no human intervention to get from point A to point B. Exploring 
what such a vehicle could look like meant making big changes to the 
features of a car and building in some unique capabilities. For 
example, we were able to:

  <bullet> Change the shape of the vehicle so our radar, laser, and 
        camera sensors can be placed for an optimal 360 degree field of 
        view and see as far out as two football fields;

  <bullet> Build in backup self-driving systems for braking, steering, 
        computing, and more in the event that one of the main systems 
        fails;

  <bullet> Build in new protections for pedestrians. The front of our 
        prototype vehicles is padded with a special foam-like material 
        that absorbs the energy of an impact, their windshields are 
        made from a flexible material, and their side mirrors are 
        magnetic and easily break away;

  <bullet> Take out the steering wheel and pedals, as the software is 
        responsible for the driving;

  <bullet> Bake in defensive driving behavior to avoid having the car 
        get into tricky situations. Our car doesn't get tired, 
        distracted, or angry. They're designed to stay out of other 
        drivers' blind spots, nudge away from lane-splitting 
        motorcycles, and pause for 1.5 seconds after traffic lights 
        turn green to avoid red light runners.

    Today, our fleet includes 33 of these prototype vehicles and 23 
modified Lexus SUVs. For now, test drivers are aboard all of our 
vehicles to monitor how the cars drive, and to provide feedback to our 
engineering team. All our prototype vehicles are equipped with 
removable steering wheels, accelerator pedals, and brake pedals that 
allow our test drivers to take over driving if needed while testing.
    We have been testing our vehicles on California's public roads for 
over 7 years, and we recently expanded testing to parts of Austin, 
Texas, and Kirkland, Washington. So far, we've driven over 1.4 million 
miles in autonomous mode--that's the equivalent of 108 years on the 
road, based on a typical American adult driving about 13,000 miles per 
year.
    In our 7 years of testing, we've been involved in 17 minor crashes 
while driving autonomously. We publish details about the circumstances 
of every crash on our website, regardless of its severity. While the 
vast majority of these incidents have been a result of distracted or 
inattentive driving by other human drivers on the road, we investigate 
each event and determine whether any improvements to our software and 
hardware are needed. Using our simulator, we replay and analyze each 
incident and test our software against hundreds of variations on the 
same event (for example, we simulate different speeds and positions of 
other vehicles). We take anything we learn and roll these changes out 
to our entire fleet.
    Testing on public roads allows our cars to experience real, complex 
scenarios that help us improve our systems. We're also constantly 
testing, analyzing and evaluating how our software performs in multiple 
other ways, including on the test track and in our simulator (in which 
our software drives more than 3 million miles a day).
    We look forward to learning how different communities perceive and 
interact with our vehicles.
    We publish monthly reports with summaries of how far we've 
traveled, new capabilities we're adding, and any accident 
encountered.\4\ Getting people's reactions and feedback is an important 
part of the learning process. We want to see how people might think 
differently about a vehicle when it ultimately requires them to do 
nothing but get in, buckle up, and ride. Educating people about the 
technology is an important step in building consumer confidence in this 
lifesaving innovation. So far we've found that people find it very 
mentally freeing and relaxing to just get in and not have to do 
anything more than press a button.
---------------------------------------------------------------------------
    \4\ Google SelfDriving Car Project, Monthly Reports, <http://
www.google.com/self-drivingcar/reports/>
---------------------------------------------------------------------------
Federal leadership is needed to enable fully self-driving cars
    The Federal Government plays a pivotal role in setting safety 
standards for motor vehicles with the powers that Congress vested in 
NHTSA more than half a century ago. We're encouraged that the 
Department of Transportation (DOT) has recognized the safety, 
environmental, and accessibility benefits of self-driving cars. 
Secretary Foxx has pledged to work quickly with Federal and state 
policy makers to ensure the right policies and guidance are in place to 
encourage innovation in this field. We welcomed his commitments in 
January to develop tools, including possible new authorities for NHTSA 
and DOT, to ensure that self-driving cars can be safely deployed at 
scale.
    The leadership of the Federal Government is critically important 
given the growing patchwork of State laws and regulations on self-
driving cars. Last December, we were disappointed that California 
released draft regulations for operation of autonomous vehicles that 
specifically excluded fully self-driving cars, despite strong public 
support for this technology, particularly from the disability 
community. Further, in the past two years, 23 states have introduced 53 
pieces of legislation that affect self-driving cars--all of which 
include different approaches and concepts. Five states have passed such 
legislation, and--although all were intended to assist the development 
of the technology in the state--none of those laws feature common 
definitions, licensing structures or sets of expectations for what 
manufacturers should be doing. If every state is left to go its own way 
without a unified approach, operating self-driving cars across state 
boundaries would be an unworkable situation and one that will 
significantly hinder safety innovation, interstate commerce, national 
competitiveness, and the eventual deployment of autonomous vehicles.
    As we work toward building a fully self-driving car, having clarity 
on how existing laws and regulations apply is critical for Google and 
others working on this technology. In November, Google wrote to NHTSA 
asking for an interpretation of the existing Federal Motor Vehicle 
Safety Standards (FMVSS) and how they may pertain to self-driving cars. 
NHTSA replied to our request for interpretations in early February of 
this year. Importantly, they agreed that for the purposes of the safety 
standards, a ``driver'' in a fully self-driving car can be the self-
driving system itself.
    While this clarification from NHTSA was a very positive step 
forward, it does not change the fact that current regulations--
including most of the FMVSS--were written at a time when a self-driving 
car was nothing more than an idea. In certain instances, these current 
standards are overly prescriptive in ways that could make a fully self-
driving car less safe. In situations where the car is safely making 100 
percent of the driving decisions, having controls that allow a 
passenger to change its trajectory or operate turn signals or 
headlamps--for which manual controls are currently mandated in the 
Federal standards--may make the operation of the car less safe. As 
described above, various studies have documented the hazards of having 
human drivers ``switch back'' to the task of driving when they are not 
expecting it. There are also many Federal standards that simply are not 
needed when a human is not operating the vehicle, such as requirements 
to include a rear view mirror.
    NHTSA's reply to our request for interpretation and its 2017 
Congressional budget request both highlighted that ``[n]ew authorities 
may be needed when they are necessary to ensure that fully autonomous 
vehicles, including those designed without a human driver in mind, are 
deployable in large numbers when demonstrated to provide an equivalent 
or higher level of safety than is now available.''
    We strongly support NHTSA's goals and believe that Congressional 
action is needed to keep pace with safety technologies being developed 
by vehicle manufacturers and technology innovators, including fully 
self-driving cars.
    To achieve this goal, we propose that Congress move swiftly to 
provide the Secretary of Transportation with new authority to approve 
lifesaving safety innovations. This new authority would permit the 
deployment of innovative safety technologies that meet or exceed the 
level of safety required by existing Federal standards, while ensuring 
a prompt and transparent process.
    We look forward to working with this Committee, DOT, and NHTSA to 
ensure that this type of new authority can effectively achieve the 
safety and innovation benefits of fully self-driving cars. We also 
believe that these policysetting opportunities will help continue U.S. 
leadership on this technology for the years ahead.
Conclusion
    In the coming years, we'd like to explore driving in other cities 
that can teach us about different types of challenging weather and 
terrain. We'd also like to run pilot programs to learn what people 
would like to do with fully self-driving vehicles. If the technology 
develops as we hope, we'll work with partners to bring this technology 
into the world safely.
    The importance of getting self-driving car technology safely into 
people's hands is best summed up by those who most need it. During a 
recent California DMV workshop to discuss the technology, regulators 
heard from Justin Harford, a man who is legally blind. Justin said: 
``what this is really about is who gets to access transportation and 
commerce and who doesn't and I'm frankly tired of people with 
disabilities not being able to access commerce.''
    Our team at Google believes that self-driving cars can ultimately 
remove these transportation barriers from our society. Thank you for 
your help in creating a path for this technology and for your time and 
consideration today.

    The Chairman. Thank you, Dr. Urmson.
    Mr. Ableson?

 STATEMENT OF MICHAEL F. ABLESON, VICE PRESIDENT, STRATEGY AND 
       GLOBAL PORTFOLIO PLANNING, GENERAL MOTORS COMPANY

    Mr. Ableson. Good afternoon. Thank you, Chairman Thune, 
Ranking Member Nelson, and Committee members, for the 
opportunity to speak to you on autonomous vehicles and the way 
they could improve the safety, convenience, and effectiveness 
of our 21st century transportation system.
    My position inside General Motors is Vice President of 
Portfolio Planning and Strategy, and in that position, I spend 
a lot of time thinking about what will happen to our industry 
over time and what opportunities there are and how to position 
General Motors to take advantage of those opportunities. As you 
may know, General Motors has been very active in the autonomous 
space with several recent announcements. All of these are aimed 
at our goal of earning customers for life by redefining the 
nature of personal mobility and extending our relationship with 
our customers beyond the car.
    There are four principal areas to this initiative: 
autonomous driving, connectivity, electrification, and ride 
sharing. All of these are built on the same bedrock principle: 
Our top priority must be safety. I'd like to focus my few 
minutes today on autonomy.
    GM has a long history with autonomous vehicle research and, 
as our recent announcements have shown, is striving to lead in 
automated driving technologies. From our partnership with 
Carnegie Mellon University, which in 2007 won the DARPA Urban 
Challenge by autonomously covering 60 miles at an average speed 
of 14 miles per hour, to our acquisition last week of Cruise 
Automation, GM is rapidly redefining personal mobility.
    Many of today's active safety technologies, such as full-
speed range adaptive cruise control and lanekeeping assist, are 
steps toward autonomous driving. We are deploying these 
technologies across more of our portfolio and are also bringing 
additional safety enhancing technologies like forward collision 
warning to vehicles at all price points, including inexpensive 
models such as the Chevrolet Spark.
    GM expects to be the first automaker to bring Dedicated 
Short Range Communications, a vehicle to vehicle safety 
technology, to market late this year in the 2017 Cadillac CTS. 
This technology will enable vehicles to communicate important 
safety and mobility information to one another.
    Super Cruise, a feature that allows hands-free and feet-
free driving on the highway, will also debut in the 2017 
Cadillac CT6. It incorporates many of the camera, GPS, mapping, 
and radar technologies that will be crucial to increasing 
automation in the future.
    Additionally, our recent investment in the ride-sharing 
company Lyft complements GM's expertise in autonomous vehicles 
by providing a ride-sharing platform to support potential 
deployment programs. Our acquisition last week of Cruise 
Automation is another important milestone in our work to deploy 
autonomous vehicles.
    Founded in 2013, Cruise has moved quickly to develop and 
test autonomous vehicle technology in San Francisco's very 
challenging city environment. Cruise's deep software talent and 
rapid development capability, when combined with GM's resources 
and expertise, will further accelerate our development of 
autonomous vehicle technology.
    These efforts inside the company are being spearheaded by a 
recently formed, Vice President-led engineering team focused on 
accelerating the deployment of autonomous vehicles. But make no 
mistake. Our focus will be on doing this safely.
    We believe that the next logical step toward public 
availability of the autonomous vehicles will be controlled 
ride-sharing projects, such as those we are planning with Lyft. 
These projects will allow the public to safely experience 
autonomous vehicles without making a significant financial 
investment. This could speed public acceptance of autonomous 
vehicles while, at the same time, protect public safety through 
the ownership and control of the vehicle fleet by the vehicle 
manufacturer. This style of deployment also encourages 
partnership with local and state governments, which will help 
ensure full public benefit of the technology.
    In closing, GM enthusiastically supports policy initiatives 
to accelerate the development and adoption of safe, high-level 
automation through real-world projects. We look forward to 
working with Congress and NHTSA to spur development of these 
technologies as safely and rapidly as possible.
    I look forward to answering your questions. Thank you.
    [The prepared statement of Mr. Ableson follows:]

Prepared Statement of Michael F. Ableson, Vice President, Strategy and 
           Global Portfolio Planning, General Motors Company
    Good afternoon.
    Thank you Chairman Thune, Senator Nelson and Committee members for 
the opportunity to speak to you today on autonomous vehicles and the 
way they could improve the safety, convenience and effectiveness of our 
21st Century transportation system.
    As you may know, General Motors has been very active in the 
autonomous space with several recent announcements. All of these are 
aimed at our goal of earning customers for life by redefining the 
nature of personal mobility and extending our relationship with our 
customers beyond the car. There are four principal areas to this 
initiative: autonomous driving; connectivity; electrification and ride 
sharing.
    All of these are built on the same bedrock principle: Our top 
priority must be safety.
    I'd like to focus my few minutes today on autonomy. GM has a long 
history with autonomous vehicle research and, as our recent 
announcements have shown, is striving to lead in automated driving 
technologies. From our partnership with Carnegie Mellon University, 
which in 2007 won the ``DARPA Urban Challenge'' by autonomously 
covering 60 miles of territory at an average speed of 14 miles per 
hour, to our acquisition last week of Cruise Automation, GM is rapidly 
redefining personal mobility.
    Many of today's active safety technologies, such as full-speed 
range adaptive cruise control and lane-keeping assist, are building 
block technologies toward driving automation and autonomous driving. We 
are deploying these technologies across more of our portfolio and are 
also bringing additional safety-enhancing technologies like forward 
collision warning to vehicles at all price points, including 
inexpensive models such as the Chevrolet Spark.
    The sensors, cameras, radars, LIDARs and computer controls required 
for fully autonomous vehicles are all improving quickly, but will need 
significant technological advancements before they are ready for 
universal public deployment.
    That said, there are many opportunities to take advantage of much 
sooner and GM is at the forefront of those developments.
    GM expects to be the first automaker to bring Dedicated Short Range 
Communications, or DSRC, Vehicle to Vehicle safety technology to market 
late this year in the 2017 Cadillac CTS. This technology will enable 
vehicles to communicate important safety and mobility information to 
one another.
    Super Cruise, a driving automation feature that allows hands-free 
and feet-free driving on the highway, will also debut in 2017 on the 
Cadillac CT6. It incorporates many of the camera, GPS, mapping and 
radar technologies that will be crucial to increasing automation in the 
future.
    Additionally, our recent investment in the ride-sharing company 
Lyft complements GM's expertise in autonomous vehicles by providing a 
ride-sharing platform to support potential deployment programs.
    Our acquisition last week of Cruise Automation is another important 
milestone in our work to deploy autonomous vehicles. Founded in 2013, 
Cruise has moved quickly to develop and test autonomous vehicle 
technology in San Francisco's challenging city environment. Cruise's 
deep software talent and rapid development capability, combined with 
GM's resources and expertise, will further accelerate our development 
of autonomous vehicle technology.
    These efforts are being spearheaded by a recently formed, vice 
president-led engineering team focused on accelerating the deployment 
of autonomous vehicles. One of those executives will oversee autonomous 
fleets in controlled environments that can provide the deep learning 
and experience to get us closer to fully autonomous driving.
    But make no mistake, our focus will be on doing this safely.
    We believe that the next logical step toward public availability of 
high-level automated vehicles will be controlled ride-sharing projects, 
such as what we are planning with Lyft.
    The lessons from these projects and how these vehicles function in 
multiple real-world environments will also allow the public to safely 
experience autonomous vehicles without making a significant financial 
investment. This could speed public acceptance of autonomous vehicles, 
while, at the same time, protect public safety through the ownership 
and control of the vehicle fleet by the manufacturer of the automated 
driving system. This style of deployment also encourages partnership 
with local and state governments, which will help ensure full public 
benefit from the technology.
    In closing, GM enthusiastically supports policy initiatives to 
accelerate the development and adoption of safe, high-level vehicle 
automation through real-world projects.
    I look forward to answering any questions you have.

    The Chairman. Thank you, Mr. Ableson.
    Mr. De Vos?

STATEMENT OF GLEN W. De Vos, VICE PRESIDENT, GLOBAL ENGINEERING 
                AND SERVICES, DELPHI AUTOMOTIVE

    Mr. De Vos. Good afternoon, and thank you, Chairman Thune, 
Ranking Member Nelson, and members of the Committee on 
Commerce, Science, and Transportation, for giving me the 
opportunity to testify on behalf of Delphi Automotive. My name 
is Glen De Vos. I'm the Vice President of Engineering and 
Services at Delphi. We're a high-tech company that integrates 
safer, greener, and more connected solutions for the automotive 
sector.
    We spend more than $1.7 billion annually in engineering 
development activities and operate major manufacturing and 
technology centers across the United States. Delphi's portfolio 
places us at the center of vehicle evolution and innovation, 
making products smarter and safer as well as more powerful and 
efficient.
    I would like to start by thanking the Committee for 
incorporating the Safety Through Informed Consumers, or STICRS, 
Act into the FAST Act, which was signed into law last year. In 
particular, I'd like to thank the bill sponsors, Senators 
Heller and Markey, as well as Chairman Thune and Ranking Member 
Nelson, for their successful effort to get STICRS enacted.
    With the incorporation of STICRS, the FAST Act will speed 
the adoption of active safety technology, also known as 
Advanced Driver Assistance Systems, or ADAS, through increased 
consumer demand. The adoption of ADAS systems is a critical 
step on the road to automated vehicles since those same systems 
that will enable automated driving are part of today's active 
safety systems.
    As noted in our video, which we were, unfortunately, not 
able to show, last year, we made a historic fifteen state, 
3,400-mile journey from San Francisco to New York City with a 
car that, for 99 percent of that driving time, was driven 
without human input. The drive took place during daylight hours 
and included an engineer behind the wheel with the ability to 
assume control if the car encountered a situation where the 
vehicle could not clearly navigate on its own.
    The vehicle performed flawlessly. It was able to make 
complex decisions necessary to drive safely across the country 
while, unlike human drivers, remaining alert the entire time.
    One of the primary takeaways from the cross-country drive 
is that we have technology available today in the consumer 
marketplace that can dramatically reduce deaths and injuries on 
our roads. These technologies are not just lifesavers but, as 
demonstrated by that drive, the building blocks for automated 
cars of the future. This is true both from a technology 
development as well as from a consumer adoption standpoint. As 
a recent AAA survey confirmed, ADAS technology will help drive 
consumer acceptance of vehicle autonomy.
    The Committee's inclusion of STICRS in the FAST Act was a 
major step forward in driving consumer adoption of ADAS. NHTSA 
has responded and has announced its intention to modernize the 
New Car Assessment Program to require passenger vehicles to 
have ADAS systems in order to achieve a five-star rating. This 
is great progress and should dramatically increase the 
availability of active safety systems on vehicles at every 
price point.
    It is critical that we capture these safety improvements 
quickly. STICRS requires NHTSA to promulgate the new NCAP rule 
within a year of enactment, and it is important that this 
timeline does not slip.
    In an automated future, we need to be able to communicate 
with not just the driver or the owner, but also the surrounding 
environment. Knowing when traffic signals are going to change 
and where vehicle traffic is heaviest not only adds to the 
safety of the vehicle but allows the cars to be driven or to 
drive themselves more efficiently. Keeping the necessary 
spectrum both available and free from harmful interference is 
critical as V2V and the Dedicated Short Range Communication, or 
DSRC, systems that make it possible are rolled out.
    It is also important to consider the manner in which 
existing vehicles can be retrofitted to accommodate DSRC 
requirements. There are approximately 262 million passenger 
vehicles registered on the U.S. roadways with an average 
vehicle age of eleven and a half years. Unless retrofitting is 
built into the planning process, the rollout of DSRC may take 
decades.
    In addition to supporting technologies that are needed to 
enable automated vehicles, Congress and the administration and 
state governments will need to provide the flexibility and the 
regulatory framework necessary to enable driverless car 
development and deployment.
    Senator Nelson. That's the hazard of not numbering the 
pages.
    [Laughter.]
    Mr. De Vos. Or the hazard of not having my reading glasses.
    Finally, as we talk about cybersecurity, Delphi is keenly 
aware of the cyber threats associated with today's connected 
vehicles and is taking measures that will enable a safe and 
secure driving experience. We are participating in the Auto-
ISAC activities to further improve cybersecurity threats 
through awareness and coordination across the country.
    Delphi's dedicated engineering information and technology 
resources are focused on cybersecurity matters, and we are 
working with the NIST, SAE, as well as the OEM community to 
ensure that we meet their requirements and leverage open source 
and industry accepted information security protocols.
    Thank you again for your time and the opportunity to 
testify before the Committee today.
    [The prepared statement of Mr. De Vos follows:]

     Prepared Statement of Glen W. De Vos, Vice President, Global 
              Engineering and Services, Delphi Automotive
    Thank you, Chairman Thune, Ranking Member Nelson, and Members of 
the Committee on Commerce, Science and Transportation, for giving me 
the opportunity to testify today on behalf of Delphi.
    My name is Glen De Vos, and I am Vice President of Engineering and 
Services for Delphi Automotive. Delphi is a high-technology company 
that integrates safer, greener and more connected solutions for the 
automotive sector. We invest more than $1.7 billion annually into 
engineering development initiatives. In the U.S., Delphi operates major 
manufacturing facilities, technical centers, and/or administrative 
facilities in California, Michigan, Ohio, Indiana, New York, 
Mississippi and Texas that employ approximately 5,000 people. Delphi's 
technology portfolio places it at the center of vehicle evolution and 
innovation, making products smarter and safer as well as more powerful 
and efficient.
    Given our proven expertise with market-leading original equipment 
manufacturers (OEMs) around the world and our broad automotive systems 
capabilities, we welcome the invitation to testify.
    I would like to take this opportunity to thank the Committee for 
incorporating the Safety Through Informed Consumers (STICRS) Act into 
the Fixing America's Surface Transportation (FAST) Act which was signed 
into law last year. In particular, I would like to thank the bill's 
sponsors, Senators Heller and Markey, as well as Chairman Thune and 
Ranking Member Nelson for their successful efforts to get STICRS signed 
into law.
    With the addition of STICRS, the FAST Act will speed the adoption 
of active safety technology, also known as Advanced Driver Assistance 
Systems (ADAS), by increasing consumer demand. The adoption of ADAS 
systems is a critical step on the road to automated vehicles since the 
same systems that will enable automated driving are part of today's 
active safety systems. I will talk more about the importance of these 
technologies later in my testimony.
    Delphi is particularly pleased to testify today about the future of 
automated driving because the elements of the automated future all fit 
within Delphi's core strategy of producing products that make cars 
Safe, Green and Connected. To this end, in April of 2015, Delphi 
completed the first automated vehicle cross-country drive.
    I believe many of the lessons learned from that drive will be 
instructive as Congress and the administration move aggressively 
forward to make the needed infrastructure and legal changes necessary 
to make autonomous vehicles a commercial success in the future. 
Accordingly, I will provide an overview of the cross-country drive, the 
existing technology that made it possible, and discuss some of the 
lessons learned from the trip.
Description of cross-country drive
    Delphi made history by completing a 15-state, 3,400-mile journey 
from San Francisco to New York City with a car that, 99 percent of the 
time, was driving without human input. The drive took place during 
daylight hours and included an engineer behind the wheel with the 
ability to assume control of the vehicle if the car encountered a 
situation the vehicle could not clearly navigate on its own.
Description of onboard technologies associated with drive
    Delphi installed a broad suite of our active safety technologies on 
a 2014 Audi SQ5. The vehicle was equipped with the following 
technologies:

  <bullet> Radar systems: Our vehicle uses a combination of short-and 
        long-range radars--Electronically Scanning Radars (ESR) and 
        Short Range Radars (SRR) in a 360+ configuration. The ESRs 
        specialize in long-range sensing functions, such as adaptive 
        cruise control and cross traffic detection.

  <bullet> Vision systems: The vehicle is equipped with three cameras 
        for vision-based perception: an ADAS camera, a high-resolution 
        color camera, and an infrared camera. The ADAS camera is used 
        for pedestrian, lane, and vehicle detection. The high-
        definition color camera is used for traffic light detection and 
        the infrared camera provides redundancy for pedestrian and 
        vehicle detection.

  <bullet> Lidar: As opposed to the externally high-mounted, spinning 
        lidars used in many other autonomous platforms, our vehicles 
        use a fused system of lidars which are integrated around the 
        periphery of the vehicle. This approach enables 360 degree 
        coverage, while preserving the aesthetics of the vehicle. The 
        lidars generate a high-resolution point cloud that is helpful 
        for general object detection; particularly in densely packed 
        urban environments. Each lidar is paired with one of our ESRs, 
        which allows us to effectively fuse radar and lidar data.

  <bullet> Sensor fusion: The perception system on Delphi's automated 
        vehicles leverages our experience with multiple sensors through 
        highly complex fusion. Radar, vision and lidar-based sensors 
        each have unique strengths and weaknesses; fusing these sensors 
        allows them to compensate for one another and provide an 
        accurate picture of the driving environment with robust 
        detection of vehicles, pedestrians, and general objects.

  <bullet> V2X: Delphi's automated platforms make use of dedicated 
        short-range communication (DSRC) for collaborative 
        communication with infrastructure, such as traffic lights 
        (V2I), other vehicles (V2V) and pedestrians (V2P). V2X 
        communications provide redundancy that is especially useful in 
        urban environments with numerous traffic signals, vehicles, and 
        pedestrians.

  <bullet> Localization System: Delphi uses precision GPS information 
        for safely traveling through the driving environment; even when 
        the infrastructure is marginal (e.g., poor lane markings). In 
        situations with poor GPS reception, such as tunnels and urban 
        canyons, our vehicles make use of a highly accurate IMU 
        (inertial measurement system) for dead reckoning. Additionally, 
        the environmental sensors on the vehicle can pick out key 
        features of the environment for map-matching.

  <bullet> Drive-by-wire system: The drive-by-wire system featured in 
        Delphi's automated driving platforms is implemented in a manner 
        that preserves the function of the production vehicle's 
        steering and drivetrain. When manually operated, the vehicle 
        drives exactly as a production vehicle would. When auto mode is 
        engaged, the automated system uses the same vehicle input 
        interfaces as a human driver, which allows passengers to 
        directly see and feel how the vehicle is behaving. The 
        automated driving system is completely separable from the stock 
        system, which allows the driver to instantaneously assume full 
        control of the vehicle at any time.

  <bullet> Driver State Monitoring: Understanding the state of the 
        driver is a vital aspect of automated driving. Delphi's 
        automated driving platforms are equipped with state-of-the-art 
        driver state sensing systems, which allow the vehicle to 
        monitor the availability of the driver in situations where a 
        takeover may be necessary. If the driver is found to be 
        unavailable, the vehicle is capable of coming to a stop until 
        it is safe to proceed.

  <bullet> Multi-domain controller: As these active safety systems 
        become more complex and computing technologies consume greater 
        levels of processing power, Delphi's multi-domain controller 
        brings together multiple electronic sub-systems, or domains, 
        within a vehicle into a single, powerful control center. This 
        technology makes it possible for vehicles to quickly and 
        efficiently manage the massive flow of complex data through the 
        vehicle, which is required for automated features to work well.

    Some of these same technologies are available on cars today in 
consumer options such as Forward Collision Warning with Collision 
Imminent Braking, Lane Departure Warning, and Blind Spot Detection.
    A key component of ensuring the vehicle could function was the 
integration of software and hardware. Vehicle technology is 
increasingly software based and dependent. If you don't get the 
software right, the car will not function.
    Our vehicle performed flawlessly. It was able to make complex 
decisions necessary to drive safely across the country while, unlike 
human drivers, remaining alert the entire time.
    Delphi engineers gathered more than two terabytes of data during 
the trip, including computer data and video footage of everything 
``seen'' by the car. A few observations from our trip:

  <bullet> Our vehicle was particularly cautious when approaching semi-
        trucks in adjacent lanes. In situations where our vehicle 
        passed such large trucks, it remained in the center of its lane 
        rather than veering slightly to the far side of the lane. 
        Engineers were able to adjust the programming to address this 
        scenario.

  <bullet> Artificial intelligence gaps remain that require our 
        attention--such as ``which vehicle has the right of way'' upon 
        approaching a four-way stop when one vehicle nudges forward to 
        alert the other driver of its intention.

  <bullet> We noted that HOV lanes are perfect for automated driving 
        since lane markers are very clear. The idea of a dedicated lane 
        may prove useful as automated cars become more mainstream.

    Even with the use of radar, cameras, and other sensors, aggressive 
or speeding drivers can quickly appear during a lane-change, 
compromising the effectiveness of these technologies.
Lessons learned from the drive provide a foundation for understanding 
        where we need to go from here.
Active safety ready and needed
    One of the primary take-a-ways from the success of the cross-
country drive is that we have available today in the consumer 
marketplace technology that, if more broadly adopted, will dramatically 
reduce deaths and injuries on our roads. Specifically, today's active 
safety technologies, or ADAS, operate well enough to drive a car on its 
own--99 percent of the time. These technologies, when paired with a 
driver, can address one of the greatest causes of premature deaths--
traffic crashes.
    Every 30 seconds, there is a vehicular fatality somewhere in the 
world. That equates to 1.2 million people who die worldwide each year. 
It's a tragedy, and can be prevented. According to the World Health 
Organization, less than 20 years from now traffic injuries are 
projected to be the fifth leading cause of death worldwide--surpassing 
HIV/AIDS, cancer, violence, and diabetes. The impact is not just on 
lives lost, but on our global economy. Here in the United States, 
vehicle fatalities have declined with the use and widespread adoption 
of passive safety technologies such as seatbelts and airbags. However, 
progress toward further fatality and injury reduction has stalled, 
allowing over 33,000 fatalities annually in the US, and more than 
200,000 serious injuries each year on our roadways. Additionally, 
vehicular crashes continue to be the number one cause of fatalities for 
people ages 4 to 34, with over 90 percent of crashes caused by driver 
error. The financial impact is also staggering, with one study 
estimating the total annual cost of road crashes in the United States 
alone to be over $231 billion.
    Active safety technologies are the key to reducing crashes, 
injuries, and fatalities on our roadways. Government and industry 
groups have studied the benefit potential for these technologies for 
well over a decade. In particular, a recent study by the Insurance 
Institute for Highway Safety (IIHS) states a 31 percent reduction in 
fatalities is possible with full deployment of active safety systems 
across the vehicle fleet, namely, Forward Collision Warning with 
Collision Imminent Braking, Lane Departure Warning, and Blind Spot 
Detection. This reduction amounts to a potential savings of over 11,000 
U.S. lives per year.
    These technologies are not just life savers, but, as demonstrated 
by our cross-country drive, the building blocks for the automated cars 
of the future. A key element of broader penetration of active safety 
technologies in the U.S. fleet is consumer awareness and demand.
How the government can help--Modernize NCAP
    This Committee's inclusion of STICRS in the FAST Act was a major 
step forward in driving consumer adoption of ADAS. National Highway 
Traffic Safety Administration (NHTSA) has responded and has announced 
its intentions to modernize the New Car Assessment Program, or NCAP--
which includes the 5-star rating system that appears on all new vehicle 
window stickers--to require passenger vehicles to have ADAS systems in 
order to achieve a 5-star rating.
    This is great progress and should dramatically increase the 
availability of active safety systems on vehicles at every price-point. 
It is critical that we capture these safety improvements quickly. 
STICRS requires NHTSA to promulgate its new NCAP rule within a year of 
enactment of the FAST Act. NHTSA has indicated its intention to meet 
this deadline, but it is important that the timeline does not slip.
Vehicle-to-Vehicle and Infrastructure (V2X)_a critical element
    In an automated future, cars will need to be able to communicate 
not just with their owner but also the surrounding environment, other 
vehicles and infrastructure. Knowing when traffic signals are going to 
change and where traffic is heaviest not only adds to the safety of the 
vehicle but allows cars to be driven, or drive themselves, more 
efficiently.
    The roll-out of vehicle-to-vehicle and vehicle-to-infrastructure 
(together V2X) including in-vehicle Dedicated Short Range 
Communications (DSRC) systems that allow for V2X communication will be 
critical.
How can the government help? By protecting the needed spectrum and 
        requiring V2X receivers be built into cars in the future
    The Commerce Committee has already been active and helpful in 
negotiating an agreement that will allow the spectrum necessary for V2X 
to be protected from harmful interference without barring compatible 
uses. Obviously with any life-saving technology, any disruption in the 
communication signal from interference cannot be allowed. Keeping the 
necessary spectrum both available and free from harmful interference is 
critical as V2X communication systems are rolled-out in vehicles and 
infrastructure.
    The STICRS rulemaking is not the only important policy issue 
requiring the release of a NHTSA rule. In August of 2014, the 
Department of Transportation announced it would issue a Notice of 
Proposed Rulemaking (NPRM) creating a requirement for adding V2V 
communications capacity to the U.S. light vehicle fleet and minimum 
performance requirements for V2V devices and messages.
    V2X can deliver important safety benefits in the mid-term and is a 
necessity for wide-spread autonomous vehicles adoption in the long-
term. The release of the NPRM will be an important step forward.
    In addition, it is important to not only consider DSRC in new 
vehicles, but also the manner in which existing vehicles can be 
retrofitted to accommodate DSRC requirements. There are approximately 
262 million registered passenger vehicles on U.S. roadways with the 
average vehicle age being 11.5 years. Unless retrofitting is built into 
the planning process, the roll-out of DSRC will take decades.
Rules of the road_need to permit driverless cars
    In addition to supporting the technologies that are needed to 
enable automated vehicles, Congress, the Administration, and state 
governments will need to provide the flexibility necessary to enable 
driverless cars.
    Uniform rules that allow for the safe operation of driverless 
vehicles in all 50 states will be critical. As production vehicles move 
from drive assist technology to full automation, varying requirements 
ranging from state mandates that licensed drivers must be in vehicles 
at all times, to Federal requirements dictating the positioning of 
dashboard controls that presume a driver, will need to be assessed and 
addressed.
    Another example would be the need to address the variation in lane 
markings across states and communities. During Delphi's cross-country 
drive, the automated vehicle encountered some roadways with wide white 
stripes, while others had narrow yellow markings. Some lane markings 
were new, others were faded, and some were marked with raised bumps. 
Delphi will have to further train its cameras to detect all kinds of 
lane markings, since that's one way autonomous cars keep themselves 
centered in a lane.
Consumer adoption_public's trust can be earned
    A March 1, 2016 AAA survey of American drivers found that only one 
in five would trust a self-driving car. The same survey, however, found 
that over sixty percent of drivers would like active safety--or ADAS--
technologies on their vehicles. Active safety is clearly going to be 
critical to the transition to automated driving, not just because the 
underlying technologies are building blocks for autonomous vehicle but 
also because consumer acceptance of self-driving cars will develop as 
driver-assist technologies proliferate.
    The bottom line is that the road to driverless vehicles is paved 
with life-saving drive-assist technologies that will make cars safer 
now, and into the immediate future, while setting the stage for fully 
autonomous vehicles.
Cyber security_a key element moving forward
    Delphi is keenly aware of the cyber threats associated with today's 
connected vehicles, and is taking measures that will enable a safe and 
secure driving experience. Accordingly, Delphi has committed to 
participate in the Automotive Information Sharing and Analysis Center 
(Auto-ISAC) to further improve cyber security threat awareness and 
coordination across the industry. The Auto-ISAC provides a forum for 
information exchange among entities in the automotive industry for the 
purpose of sharing trusted and timely cyber threat information about 
existing or potential cyber-related threats and vulnerabilities in 
light duty on-road passenger vehicle electronics and associated 
networks.
    Delphi considers all aspects of a connected vehicle and associated 
embedded technology--to include software, hardware, and architectural 
elements that connect the vehicle. While building products and systems 
according to OE customer specifications, our technical experts work to 
better understand vulnerabilities such that we can alert OEs and 
consumers to potential cyber threats--followed by working towards 
providing a solution.
    Delphi has dedicated engineering and information technology 
resources focused on cybersecurity matters. To provide further 
leadership in this area, Delphi is working with several experienced 
organizations to ensure a coordinated approach to the safety and 
security of connected vehicles. These efforts are realized through 
various channels, including (1) active leadership and participation in 
the National Institute of Standards and Technology (NIST), Society of 
Automotive Engineers (SAE) and others; as well as working with Original 
Equipment Manufacturers (OEMs) to ensure that the products we engineer 
meet OEM specifications, and leverage open source and industry accepted 
information security protocols.
    In addition, Delphi strategically engineers safety into technology. 
For example:

  <bullet> Engine Control Units or ECUs--These devices are developed 
        with a secure boot and programming functionality, so only valid 
        and trusted programs and software are executed.

  <bullet> Encryption--The wireless connectivity is protected using 
        industry standards to protect the vehicle network and user's 
        privacy. This includes security to authenticate and gain access 
        (WiFi Protected Access 2 or WPA2), as well as transmission 
        security across the wireless connection (using TLS or Transport 
        Layer Security) across the broader network and internet.

  <bullet> Device Connection--Leveraging Bluetooth to connect a user's 
        personal devices, but ensuring that connection is via Secure 
        Simple Pairing (or SSP) which allows for encryption of data 
        between linked devices, thus providing additional security.

    Delphi is also working with a number of organizations to ensure a 
coordinated approach to the safety and security of interconnected 
vehicles. These include:

  <bullet> International Organizations: Adoption of ISO guidelines 
        (including ISO 26262) to ensure a standardized approach to 
        enabling a safe driving experience. Active leadership and 
        participation in the Society of Automotive Engineers (SAE), 
        National Institute of Standards and Technology (NIST), and 
        others.

  <bullet> Original Equipment Manufacturers (OEMs): Delphi ensures that 
        products engineered by the Company meet the OEM specifications, 
        and leverage open source and industry accepted information 
        security protocols.

  <bullet> Internal Structure and Governance: Delphi has a dedicated 
        team of engineers, technology professionals, and legal 
        professionals to provide the necessary oversight in the space 
        of cybersecurity and interconnected vehicles. A steering 
        committee meets regularly and provides appropriate guidance 
        with respect to policies, procedures, and standards. Delphi 
        considers this a very real threat that must be managed.
Pilots_can make a difference
    The FAST Act set a great foundation to build towards the roll-out 
of widely-available automated vehicles. The Obama Administration's 
announcement of a ten-year, $4 billion effort to ``accelerate the 
development and adoption of safe vehicle automation through real-world 
pilot projects'' through the programs authorized by the FAST Act 
demonstrates the broad support for moving the U.S. to an automated 
future. Clearly a coordinated multi-year effort is warranted and we 
look forward to working with this Committee, Congress and the 
Administration to make the effort a success.
Federal R&D_is important
    Finally, Delphi supports Federal R&D efforts in this area. The ITS 
program plays an important role in enhancing the government's ability 
to assess new technologies and lay the foundation for their roll-out. 
ITS has focused its efforts recently on V2V and V2I roll-out--both 
important objectives. ITS should place equal importance on needed 
analysis and research into active safety such as collision avoidance 
and mitigation technologies that are key building blocks for autonomous 
vehicles. Both V2V enabled and non-V2V enabled collision avoidance and 
mitigation technologies will be critical to the success of the 
driverless car. On-board active safety also has the added benefit of 
saving lives even before V2V communications technologies reach critical 
mass in the U.S. fleet. Furthermore, non-V2V systems continue to 
operate in situations where the vehicle encounters communications 
interference. On-board active safety should be a priority for the ITS 
program.
    Thank you again for this opportunity to testify before your 
Committee today. Delphi looks forward to playing an important role on 
the road to automated vehicles. As we look to a driverless future, we 
should work to democratize the availability of today's proven 
technology. Broad scale adoption of active safety will not only lay the 
foundation for the driverless cars of the future, but will save lives 
now. Delphi stands ready to assist this Committee as you forge the road 
ahead in advanced transportation technology, and I'll be happy to 
answer your questions.

    The Chairman. Thank you, Mr. De Vos.
    Mr. Okpaku?

    STATEMENT OF JOSEPH OKPAKU, VICE PRESIDENT, GOVERNMENT 
                        RELATIONS, LYFT

    Mr. Okpaku. Chairman Thune, Ranking Member Nelson, and 
members of the Committee, good afternoon. My name is Joseph 
Okpaku, and I am the Vice President of Government Relations for 
Lyft. Thank you for the opportunity to testify today on this 
very exciting and important topic.
    My fellow panelists represent all the components required 
for the successful deployment of autonomous vehicles. You have 
the auto manufacturers with the expertise in designing and 
building autonomous vehicles. You have the parts manufacturers 
whose products will be vital to making these cars run. You have 
the best engineering minds in the world, who have made it 
possible for these cars to be safer than human drivers. And you 
have Lyft, a company perfectly suited to bring this technology 
to cities and consumers all across the country.
    There are at least two other equally important components 
that will determine the future of autonomous vehicles. The 
first is the interaction of everyday people with these new 
vehicles, and the second is the much more unpredictable 
interface of the Government with this entirely new 
transportation resource. Lyft has unique experience in these 
two areas, and this is where I'll focus my testimony.
    Lyft launched 4 years ago as the first digital platform 
that uses a smart phone to allow people to give other people a 
ride in their personal vehicle. Lyft's goal was to encourage 
people to give up their own vehicles and instead use the empty 
seats in a neighbor's car. In order to accomplish this, we knew 
that certain critical factors needed to be addressed.
    First, it had to be safe. Extensive background checks for 
drivers were a must, followed by unprecedented transparency and 
accountability for everybody involved in the ride. Innovations 
that include real-time consumer feedback and automatically e-
mailed digital receipts with the ride route, driver name, and 
driver picture are a key part of the reason for the rapid 
adoption of Lyft. It's also why 30 percent of our drivers and 
the majority of riders are women.
    Second, the service had to be efficient for drivers to 
participate. It is easy for a driver to apply to drive on the 
platform--they can initiate the process from their smart 
phone--but difficult for them to qualify. Third, for consumers, 
we knew that a vehicle had to arrive within minutes of pressing 
a button for it to feel like a good alternative to grabbing 
your own keys and driving your own car.
    In a few short years, these key principles have enabled an 
entirely new transportation industry to evolve out of 
preexisting and largely idle resources. By any measure, it is 
remarkable, and it wouldn't have happened if it wasn't safe, 
affordable, and convenient.
    This rapid evolution of the transportation industry has 
clearly demonstrated that consumers are increasingly willing to 
give up the steering wheel and instead have a vehicle arrive at 
the push of a button. One recent statistic from the University 
of Michigan clearly underscores this shift in consumer 
priorities. In 1983, 46 percent of 16-year-olds obtained a 
driver's license. In 2014, that figure dropped to 24 percent. 
That's a 50 percent change in something that I was 100 percent 
certain that I wanted more than anything else when I was 16 
years old.
    Something very real and fundamental is shifting here. We 
are on the doorstep of another evolutionary leap in 
transportation and technology, where concepts that could once 
only be imagined in science fiction are on the verge of 
becoming a reality.
    The partnership between Lyft and General Motors is based 
upon the knowledge that autonomous vehicles can bring enormous 
benefits in road safety, congestion, and public spending on 
parking infrastructure, just to name a few. This partnership is 
also founded on the shared understanding that the fastest way 
to bring these benefits of autonomous vehicles to consumers is 
via a ride-sharing network like Lyft's.
    To be sure, there are very serious challenges to be faced 
in bringing the full value of autonomous vehicles to market for 
mass consumption. And the greatest potential obstacle is 
constrictive legislation and regulations. The worst possible 
scenario for the growth of autonomous vehicles is an 
inconsistent and conflicting patchwork of local, municipal, and 
county laws that will hamper efforts to bring autonomous 
vehicle technology to market.
    Regulations are necessary, but regulatory restraint and 
consistency is equally as important if we are going to allow 
this industry to reach its full potential. This is an area 
where Lyft has vast experience and has learned very valuable 
lessons. Three years ago, only one state had issued a 
regulatory framework for the ride-sharing industry. Today, 30 
states have enacted legislation for this industry, with another 
bill currently sitting on a Governor's desk awaiting signature.
    This is the experience that Lyft brings to the table as we 
embark upon a mission of providing autonomous vehicles to the 
public. With the help of this body, a dedicated effort to 
tackle hard questions, and a commitment to ensure that 
regulation doesn't inhibit innovation, we can succeed. We look 
forward to working with this committee to ensure that 
autonomous vehicles can arrive safely and efficiently on 
America's roads.
    I thank the Committee for holding this hearing and for 
working toward this common goal, and I'm happy to answer any 
questions that you might have.
    Thank you.
    [The prepared statement of Mr. Okpaku follows:]

         Prepared Statement of Joseph Okpaku, Vice President, 
                       Government Relations, Lyft
    Chairman Thune, Ranking Member Nelson and members of the Committee. 
My name is Joseph Okpaku and I am the Vice President of Government 
Relations for Lyft. Thank you for the opportunity to testify today on 
this very exciting and important topic.
    The development of autonomous vehicles is at a pivotal moment. 
Autonomous vehicle technology has the potential to bring immense 
benefits to consumers, commuters, city planners, and governments. Lyft 
is excited to take our extensive experience bringing radical innovation 
to transportation by way of ridesharing and applying this experience to 
the world of autonomous vehicles. We are also eager to be a resource 
for this committee, and others like it that are tasked with developing 
policy that fosters the growth of the autonomous vehicle industry.
    My fellow panelists represent all the components required for the 
successful deployment of autonomous vehicles: you have the auto 
manufacturers with the expertise in designing and building autonomous 
vehicles. You have parts manufacturers whose products will be vital for 
making these cars run. You have the best engineering minds in the world 
who have made it possible for these cars to be safer than human 
drivers. And you have Lyft, a company perfectly suited to bring this 
technology to cities and consumers all across the country.
    There are at least two other, equally important components that 
will determine the future of autonomous vehicles. The first is the 
interaction of everyday people with these new vehicles, and the second 
is the much more unpredictable interface of the government with this 
entirely new transportation resource.
    Lyft has unique experience in these two areas and this is where 
I'll focus my testimony.
    Lyft launched four years ago as the first digital platform that 
uses a smartphone to allow people to give other people a ride in their 
personal vehicle.
    Lyft's goal was to encourage people to give up their own vehicles 
and instead use the empty seats in a neighbor's car. In order to 
accomplish this, we knew that certain critical factors needed to be 
addressed.
    First, it had to be safe. Extensive background checks for drivers 
were a must, followed by unprecedented transparency and accountability 
for everyone involved in the ride.
    Innovations that include real time consumer feedback and 
automatically e-mailed digital receipts with the ride route, driver 
name and driver picture are a key part the reason for the rapid 
adoption of Lyft. It's also why 30 percent of our drivers and the 
majority of riders are women.
    Second, the service had to be efficient for drivers to participate. 
It is easy for a driver to apply to drive on the platform--they can 
initiate the process from their phone--but difficult for them to 
qualify.
    Third, for consumers, we knew that a vehicle had to arrive within 
minutes of pressing a button for it to feel like a good alternative to 
grabbing your own keys and driving your own car.
    In a few short years, these key principles have enabled an entirely 
new transportation industry to evolve out of pre-existing and largely 
idle resources. By any measure it is remarkable and it wouldn't have 
happened if it wasn't safe, affordable, and convenient.
    This rapid evolution of the transportation industry has clearly 
demonstrated that consumers are increasingly willing to give up the 
steering wheel and instead have a vehicle arrive at the push of a 
button.
    One recent statistic from the University of Michigan clearly 
underscores this shift in consumer priorities. In 1983, 46 percent of 
sixteen year olds obtained a driver's license. In 2014, that figure has 
dropped to twenty four percent.
    That's a fifty percent change in something that I was a hundred 
percent certain I wanted more than anything else when I was sixteen.
    Something very real and fundamental is shifting here.
    We are on the doorstep of another evolutionary leap in 
transportation and technology, where concepts that once could only be 
imagined in science fiction are on the verge of becoming a reality. The 
partnership between Lyft and General Motors is based upon the knowledge 
that autonomous vehicles can bring enormous benefits in road safety, 
congestion, and public spending on parking infrastructure, just to name 
a few. This partnership is also founded on the shared understanding 
that the fastest way to bring the benefits of autonomous vehicles to 
consumers is via a ridesharing network like Lyft's.
    To be sure, there are very serious challenges to be faced in 
bringing the full value of autonomous vehicles to market for mass 
consumption, and the greatest potential obstacle is constrictive 
legislation and regulations. The worst possible scenario for the growth 
of autonomous vehicles is an inconsistent and conflicting patchwork of 
local, municipal and county laws that will hamper efforts to bring AV 
technology to market. Regulations are necessary, but regulatory 
restraint and consistency is equally as important if we are going to 
allow this industry to reach its full potential.
    This is an area where Lyft has vast experience and has learned very 
valuable lessons. Three years ago, only one state had issued a 
regulatory framework for the ridesharing industry. Today, 30 states 
have enacted legislation for this industry, with another bill currently 
sitting on a Governor's desk awaiting signature.
    Over this period, we have spent thousands of hours meeting with 
lawmakers, regulators, and law enforcement in order to help craft 
innovative and appropriate legislation. We've met with the foremost 
academic minds and industry experts. We've given testimony at hundreds 
of proceedings. This is the experience that Lyft brings to the table as 
we embark on the mission of providing autonomous vehicles to the 
public.
    With the help of this body, a dedicated effort to tackle hard 
questions, and a commitment to ensure that regulation doesn't inhibit 
innovation, we can succeed.
    We look forward to working with this committee to ensure that 
autonomous vehicles can arrive safely and efficiently on America's 
roads.
    I thank the Committee for holding this hearing and working towards 
this common goal. I'm happy to answer any questions you may have.

    The Chairman. Thank you, Mr. Okpaku.
    Dr. Cummings?

       STATEMENT OF DR. MARY (``MISSY'') LOUISE CUMMINGS,

           DIRECTOR, HUMANS AND AUTONOMY LABORATORY;

             DIRECTOR, DUKE ROBOTICS; PROFESSOR OF

          MECHANICAL ENGINEERING AND MATERIAL SCIENCE;

    PROFESSOR OF ELECTRICAL AND COMPUTER ENGINEERING, DUKE 
                           UNIVERSITY

    Dr. Cummings. Thank you. Thank you for having me back. Good 
afternoon, Chairman Thune, Ranking Member Nelson, and 
distinguished members of the Committee. Thank you for the 
opportunity to appear before you to discuss issues about the 
future of self-driving cars.
    I am the Director of the Duke Robotics Program and Duke 
University's Humans and Autonomy Laboratory, which focuses on 
the multifaceted interactions of humans and autonomous systems 
and complex socio-technical systems. I have conducted driving 
research and provided future technology recommendations to 
automotive manufacturers for more than a dozen years, including 
Ford, Nissan, Toyota, Google X--thanks, Chris.
    I was the Program Manager for a $100 million Navy robotics 
helicopter that carries the very same sets of sensors that 
you'll see on many autonomous cars today. I am also currently 
conducting research for the National Science Foundation on the 
interaction of self-driving cars and pedestrians.
    While I enthusiastically support the research and 
development of self-driving cars, I'm less optimistic about 
what I perceive to be a rush to field systems that are really 
not ready for widespread deployment. Here are a few scenarios 
that highlight the limitations of current self-driving cars.
    The first is operation in bad weather, including standing 
water on roadways, drizzling rain, sudden downpours, and snow. 
Coupling these limitations with the inability of self-driving 
cars to follow a traffic policeman's gestures, especially on a 
rainy day in a poncho, means that self-driving cars should not 
really be operating near elementary schools at this time.
    Another major problem with self-driving cars is our 
vulnerability to malevolent or even prankster intent. For 
example, it is relatively easy to spoof the GPS of self-driving 
vehicles, which involves hacking into their systems and guiding 
them off course. Without proper security systems in place, it 
is feasible that people could commandeer self-driving vehicles 
to do their bidding, which could be malicious or simply just 
for the thrill of it.
    And while such hacking represents a worst case scenario, 
there are many other potentially disruptive problems to be 
considered. It is not uncommon in many parts of the country for 
people to drive with GPS jammers in the backs of their trunks 
to make sure no one knows where they are, which could be very 
disruptive to the system.
    Additionally, recent research has shown that a $60 laser 
device can trick self-driving cars into sensing objects that 
are not there. Moreover, we know that people will attempt to 
game and spoof self-driving cars, in effect, trying to elicit 
or prevent various behaviors in attempts to get ahead of the 
cars or simply to have fun.
    Last, privacy and control of personal data is also going to 
be a major point of contention. These cars carry cameras that 
look both in and outside the car and will transmit these images 
and telemetry data in real time, including where you are going 
and your driving habits. Who has access to this data, whether 
it is secure, and whether it can be used for other commercial 
or government purposes has yet to be addressed.
    So given that these and other issues need to be addressed 
before widespread deployment of these cars takes place, but 
understanding very much that there are clear potential economic 
and safety advantages, how can we get there with minimal risk 
exposure? In my opinion, the self-driving car community is 
deficient in its testing programs with no leadership that 
should be provided by NHTSA.
    Google X, Chris just told you, has advertised that its cars 
have driven 1.4 million miles, and I applaud this achievement. 
But New York taxicabs drive 1.4 million miles in just a little 
over a day. This assertion is indicative of a larger problem in 
robotics in self-driving cars and in drones, which we've 
discussed before, where demonstrations are substituted for 
principle testing. Rand says that to verify self-driving cars 
are as safe as human drivers, 275 million miles must be driven 
fatality free.
    So that means we need a significantly accelerated self-
driving testing program, but it is not simply good enough to 
let these cars operate in California or southern Texas to 
accrue miles. NHTSA needs to provide leadership for a testing 
program that ensures that self-driving cars are rigorously 
tested for what engineers call the corner cases, which are 
extreme conditions in which these cars will operate.
    We know that many of the sensors on self-driving cars are 
not reliable in bad weather, in urban canyons, or places where 
map data bases are out of date. We know gesture recognition is 
a problem. We know humans will get in the back seat while they 
think their cars are on autopilot. We know people will try to 
hack into these systems.
    Given self-driving cars' heavy dependence on probabilistic 
reasoning and the sheer complexity of the driving domain, there 
are many unknowns that these systems will encounter. But there 
are also many known knowns in self-driving cars that we are 
aware of that are not being openly tested in a principled and 
rigorous manner that would be expected in similar 
transportation settings.
    For example, the FAA has clear certification processes for 
aircraft software, and we would never let commercial aircraft 
execute automatic landings without verifiable test evidence 
approved by the FAA. However, any certification of self-driving 
cars will not be possible until manufacturers provide greater 
transparency and disclose how they are testing their cars. 
Moreover, they should make such data publicly available for 
expert validation.
    Let me reiterate that as a professor in the field of 
robotics and human interaction, I am wholeheartedly in support 
of the research and development of self-driving cars. But these 
systems will not be ready for fielding until we move away from 
demonstrations to transparency and evidence-based testing, 
including human-autonomous system interaction and sensor and 
system vulnerabilities in all environmental extremes. To this 
end, in collaboration with private industry, NHTSA needs to 
provide much stronger leadership and guidance in this space.
    Thank you.
    [The prepared statement of Dr. Cummings follows:]

   Prepared Statement of Mary Cummings, Ph.D., Director, Humans and 
 Autonomy Laboratory Director, Duke Robotics, Professor of Mechanical 
    Engineering and Materials Science, Professor of Electrical and 
                 Computer Engineering, Duke University
    Good afternoon Chairman Thune, Ranking Member Nelson, and 
distinguished members of the Committee. Thank you for the opportunity 
to appear before you to discuss issues related to the future of self-
driving cars in the United States.
    I am the Director of Duke Robotics and the Duke University Humans 
and Autonomy Laboratory, which focuses on the multifaceted interactions 
of humans and autonomous systems in complex sociotechnical settings. I 
have conducted driving research and provided future technology 
recommendations to automotive manufacturers for more than a dozen years 
including Ford, Nissan, Toyota, and Google X.\1\ I was the program 
manager for a $100 million Navy robotics helicopter that carries 
sensors very similar to those on self-driving cars. I am also currently 
conducting research for the National Science Foundation on the 
interaction of self-driving cars and pedestrians.
---------------------------------------------------------------------------
    \1\ See the attached paper, Cummings, M.L., & J. C Ryan, ``Who Is 
in Charge? Promises and Pitfalls of Driverless Cars.'' TR News, (May-
June 2014) 292, p. 25-30.
---------------------------------------------------------------------------
    While I enthusiastically support the research, development, and 
testing of self-driving cars, as human limitations and the propensity 
for distraction are real threats on the road, I am decidedly less 
optimistic about what I perceive to be a rush to field systems that are 
absolutely not ready for widespread deployment, and certainly not ready 
for humans to be completely taken out of the driver's seat.
    The development of self-driving car technologies has led to 
important advances in automotive safety including lane departure 
prevention and crash avoidance systems. While such advances are 
necessary stepping stones towards fully capable self-driving cars, 
going from automated lane changing or automated parking to a car that 
can autonomously execute safe control under all possible driving 
conditions is a huge leap that companies are not ready to make.
    Here are a few scenarios that highlight limitations of current 
self-driving car technologies: The first is operation in bad weather 
including standing water on roadways, drizzling rain, sudden downpours, 
and snow. These limitations will be especially problematic when coupled 
with the inability of self-driving cars to follow a traffic policeman's 
gestures.
    Another major problem with self-driving cars is their vulnerability 
to malevolent or even prankster intent. Self-driving car cyberphysical 
security issues are real, and will have to be addressed before any 
widespread deployment of this technology occurs. For example, it is 
relatively easy to spoof the GPS (Global Positioning System) of self-
driving vehicles, which involves hacking into their systems and guiding 
them off course. Without proper security systems in place, it is 
feasible that people could commandeer self-driving vehicles (both in 
the air and on the ground) to do their bidding, which could be 
malicious or simply just for the thrill and sport of it.
    And while such hacking represents a worst-case scenario, there are 
many other potentially disruptive problems to be considered. It is not 
uncommon in many parts of the country for people to drive with GPS 
jammers in their trunks to make sure no one knows where they are, which 
is very disruptive to other nearby cars relying on GPS. Additionally, 
recent research has shown that a $60 laser device can trick self-
driving cars into seeing objects that aren't there. Moreover, we know 
that people, including bicyclists, pedestrians and others drivers, 
could and will attempt to game self-driving cars, in effect trying to 
elicit or prevent various behaviors in attempts to get ahead of the 
cars or simply to have fun.
    Lastly, privacy and control of personal data is also going to be a 
major point of contention. These cars carry cameras that look both in 
and outside the car, and will transmit these images and telemetry data 
in real time, including where you are going and your driving habits. 
Who has access to this data, whether it is secure, and whether it can 
be used for other commercial or government purposes has yet to be 
addressed.
    So given that these and other issues need to be addressed before 
widespread deployment of these cars, but understanding that there are 
clear potential economic and safety advantages, how can we get there 
with minimal risk exposure for the American public? In my opinion, the 
self-driving car community is woefully deficient in its testing and 
evaluation programs (or at least in the dissemination of their test 
plans and data), with no leadership that notionally should be provided 
by NHTSA (National Highway Traffic Safety Administration). Google X has 
advertised that its cars have driven 2 million miles accident free, and 
while I applaud this achievement, New York taxi cabs drive two million 
miles in a day and a half. This 2 million mile assertion is indicative 
of a larger problem in robotics, especially in self-driving cars and 
drones, where demonstrations are substituted for rigorous testing.
    RAND Corporation says that to verify self-driving cars are as safe 
as human drivers, 275 million miles must be driven fatality free. So 
that means we need a significantly accelerated self-driving testing 
program, but it is not simply good enough to let self-driving cars 
operate in California or southern Texas to accrue miles. NHTSA needs to 
provide leadership for a testing program that ensures that self-driving 
cars are rigorously tested for what engineers call the ``corner 
cases'', which are the extreme conditions in which cars will operate. 
We know that many of the sensors on self-driving cars are not reliable 
in good weather, in urban canyons, or places where the map databases 
are out of date. We know gesture recognition is a serious problem, 
especially in real world settings. We know humans will get in the back 
seat while they think their cars are on ``autopilot''. We know people 
will try to hack into these systems.
    Given self-driving cars' heavy dependence on probabilistic 
reasoning and the sheer complexity of the driving domain, to paraphrase 
Donald Rumsfeld, there are many unknown unknowns that we will encounter 
with these systems. But there are many known knowns in self-driving 
cars that we are absolutely aware of that are not being addressed or 
tested (or test results published) in a principled and rigorous manner 
that would be expected in similar transportation settings. For example, 
the FAA (Federal Aviation Administration) has clear certification 
processes for aircraft software, and we would never let commercial 
aircraft execute automatic landings without verifiable test evidence, 
approved by the FAA. To this end, any certification of self-driving 
cars should not be possible until manufacturers provide greater 
transparency and disclose how they are testing their cars. Moreover, 
they should make such data publicly available for expert validation.
    Because of the lack of safety evidence, I agree with California's 
recent ruling that requires a human in the driver's seat. However, 
while I generally support individual state governance on these issues, 
the complexity of the operation and testing of robotic self-driving 
cars necessitates strong leadership by NHTSA, which has generally been 
absent. But as I testified in front of this committee two years ago,\2\ 
the U.S. Government cannot and has not maintained sufficient staffing 
in the number of people it needs who can understand, much less manage, 
complex systems such as self-driving cars. So it is not clear whether 
NHTSA or any other government agency can provide the leadership needed 
to ensure safety on American roads.
---------------------------------------------------------------------------
    \2\ ``The Future of Unmanned Aviation in the U.S. Economy: Safety 
and Privacy Considerations'', January 15th, 2014.
---------------------------------------------------------------------------
    Let me reiterate that as a professor in the field of robotics and 
human interaction, I am wholeheartedly in support of the research and 
development of self-driving cars. But these systems will not be ready 
for fielding until we move away from superficial demonstrations to 
principled, evidenced--based tests and evaluations, including testing 
human/autonomous system interactions and sensor and system 
vulnerabilities in environmental extremes. To this end, in 
collaboration with private industry, NHSTA should be providing strong 
leadership and guidance in this space.


                               Attachment
                               
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                               
                               
     The Chairman. Thank you, Dr. Cummings.
    I think we do have--we can try this. If you want to turn to 
the monitor there, this is something I think from Delphi and 
Google.
    [Video presentation.]
    The Chairman. Great. Well, thank you again, all of you, for 
being here and for sharing your thoughts on this subject. We'll 
get into some rounds of questions now. I wanted to start by 
just asking kind of a general one, because I think we're 
talking about something that often was thought of as very 
futuristic, and there are manufacturers who expect that these 
cars are going to be on the market in just a few years.
    All of you have different roles in this area. But when do 
you think these types of cars will be ready and available in 
the marketplace? I'll just open that up to the panel if anybody 
would like to respond to that. What's the time frame we're 
talking about?
    Mr. Ableson. From GM's perspective, the way we envision 
introducing this technology into use in the public is through 
the idea of a ride-sharing fleet. We think this gives access to 
a wide part of the public, including underserved communities.
    We would introduce it originally as vehicles with drivers, 
because we do agree we need to collect data and make sure that 
the systems are operating as we expect them to before we 
actually start deploying the vehicles without drivers. We think 
this offers a framework that we can develop and deploy this 
technology in a very safe way.
    To your question on timing, we would expect the vehicles 
with drivers to appear within the next couple of years, and 
then when they actually start working without drivers will 
depend on how the technology develops and what the criteria 
agreed with the regulators are.
    The Chairman. Mr. Okpaku, how will Lyft's partnership with 
GM on autonomous vehicles more rapidly advance the future of 
mobility? How does that bear on the timing question?
    Mr. Okpaku. Sure. Chairman Thune, thank you for the 
question. I think the starting point for the answer is our 
experience in the explosion of the ride-sharing industry. A few 
short years ago, as I mentioned in my testimony, the idea of 
getting into a stranger's car was pretty much unheard of. It 
was something that your mother warned you against. And yet 
through the safety innovations that Lyft implemented, we got 
people very comfortable with the idea of riding in a stranger's 
car, and we did so at a scalable rate that allowed us to expand 
to nearly 200 different cities in less than 4 years.
    So it's this ability not only to use innovation to enhance 
the customer experience and to ensure safety, but to reach a 
mass audience that we think we will be using to ensure the 
quick deployment of autonomous vehicles to the community at 
large. We have the ability to reach a nationwide audience very 
quickly with our technology.
    And, frankly, given the cost that will most likely be 
involved with the first generations of autonomous vehicles, 
this will be the most cost effective way of getting it to the 
public as well. So this is the role that Lyft envisions for 
itself as part of this process.
    The Chairman. If I could get some of you to react to some 
of the concerns that were raised by Dr. Cummings. She mentioned 
weather, hacking, privacy, obviously, the transparency of the 
test and that sort of thing. When you talk about them not 
performing as well under those types of circumstances, to those 
of you who are involved in the development and testing of these 
things, how do you respond to some of those concerns?
    Mr. De Vos. I think the first thing to know is when we talk 
about automated driving cars, we're talking about multiple 
types of sensors, radar, lidar, vision, as well as V2V and V-
to-X. So each of those technologies has strengths and 
weaknesses. In some cases, vision or lidar may be compromised 
by weather, but radar is very strong in weather and, similarly, 
with other conditions.
    So the key is by having a multi-modal or a multi-sensor 
approach, you expand your range of coverage and your 
performance envelope. So it's absolutely true that sensors have 
strengths and weaknesses, but by combining those sensors, you 
end up with a much, much more capable package, certainly 
greater perception capability than an individual driver relying 
on vision alone.
    The Chairman. Dr. Urmson, in response to a Google inquiry, 
NHTSA has said that some Federal motor vehicle safety standards 
will require additional rulemaking in order to allow for 
Google's self-driving car features. Are you concerned that 
Google's ability to continue to develop and deploy these 
technologies will be impeded by NHTSA's need to update its 
rules through what could be a very lengthy rulemaking process?
    Dr. Urmson. Chairman Thune, that's really, I think, an 
important question, because many of the companies at the table 
here have been involved in developing this technology, and 
America is currently very much in a leadership position in this 
space. With that said, we look at what's happening in Europe, 
we look at what's happening in China and Japan, and they're hot 
on our heels. And, in fact, not a day goes by where a company, 
particularly from China, is not trying to recruit engineers 
from our team and poach talent.
    From our perspective, this technology is advancing at an 
incredible rate, and we need to see the safety benefits, we 
need to see the mobility and access benefits, and we need to 
see the economic benefits in America first. And by finding a 
way to give NHTSA an approval process that would allow them to 
expedite in a very safe way innovative technologies in 
transportation, that will allow us to continue this technology 
here in the United States.
    The Chairman. And this question could be to the companies 
that want to respond to this. But NHTSA recently determined 
that Google's self-driving system could be interpreted as the 
driver for purposes of NHTSA rules. Conversely, the California 
DMV has proposed requiring a licensed operator to be present in 
an autonomous vehicle.
    So how will the concept of driver change with deployment of 
self-driving cars, and how should we resolve potential 
conflicts such as the one I just mentioned?
    Mr. Ableson. I think to the point of the technology without 
the driver, at some point, you need to designate the vehicle 
can operate without a driver. So I think the NHTSA 
interpretation, in order to encourage the rollout of this 
technology, is entirely appropriate. As far as working with the 
states, we at General Motors will continues to work with the 
various states to try and craft legislation, understanding the 
complementary roles that the Federal Government and the states 
play in this area.
    The Chairman. Do you see the Federal role in all of this, 
in terms of the way the government plays--or, I should say, 
having a role when it comes to ensuring that there's a 
nationwide market? Does the Federal Government have a role in 
this?
    Mr. Ableson. So what obviously would be an issue for any of 
us working in this area is if we end up with the states--with a 
widely varied patchwork of regulation that's inconsistent from 
state to state. Obviously, we all, when we develop these 
vehicles, would envision them crossing state lines. So we 
absolutely need and support NHTSA's initiative to give guidance 
to the states on legislation in this area and look forward to 
that initiative and that helping us in working with the states.
    The Chairman. My time is up.
    Senator Nelson?
    Senator Nelson. We do a lot of neat things to protect the 
national security--cyber attacks, worms, GPS jamming, et 
cetera.
    Dr. Cummings, what are we going to do to protect this 
technology?
    Dr. Cummings. I think that this problem of cyber physical 
security is not just unique to drones. It's certainly present 
in all transportation industries. So I think that there are 
many lessons to be learned. Certainly, the military is working 
on some technologies that are helping. There are a lot of 
companies that are getting into the anti-drone community that 
are bringing new technologies to bear.
    So I think it's a maturity of the industry that we're going 
to have to see, and it's going to be a multidimensional 
solution. It's not going to be easy. But I'm hoping that my 
peers who are at the table--and I'm sure that they will--we're 
just going to have to start having dedicated focus in these 
areas instead of just leaving it up to the military, for 
example, to develop.
    Senator Nelson. Well, it's interesting that you mention 
drones, because tomorrow, in this committee, we're going to 
mark up the FAA bill. And one of the things that we're 
concerned about is putting the drone in the flight path of 
either an inbound or an outbound airliner. If the drone gets 
sucked into the jet engine, that's a catastrophic failure.
    There are technologies available, which have already been 
demonstrated to the Chairman and me, that take over that drone. 
And sooner or later, we're probably going to have to employ 
such technologies in the vicinity of airports.
    So what are the needed protections for autonomous vehicles? 
You saw the 60 Minutes program where researchers completely 
take over the car. What's the answer? Anybody?
    Mr. Ableson. So from GM's standpoint, we think 
cybersecurity is, obviously, an important issue in this area, 
and it's something that we've spent time thinking about. We 
have more 4GLTE data connected vehicles on the road by far than 
any other OEM.
    We started an in-house cybersecurity organization. It's the 
first one and the only one as far as we know in the industry. 
Inside of that cybersecurity organization, we use a technique 
learned from other industries, employing a red team that goes 
in and actively tries to identify vulnerabilities in our 
systems.
    The senior executive in charge of this cybersecurity 
organization reports on a regular basis to both the CEO and the 
board on these matters. Jeff Massimilla, that senior executive, 
also happens to be the Vice Chairman of the Auto-ISAC Committee 
that was set up to share information among OEMs in the industry 
on vulnerabilities, and that committee, we believe, has been 
very effective.
    Senator Nelson. So you think that there will be the 
capability of protecting against cyber threats, even without it 
being extremely expensive. Let me flip now. What about 
privacy?--Mr. Okpaku?
    Mr. Okpaku. Yes, Senator Nelson. Thank you very much. Lyft, 
as I mentioned in my testimony, has to be a safe platform for 
it to work, and part of that safety is ensuring the privacy of 
its users and its drivers. It's something that we have been 100 
percent committed to since we launched. It's something that we 
devote an enormous amount of resources to, because we know that 
our platform involves a lot of people across the country.
    We have an internal team that is constantly reviewing our 
privacy policies. Approximately one-fifth of our overall team 
constitutes engineers and a similar number of people who are 
dedicated to trust and safety. So this demonstrates how many 
resources we dedicate to ensuring the safety and in this 
respect the privacy of our users.
    Senator Nelson. So what you're saying is that technology 
will allow you to protect people's privacy, even in an 
autonomous vehicle with all the gadgets in it?
    Mr. Okpaku. Senator Nelson, I think technology is the means 
that we'll use. But I think it first starts with a commitment 
and a dedication to ensuring it, and I think that's the point 
that I'm trying to make here. It's part of the reason that we 
wanted to partner with a company like General Motors, because 
we knew of their commitment to ensuring that the deployment of 
autonomous vehicles had to be done in a way that was safe and 
protected not only the safety but the privacy of the people 
relying on these services.
    This is something that we've had a lot of experience in 
over the last three to 4 years, going from a company that 
serviced just one state back in 2012 to a company that services 
nearly 200 cities now.
    Senator Nelson. Maybe you ought to confer with Apple, since 
Apple seems to be pretty good on privacy, in terms of being 
able to get into the iPhone of a terrorist.
    Anybody, is the Federal Government's agency, NHTSA, 
prepared to deal with all this?
    Mr. De Vos. I don't think it's just the responsibility of 
NHTSA or any one particular part. It really will take a 
collaborative effort between industry, the technology 
developers, as well as the regulatory agencies. So it really is 
important that as we talk about Auto-ISACs and those 
initiatives, we're working together to promote standardization 
and a uniform approach, but also to do so in an effective 
regulatory framework. So I think the key message for us is it 
has to be a collaborative activity in order for it to be truly 
effective.
    The Chairman. Thank you, Senator Nelson.
    I have Senator Heller up next.

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller. Mr. Chairman, thank you, and thanks for 
your leadership on this issue. I'm disappointed that I didn't 
get a chance to see one of the cars earlier this morning. I 
really would have enjoyed that.
    But the Chairman--and, by the way, thank you for being here 
and for your expertise in this particular area. The Chairman 
asked the question that everybody was asking, and that's when 
are these things going to--when will this be available? I guess 
the next question is: Is it integrated into the current car 
that you own, or do you have to actually buy an autonomous 
vehicle in order to use one of these things?
    Mr. Ableson. So we believe very strongly that for some of 
the cybersecurity reasons that were cited, we need to design a 
vehicle with this in mind and look at its entire electrical and 
information system to make sure that we can get the highest 
level of protection into the vehicle. We believe that going 
forward, you're going to buy vehicles that may look similar to 
vehicles on the road, but inside we'll have designed in the 
cyber protection and the redundancy that autonomous vehicles 
need to operate safely.
    Senator Heller. So it would be a new car?
    Mr. Ableson. Yes, it would be a new car. And I think that 
one of the great advantages in applying this ride-sharing model 
is that we can let members of the public experience the 
technology without having to go out and buy a new car. So some 
of the questions about adoption and how people will react to 
this technology I think we can see with real human beings in 
real settings, again, without them having to spend money on 
buying a vehicle.
    Senator Heller. What would you anticipate the price range 
being?
    Mr. Ableson. I think like any technology, the autonomous 
technologies are going to be very expensive when you start, 
because, as was referenced earlier, you need an array of 
different sensing technologies as well as some pretty 
sophisticated computing power on board to make it work. It's 
hard for me to predict what they're going to cost because, as 
with any new technology, much depends on how quickly we can 
build to scale and deploy in volume. Again, as Mr. Okpaku 
explained in his testimony, we think this ride-sharing model 
lets us move forward in volume, even at a relatively high 
initial cost of the vehicles.
    Senator Heller. You anticipate to use this with electric 
engines or combustion engines?
    Mr. Ableson. We think it's very interesting to use this 
with electric vehicles because of some of the environmental 
benefits. Obviously, in the ride-sharing model, we'd be 
operating in urban environments where I think everybody is 
interested in reducing pollution and the environmental impacts 
of the automobile.
    Senator Heller. Thank you.
    Mr. Urmson, I think Nevada was the first in the U.S. to 
issue a license for testing of the vehicles for Google. In 
fact, I noticed on the screen there that most of those shots 
were on the Las Vegas strip or somewhere near to it.
    Dr. Urmson. The Delphi vehicle----
    Senator Heller. Yes, very good. It's my understanding, Mr. 
Urmson, that you were also very involved with the testing--is 
this accurate--working directly with the Department of Motor 
Vehicles in Nevada?
    Dr. Urmson. Yes, Senator. That's correct.
    Senator Heller. What was the extent of your exercise in 
testing?
    Dr. Urmson. The state of Nevada wanted to be a leader in 
this space and passed legislation instructing their Department 
of Motor Vehicles to create language that would be a first in 
the Nation kind of rule set for self-driving vehicles.
    Senator Heller. How important was that?
    Dr. Urmson. I think it definitely placed a line in the 
sand, I guess, around how important this technology was and 
kind of brought it to national attention. At the same time, I 
think that it kicked off something that I think many of us are 
worried about with this potential patchwork of state by state 
regulations that would, you know, potentially lead to a 
challenge in delivering the technology broadly.
    Senator Heller. Mr. De Vos, also based on what Dr. Cummings 
said a little bit, you had a vehicle at CES, if I'm not 
mistaken, and I understand you had an unexpected obstruction 
there. Can you explain to us what that unexpected obstruction 
was?
    Mr. De Vos. Sure. One of the reasons we really enjoyed 
testing in Las Vegas is because it does provide a lot of 
diversity of use cases in a really challenging environment, 
including some of the pedestrians that are there in that 
environment, who may either be intoxicated or maybe a little 
bit unpredictable in terms of where they're going on the 
roadways.
    So as we were driving around downtown Vegas, on a fairly 
regular basis, we had pedestrians coming out into the path of 
the vehicle and the vehicle, of course, seeing them accurately 
and taking the precautionary measures of slowing down. You 
know, there's a lot of pedestrian traffic in Vegas, so there 
were all different points of the vehicle. And it really 
highlighted to us the fact that the sensors looked all the way 
around, 360 around that car at all times.
    So the car sees much, much better than we as a human driver 
would actually see. So it never failed to find the person and 
avoid them.
    Senator Heller. I understand one did step out in front of 
you and it did avoid that individual.
    Mr. De Vos. It did, yes.
    Senator Heller. Very good. Thank you very much.
    Mr. Chairman, thank you.
    The Chairman. That's your home state, and that city would 
be a good test case for a lot of things.
    Mr. De Vos. It certainly was.
    The Chairman. I have Senator Booker up next.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you very much, Mr. Chairman.
    One of the big concerns I've had since coming to Washington 
is that our global economy is being fueled more and more by 
innovation, and America is by far the global exporter of 
innovation ingenuity. We have been for generations in this 
country.
    The problem I'm seeing more and more in Washington is we're 
not creating a regulatory regime here, an environment that 
really cultivates and spurs innovation and keeps us 
competitive. I've seen this with the FDA on inhibiting 
companies like 23andMe. I've seen this with the FAA and what 
they're doing with drone technology that now is being 
investigated and innovated upon more outside of our country 
than inside of the country. So this is definitely one of those 
areas where I feel the same significant amount of concern.
    My goal, principally, is safety. But in this time of great 
research, innovation, and development, it's difficult for me to 
hear companies like Audi say--they describe this current 
patchwork of rules as an impediment to testing their cars in 
the U.S. and prefer to continue the testing in Europe. I just 
don't like to see us falling behind with creating an 
environment for testing, especially because if we had 
regulatory regimes like this--I always say if this was around 
during the time of the Wright brothers, we would have never 
gotten off the ground in exploring air travel.
    So we were the first to introduce legislation trying to 
permit the testing of autonomous vehicles. But other countries 
now are clearly leap-frogging over us by offering more 
flexibility to companies to test this technology. The UK, for 
example, is rapidly moving forward. Those wishing to conduct 
tests in the UK are free to drive all over the country. Japan 
has allowed Nissan and Toyota to test their vehicles there 
since 2013.
    So my question really is: In your experience, are we 
falling behind because other countries are creating a better 
regulatory environment for testing? What is the regulatory 
environment like in terms of dealing with the development of 
this technology? And what can we, as legislators, do to ensure 
that our regulations in this space keep up with the pace of 
innovation? And I don't mean just keep up with the pace of it, 
but ensure that America leads. I'll open that to anybody.
    Mr. De Vos. I think one of the key things has really 
already been done, and that's passage of the STICRS Act and the 
FAST Act, because that really sets the stage for adoption of 
ADAS technologies, which are foundational for automated 
driving. So the faster we can deploy that, get the NCAP 
standards increased, and get that out there, both from a 
technology and development as well as a consumer acceptance 
standpoint, that's good for the U.S., and it's good for these 
technologies, and it builds on success as you do that.
    I think the other piece that is important is, you know, in 
terms of how do you support really standing up or evaluating 
real-life use cases or proof of concepts or pilots, if you 
will. And that's what we're seeing other countries doing, is 
helping support and actually get these systems up and running 
to learn from them as quickly as possible. That takes 
infrastructure support. That takes things that, really, the 
Government is best equipped to help execute and manage. I think 
that's another big area where we would really welcome the 
support of these agencies.
    Senator Booker. So when you're talking about 
infrastructure, we're planning smart cities. We're investing in 
the infrastructure. We need to be thinking five years ahead, 10 
years ahead----
    Mr. De Vos. Correct.
    Senator Booker [continuing]. In terms of the ability for us 
to have smart devices, smart signs and the like.
    Mr. De Vos. Exactly. The vehicle-to-infrastructure piece of 
it, the markings on the roadways, basically equipping the 
infrastructure to be ready for these technologies.
    Senator Booker. So if we're talking about large investments 
in infrastructure coming from the Federal Government, we as 
legislators should be looking into that.
    Mr. De Vos. Federal and state. I think the MCity in Ann 
Arbor is a good example, where the MDOT and U of M and a number 
of companies have come together to create a test bed both in 
Ann Arbor and the surrounding areas, as well as a dedicated 
test track there on the campus grounds.
    Senator Booker. Mr. Ableson, you were about to chime in?
    Mr. Ableson. I was only going to say we've been very 
encouraged by the way that Secretary Foxx has approached this 
and recognizing that it's important to allow us to work 
together to develop the technology safely and to find ways to 
deploy it. So we certainly don't know at this stage of the 
technology development all the answers, and I think we've seen 
flexibility to learn as we go and respond to what we learn.
    Senator Booker. So instead of promulgating rules, trying to 
imagine what the future is going to look like, shouldn't we 
just be really focusing on testing right now and rules with a 
focus on creating a good environment for testing?
    Dr. Urmson. Senator, actually, we so far have found that we 
don't actually have particular challenges with testing, and the 
technology is advancing very rapidly. Where we're most 
concerned is about bringing this to market and regulations that 
would limit the opportunity to use the technology. That's where 
we think that the Congress and the Federal Government can help 
pave the way.
    Senator Booker. Thank you. And I wanted to just give a 
public thank you to GM for being such a good partner on the 
spectrum issues. You all leaned in, really, and worked with us 
in a cooperative manner. That meant a lot to me as a Senator.
    Mr. Ableson. We very much appreciate your support of that 
issue as well.
    Senator Booker. Thank you very much.
    The Chairman. Thank you, Senator Booker.
    Senator Peters is up next.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    I just have to say as a Senator from Michigan and 
representing the Motor City that I'm very excited about these 
incredible developments in our auto industry and to see auto 
manufacturers coming together with suppliers, with technology 
companies, all cooperating together to create some partnerships 
that will ultimately create an awful lot of new jobs and are 
going to just lead to some extraordinary breakthroughs in terms 
of vehicle safety as well as performance and, as we've heard 
from your testimony and others, to deal with some of our 
mobility challenges, generally, for various individuals.
    So I want to thank the witnesses for being here today to 
discuss this frontier, particularly connected and automated 
technologies and their lifesaving benefits. Now, we know there 
are still some significant challenges that we're going to be 
facing as policymakers in order to actually see this realized. 
I think it's clear that what we are on the cusp of is 
disruptive technology in the auto sector probably unlike 
anything we've seen for I can't imagine how many decades. But 
it's many, many decades since we've seen this sort of 
disruptive technology.
    As we've heard today--but I think it's really important to 
repeat--is that we know that over 38,000 people died on our 
highways last year, and your companies are developing 
technologies that could very well dramatically reduce that 
number, savings tens of thousands of lives. That's why I 
believe that, as members of Congress and my colleagues here, 
that we have to do everything we can to make sure that your 
efforts are not delayed or unnecessarily deterred.
    That means that Congress has to ensure that the FCC, the 
DOT, and the NTIA are thoroughly testing any proposal for 
spectrum sharing in the 5.9 Gigahertz band between the DSR 
safety critical signals and unlicensed Wi-Fi devices. Connected 
vehicle technologies should not be compromised by someone 
connected to a toaster or a light switch.
    The technologies of today and tomorrow must be safe from 
cyber threats and protect users' privacy as well. We must avoid 
a patchwork of State regulations that will only stunt the 
development and deployment of these technologies and instead 
work to implement a consistent national policy. And we must 
think carefully about the insurance implications as well of 
connected and automated cars and the possibility of liability 
shifting to the manufacturers as human control of the vehicles 
dissipates.
    And, finally, we must increase our investment in connected 
and automated vehicle research and development. I support the 
administration's 10-year, $3.9 billion proposal for this 
purpose and, particularly, the $200 million in the DOT Fiscal 
Year 2017 budget request for funding a large-scale pilot 
program that will accelerate these technologies.
    I think it's particularly essential that a portion of this 
money go toward funding a designated national facility where 
academia, industry, and government can all come together to 
conduct connected and automated vehicle research, testing, 
product development, and certification. As we've heard, 
countries like Sweden, Korea, China, and Japan have already 
established these test sites. We need to do it as well.
    I certainly appreciate the comment about MCity associated 
with the University of Michigan, which is involved in some 
detailed testing on a track which brings all the manufacturers 
together. And perhaps I'll just get some comments from some of 
you as to how important it is to have a national testing 
facility that can bring all the manufacturers together, 
suppliers together, to make sure that all of these technologies 
actually work together.
    It doesn't do any good to have a great product if it's not 
working in conjunction with the Toyotas and the Hondas and the 
GMs and Fords and everybody else out on the road and, as was 
mentioned, in all weather conditions as well. Snow and ice is 
important to test. But perhaps some of your comments as to how 
important it is for us as government officials to be focusing 
on creating a national center where we can do this sort of 
testing.
    Dr. Cummings. Can I address that, Senator? I think that 
would be great. My one concern would be that the test data was 
made available to a more academic, slash, expert base community 
for that validation that these tests are meeting the standards 
that we think they should.
    Senator Peters. So that should be led by an academic 
center?
    Dr. Cummings. An independent group, not necessarily 
academic. But, sure, I'd be happy to.
    [Laughter.]
    Senator Peters. I take that as you're volunteering. Thank 
you.
    Folks from industry?
    Mr. Ableson. I think to your point, Senator Peters, it's 
very important that we do find a way to thoroughly test these 
technologies. As you indicate, it will take a lot of work 
amongst various companies and suppliers and regulators. So I do 
think that having a way that we can approach this in a 
coordinated fashion would be very important to us going 
forward.
    Senator Peters. Anyone else?
    Dr. Urmson. We very much value the opportunity to test in 
all kinds of weather conditions. That's part of the reason why 
we've done as much testing as we have in different locations, 
and we'd certainly love to learn more.
    Senator Peters. Well, I also wanted to pick up from a 
report that the Department of Transportation just released last 
week posed to automated vehicles under the current motor 
vehicle safety standards. The report concluded that many of the 
standards assume the presence, as you know, of a human driver 
and for cars that deviate further from this conventional 
vehicle design, vehicle certification becomes a lot more 
difficult, dependent on some new standards and how we interpret 
those standards.
    So I would certainly encourage your companies to continue 
to submit questions for interpretation to NHTSA so that, 
working together, the automotive industry and government can 
determine how to address potential regulatory advances, which 
all of you have expressed we need to have in order to move this 
technology forward. I also encourage you to share testing data 
with NHTSA as well to assist them in developing these new 
national standards for automated vehicle functions.
    So perhaps some comments from you as to how you're working 
now with NHTSA, sharing information. There was a discussion 
about some new targeted authority for NHTSA as well. If you 
could elaborate on some of those ideas, I'd appreciate it.
    Mr. Ableson. We continue to work very closely with NHTSA as 
our regulatory agency. Obviously, being an OEM, we have a very 
long relationship with NHTSA. We have worked together 
collaboratively with them around this topic of autonomous 
vehicles.
    We look forward to learning more on both sides and 
continuing to work with NHTSA on appropriate regulatory 
authority, because, as I think we've emphasized many times, we 
want to develop and deploy this technology safely, and safety 
is our primary concern, and making sure that we can do it 
safely is very important to the company before we actually 
introduce these to the public.
    Dr. Urmson. Senator, I couldn't agree more. Safety has to 
be front and foremost in this, and for the last six years, 
we've been engaged with NHTSA, sharing our lessons from the 
road and taking their feedback and incorporating that into our 
program. We're actually very excited about Secretary Foxx's 
initiative in building guidelines over the next 6 months and 
look forward to taking part in the public workshops that will 
be happening which will, I think, bring a degree of 
transparency to the process that is important to build 
confidence in it.
    Senator Peters. Right. Thank you.
    The Chairman. Thank you, Senator Peters.
    Senator Klobuchar, then Senator Daines.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Yes. Thank you very much, Mr. Chairman. 
In 2014, 3,179 people were killed in distracted driving 
crashes, and another 431,000 were injured. But right now, too 
few states are receiving Federal funding. Senator Hoeven and I 
worked on this. It got included in the FAST Act to make sure 
states besides Connecticut were able to receive some of the 
funding for educational efforts on distracted driving. We know 
these incentive grants are helpful.
    Could you talk about what advances in automated vehicles 
would we need for reducing the incidents of distracted driving? 
We know it's just a major issue. It's expanding. It's not just 
kids. It's adults, too.
    We just had today in our newspaper on the front page two 
people hurt--a man killed, getting--he was a school bus driver, 
79 years old, and he went out--he lived in a rural area. He was 
just going out like he did every day to get his newspaper at 
the mailbox, and it turned out the woman who hit him was doing 
a text, and, of course, she's been charged with a crime. That 
just was today, and every single day, there's something like 
that.
    So could you talk about how the automated vehicles--whoever 
can take it would be helpful.
    Mr. De Vos. I think what that unfortunate and tragic 
example highlights is the role that ADAS systems can play 
immediately, basically. With systems like lane departure 
warning, collision, and braking, and other driver alerts, and 
then, ultimately, the car taking evasive action, as it gets 
more and more automated--those are direct countermeasures to 
the effects of distraction where the driver is not really 
paying attention to what the car is doing.
    That's that immediate safety benefit that ADAS systems that 
are commercially available now can bring, which is why we're so 
excited about the implementation of the STICRS Act and getting 
that out there into the consumer base. But as you continue down 
that path, automated driving and the sensors that go with it 
are what really enable the car to avoid those situations 
regardless of what the driver is doing. That's the ultimate 
safety benefit, not just for distracted driving, but all forms 
of driver-related accidents.
    Mr. Ableson. I think the distracted driving incidents are 
tragic. But to the point, autonomous vehicles can also address 
the very large percentage of our accidents that are due to 
drunken driving or over-speed-related accidents. So there's a 
very large percentage, over 90 percent, of accidents that are 
attributable to some sort of driver error, and autonomous 
systems and automated vehicles should be able to address that 
in a very substantial way.
    Dr. Urmson. Senator, this is really at the heart of why 
we're engaged in this work. When we look at the 35,000 people 
that NHTSA estimates were killed last year on America's roads, 
it's really an unacceptable status quo, and there's so much 
opportunity to do good here. Now, the technology will never be 
perfect, but the opportunity to reduce those accidents and 
those tragedies is incredible.
    Senator Klobuchar. Go ahead.
    Mr. Okpaku. Senator, this is one of the key things that we 
think Lyft brings to the equation. Looking at the issue of 
drunk driving, specifically, it has now been determined by more 
than one research project that the advent of ride sharing has 
significantly reduced the incidents of drunk driving across the 
country.
    The ability to deploy AV technology to the consumers on a 
mass level is where Lyft really can contribute to this 
discussion. So by enabling a ride-sharing platform like Lyft, 
we can bring these safer options to the public at a mass scale 
and get it ready for mass consumer adoption much quicker than 
other models could.
    Senator Klobuchar. Dr. Cummings?
    Dr. Cummings. Sure, but if I can just weigh in here, all of 
these things are absolutely true. My specialty is human error, 
so this is definitely something that's going to help address 
these problems.
    I think the real trouble that we're up against is the 
hybrid time. We're in a very strange time where you're going to 
see more and more autonomy start to be introduced into cars, 
and that's actually going to increase people's distraction. 
Recently, Tesla suffered from one of their drivers getting in 
the back seat of their car while the car was on autopilot when, 
in fact, Tesla made it quite clear that you were supposed to be 
in the seat.
    So this is the funny thing about human behavior. If humans 
just think the car is pretty good, then their behavior is going 
to be even worse. The best thing that we could do is for 
everyone to get out of their cars today and have them all be 
driverless with no steering wheels tomorrow. That would be the 
safest thing that we could do. But until then, where we have 
Gremlins on the same road as the Teslas, on the same road as 
the no-steering-wheel Google car, we're really going to have to 
be careful about how we set up that human autonomy interaction.
    Dr. Urmson. If I may, we've seen this--you know, completely 
agree with the research. A few years ago, we were at the point 
where we had technology that could drive well on the freeway. 
Imagine a product where you get in the car, drive it, put it on 
the freeway, press a button, and then it drives for you. We had 
140 employees test that capability, and they loved the product. 
They thought it was fantastic.
    I think Larry Burns, a former Vice President to General 
Motors, has said that for their customers, driving is the 
distraction, and we saw that live. It really comes down to the 
fact that at some point, automation technologies are just so 
good that people over-trust them, even when they're told they 
shouldn't and have to be there, so, again, why we're taking 
that leap toward fully self-driven vehicles.
    Mr. Ableson. I would have to add the technologies exist to 
make sure that if people are going to climb into the back seat 
or aren't paying attention to the road that the system can warn 
them and get their attention back on the road.
    Senator Klobuchar. OK. And I'll put on the record just 
another question, because I'm out of time here, about 
autonomous vehicles and increased mobility for senior citizens, 
as we're seeing. But I no longer call it a silver tsunami 
because that's too negative, Mr. Chairman. I've been told by my 
senior groups to call it a silver surge of more seniors.
    [Laughter.]
    Senator Klobuchar. So I'll ask some questions on the record 
later about how there can be some hope for some seniors as 
well.
    Thank you very much.
    The Chairman. Those are good questions, and we're going to 
be there soon. Actually, this is my neighbor from Minnesota.
    Thank you, Senator Klobuchar, by the way, for those 
questions. This will have great application for people who need 
an autonomous car to keep them awake until they get to South 
Dakota as they're driving across Minnesota.
    [Laughter.]
    Senator Klobuchar. You mean when they're driving through 
South Dakota to get to Wall Drug.
    [Laughter.]
    The Chairman. Senator Daines from Montana.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman. It's the perfect 
segway here talking about the big, wide open country we have 
out West.
    Thank you for testifying today. I can tell you, as a guy 
who was in the technology business for many, many years, it's 
refreshing to hear about the innovation and the job creation 
that's actually occurring outside Washington, DC, lo and 
behold. So kudos.
    My home, Montana, is the fourth largest state. We have the 
second highest rate of vehicle ownership. We've got 75,000 
miles of public roads. Ninety-five percent of those are rural. 
On our interstate highways--generally, you can go 80 miles an 
hour. That is the speed limit. So I see these autonomous 
vehicles as having the potential for significant safety 
improvement. I want to talk through some safety issues and get 
your comments. They've been addressed a little bit here 
already.
    First of all, driver fatigue. My wife and I were heading 
out for dinner this weekend, and we saw where the highway 
patrol was investigating--there clearly had been a rollover, 
most likely driver fatigue, and it claimed the life of a man 
from my hometown. Billions of dollars in losses every year--
billions of dollars. Thousands of lives lost because of driver 
fatigue.
    How will autonomous vehicles help reduce driver fatigue 
injuries and fatalities?
    Dr. Urmson. Senator, if I may. Well, in our model, they're 
not driving anymore, and so the issue is mediated. Even in the 
case of the study that I talked about earlier, where we had 140 
people use the vehicles, one of the most touching stories was a 
woman who lives about an hour and a half from work and commutes 
every day. She told us that coming in that she wanted to cook 
for her family and exercise and that she didn't have the time 
anymore.
    She used our car for a week, and she said every day that 
week, she got home, and she was able to go for a run and cook 
for her family, because she was not exhausted from fighting 
traffic. So I think these, what I'll call, maybe the softer 
elements, the social benefits of this technology, are going to 
be innumerable and hard to quantify up front.
    Mr. De Vos. We're also developing systems that--you know, 
for advanced ADAS or for highway pilot or some of these semi-
autonomous vehicles, where we look at the driver. We have 
cameras that look at the driver to sense where the driver is 
looking. Are their eyes on the road? Are they blinking? Are 
they shut?
    So we can now determine the state of the driver and whether 
fatigue is a factor, and then take the appropriate 
countermeasures to either stimulate or re-engage the driver. So 
those technologies will roll out here toward the end of this 
year along with that broader suite of autonomous driving 
capability.
    Senator Daines. And it's probably more the semi-autonomous 
where we're at here.
    Mr. De Vos. Yes.
    Senator Daines. I appreciate that. That's helpful.
    I want to pivot over now and talk about drunk driving, just 
touch on it a little bit. How will this reduce drunk driving? 
Let's talk about maybe the semi-autonomous mode here as well. 
How do we reduce drunk driving injuries and fatalities?
    Mr. Ableson. As you indicated, in the fully autonomous 
mode, it's a very obvious answer.
    Senator Daines. Yes. How about semi-autonomous?
    Mr. Ableson. Semi-autonomous--there are technologies under 
development to try and interpret whether a driver is capable of 
responsibly driving. To be honest, I think at the pace that 
autonomous technologies are moving, I would hope that we can 
get to these autonomous vehicles relatively quickly, and they 
will be a solution for several of these issues around driving.
    Senator Daines. And this is related to drunk driving, too. 
We had a horrible wrong-way crash on Interstate 94 in eastern 
Montana that killed three people 2 weeks ago. Thinking about 
the way that Google is working--maybe this is for you, Dr. 
Urmson--is there some way it could detect if you are in the 
eastbound lane of westbound--to detect a wrong-way situation 
and prevent it? How would that work? Is that possible?
    Dr. Urmson. Yes, I'm quite sure that that's a technology 
that could be developed. Obviously, we're building vehicles 
that wouldn't make that mistake. But geo-fencing, geo-modeling 
kind of technologies, I'm sure, could be in place to help 
address that.
    Senator Daines. And animal-vehicle collisions. That's 
another big issue out--actually around the country. Deer 
populations are up, and out in Montana, it's not just deer. 
It's also elk and moose as well. It's a little different 
collision. Again, billions of dollars, hundreds and thousands 
of deaths, potentially. How can this help reduce animal-vehicle 
collisions?
    Mr. Ableson. I think, importantly--and reference was made 
to it earlier--these autonomous vehicles use an array of 
sensors, not just cameras. And between radar, lidar, and 
cameras, I think the potential exists that the vehicles could 
be even more perceptive of when animals are approaching the 
roadway than human beings are. In Michigan, we have a 
significant issue with deer on the highway, and I think these 
sorts of technologies offer a real opportunity.
    Senator Daines. And oftentimes at night, right, when it 
happens, when they're coming up?
    Mr. Ableson. Absolutely.
    Senator Daines. And as I've taught my kids, you're better 
off if you don't swerve. It's the swerving that oftentimes 
results in the significant injuries.
    Last, privacy was talked about a little bit here. For Mr. 
Ableson, we've all heard the stories of current vehicles' 
operating systems being hacked. There was a famous one from 
last summer. As the Internet of things continues to grow, this 
threat becomes ever more real. What is GM doing to ensure 
consumers' current vehicles are secure?
    Mr. Ableson. As far as cybersecurity, in particular, we 
have a dedicated organization that spends time on these issues. 
It is managed by a senior executive in the company. We have 
learned from other industries on how to approach cybersecurity 
issues. We employ red teams that are not involved in designing 
our systems, but only spend time trying to find 
vulnerabilities.
    I would tell you just a week ago, I spent time with one of 
these engineers who brought in a module and demonstrated to me 
all the things he did to try and get in and compromise this 
module. It's really very impressive.
    As we said, we also now have an industry group, Auto-ISAC, 
that shares best practices as well as threat reports and 
vulnerabilities across the industry. We're very proud that Jeff 
Massimilla is the Vice Chairman of that group. So we take 
cybersecurity very, very seriously, and we think going forward 
the car needs to be designed from the ground up with 
cybersecurity in mind, and that is our intent.
    Senator Daines. All right. Thank you.
    The Chairman. Thank you, Senator Daines.
    Senator Gardner?

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman, and thank you to 
the witnesses for your time and testimony today. I think there 
has been a lot of great questions today and obviously a lot of 
interest and intrigue in how this will move forward and what 
technologies will emerge as a result. The questions, I think, 
are just the tip of the iceberg here as we all try to figure 
out and understand how this is going to affect our culture, our 
society, our innovation, our safety, and our economy.
    A couple of things. I think it was around 2005 when auto-
steer tractors really became the latest rage in agriculture, a 
useful economic tool for productivity. Today, based on that 
over-a-decade-long experience, I think if you want to get down 
to, say, a 12-inch accuracy in the field, whether you're 
planting corn or drilling wheat, it probably costs around 
$7,000 to retrofit an old piece of equipment, a tractor that's 
10 or 15 years old or so. To have it down to a 1-inch accuracy, 
it's probably around $28,000 to retrofit an old tractor that 
didn't come off the factory assembly line with auto-steer 
capabilities on it.
    If you're dealing with a car that's going down the 
interstate, though, the question of accuracy is not something 
that you--well, we had the accident because we had 24-inch 
accuracy. This is satellite guidance versus radar, lidar, 
cameras on the vehicle itself. We're not talking satellite in 
any of these vehicles, correct?
    Mr. Ableson. The vehicles will use GPS, but they also use 
an array of other sensors and some very high-definition maps to 
understand exactly where the vehicle is in the world and 
position itself very accurately.
    Senator Gardner. So as you're rolling vehicles off the 
assembly line that could have autonomous technologies or 
capabilities off the factory line, and we retrofit older 
vehicles to it, how are we going to make sure that--what is the 
responsible body from a regulatory landscape to make sure that 
that used car that's 10 or 15 years old that has an aftermarket 
autonomous system placed on it is up to the same sort of 
calibration or specifics as a factory line car?
    Mr. Ableson. In our view, for some of the reasons that 
we've discussed earlier, cybersecurity and safety, we don't see 
this technology necessarily being applicable as far as 
retrofitting to vehicles. To do an autonomous vehicle 
successfully and safely, you need to touch a number of the 
fundamental systems in the car, you need to design them--
redundancy is not here today. So the idea of trying to take 
that system and somehow retrofit it on an existing car we don't 
think is practical.
    Senator Gardner. But somebody's going to develop that, 
don't you think? Just like they did for a piece of farm 
equipment, somebody's going to figure out how to retrofit an 
old car, and who is going to be responsible for that?
    Mr. Ableson. As I said, we don't see a path to be able to 
do that.
    Senator Gardner. OK. The other question I have--is there a 
state--I mean, a lot of this is the question between Federal 
and state. Is there a state that's getting it better than some 
states in terms of allowing this innovation to flourish? And, 
if so, who is that, and what are they doing that's so good 
about it?
    Dr. Urmson. Senator, I think that is an important question. 
I think we've seen many states that have expressed enthusiasm 
about this technology and looking for ways to kind of ensure 
that the technology will come to their state. What we've found, 
actually, is in most places, the best action is to take no 
action, and that, in general, the technology can be safely 
tested today on roads in many states, and that what we really 
are looking for is the leadership that Secretary Foxx has 
announced around--you know, at a Federal level bringing some 
guidelines for innovation.
    Senator Gardner. I guess the other question would be: Who 
is doing the best job of not doing anything?
    [Laughter.]
    Dr. Urmson. I'm sure I don't have a good answer for that.
    Senator Gardner. The other question I have, just out of 
curiosity more than anything, is the example of the deer. If 
you're driving down an interstate in Colorado, and you have an 
animal on the side or perhaps even a child that runs out after 
a soccer ball or something onto a road--how are we going to 
address issues of sort of the moral choice that a computer is 
going to have to make, that a car is going to have to make, 
whether it veers left, if there's a car next to it, if it veers 
right into the ditch? Maybe the car itself is carrying 
passengers, obviously carrying passengers.
    How do we address that? How do we research that? How do we 
study that? How do we make that happen?
    Dr. Urmson. Senator, I think this is a very important 
point. This is a question that humanity has struggled with for 
hundreds and hundreds of years, and there isn't a right, kind 
of philosophical answer. So the approach we're taking is to try 
and reduce this to practice in a way that we can actually 
implement something and see the broader safety, economic, and 
mobility values.
    So the way we think about this is let's try hardest to 
avoid vulnerable road users, pedestrians, cyclists, and then 
beyond that, try hardest to avoid other vehicles, and then 
beyond that, avoid the things that don't move in the world, and 
be transparent and say that if you're in this vehicle, this is 
the way it'll behave, and then you can make the decision--am I 
OK with that or not? And others may have different judgments 
about the right way to do that.
    Mr. Ableson. I would only add that I think the intent, as 
we talked about with the various sensing technologies, is to do 
absolutely the best we can to make sure these vehicles never 
get put into those situations in the first place. So, again, 
with the emphasis on developing these with safety preeminent in 
our minds, I think there are real opportunities here.
    Senator Gardner. Obviously, in Colorado, we added about 
100,000 new residents to the state in 2014-2015. We're the 
second fastest--depending on what numbers you look at--growing 
state in the country, 80 percent of that population growth 
occurring on the front range between Pueblo, Colorado, and Fort 
Collins, Colorado. This technology, I think, is one of the keys 
to allowing a thriving ski resort industry up in the mountains 
where you're limited to the amount of tunnels you can put 
through a mountain, both from a cost perspective and from a 
physical--a sort of physics perspective as well.
    So I think this is an incredibly fascinating opportunity, 
and I just look forward to learning more from you as we 
progress. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. There are lots of reasons people are moving 
to Colorado.
    [Laughter.]
    Senator Gardner. And automation is probably a good thing 
for that.
    The Chairman. We may need more autonomous cars in Colorado 
for that reason. But, thank you, Senator Gardner.
    Senator Markey?

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much.
    You know, these new vehicles are computers on wheels. It's 
absolutely amazing what is happening. I just went out onto the 
highway, crossed the 14th Street Bridge to 395 in a Tesla 
vehicle, and I looked right, I looked left, and it was like, 
``Look, Ma, no hands.''
    So I'm just driving along down the highway at 11:30 this 
morning in one of these demonstration vehicles, and it was just 
absolutely amazing, very impressive. Clearly, we're still at 
the dawn of the era. But the promise is there, and we can see 
it, and I'm very glad I took the demonstration this morning.
    Back in 2013 and again last year, I asked 20 automakers 
what they are doing to protect our computers on wheels, and 
what I found is that they're not doing enough. After reviewing 
the original responses from the automakers, I released a 
report, and the report is entitled ``Tracking and Hacking 
Security and Privacy Gaps Put American Drivers at Risk.''
    Here's what we learned from the study, that thieves no 
longer need a crowbar to break into a car. They just need an 
iPhone. Today's connected cars are also collecting tremendous 
amounts of personal driving information. Cars know where you 
are, where you've been, how fast or slow you drive, and even 
the mileage since your last oil change. Some of that is good. 
Some of it is important to have gathered. But if all the 
vehicles out there were fully autonomous, and we were all 
relying upon computers and not a human driver from the start to 
get to where you are, to get to where you want to go, those 
vulnerabilities will become more pronounced in our society.
    So I just have a couple of questions for the panel. Number 
one, we need enforceable rules of the road to protect driver 
privacy and security. I introduced with Senator Blumenthal, the 
Security and Privacy in Your Car Act, or the SPY Car Act, that 
directs the National Highway Traffic Safety Administration and 
the Federal Trade Commission to establish Federal standards to 
secure our cars and protect our drivers' privacy.
    So for each of the panelists, if you would, I would like 
you to answer this question on mandatory cybersecurity 
standards, including hacking protection--that means all access 
points in the car should be equipped with reasonable measures 
to protect against hacking attacks--data security measures--
that means that all collected information should be secure to 
prevent unwanted access--and hacking mitigation so that 
vehicles are equipped with technology that can detect and 
report and stop hacking attempts in real time.
    So, Dr. Cummings, what do you think? Do we need rules of 
the road that are formally----
    Dr. Cummings. I'm in general agreement with all of those 
issues. But I will tell you as a university professor on the 
cutting edge of this technology the concerns that I have and 
that I testified 2 years ago in front of this same committee is 
that it's happening so quickly that the government institutions 
cannot keep pace. The government cannot hire the same people 
that Chris is hiring at Google X. He's got----
    Senator Markey. No, this would just be to say to the 
companies, ``Build in the hacking protections.''
    Dr. Cummings. I agree, but I also think that you need a 
regulatory framework that can ensure this is happening.
    Senator Markey. And that's what I'm asking. Should we say 
to NHTSA and to the Federal agencies----
    Dr. Cummings. I say yes, but I'm saying I don't think 
NHTSA, at least today, has the people on the staff that they 
would need to do that.
    Senator Markey. Right, and, again, that's the problem with 
the Securities and Exchange Commission. They had a bunch of 
lawyers and no economists----
    Dr. Cummings. Absolutely.
    Senator Markey.--to deal with the meltdown that occurred 
because it had been computerized. They moved to a different 
trading model. So, obviously, the agencies have to get the 
technical expertise they need. But it would be important, 
though, to have the rules if they had the personnel to do it.
    Dr. Cummings. I agree, but I think that's a real challenge.
    Senator Markey. I understand. We have to meet the 
challenges of the future.
    Mr. Okpaku?
    Mr. Okpaku. Thank you for the question, Senator Markey. We 
at Lyft are not only fully committed to ensuring that we 
prevent any instances of cyber hacking or violations of our 
user privacy, but, yes, we are in support of well thought out 
principles that would codify our previously existing attempts 
to ensure that.
    I think it's important, though--and I know this has been 
discussed before--that these principles be very well thought 
out, that there be a consistency of what these principles look 
like. We're dealing with a technology that is going to be 
deployed across the country, and in order to do so, we need to 
make sure that whatever principles are put in place to ensure 
the privacy and safety of our users--that it's consistent 
across the country.
    Senator Markey. I think the Chairman is going to catch up 
to me. Yes or no? Do we need mandatory standards or not?
    Mr. De Vos?
    Mr. De Vos. I think we really haven't determined whether we 
think we need mandatory standards or not. But what we have 
determined is that it does help to standardize, standardize in 
the testing, standardize in the approaching. So the question 
for us is how do we get there?
    Senator Markey. Mr. Ableson?
    Mr. Ableson. We support the Auto-ISAC as a way to trade 
information across the OEMs and suppliers. I think the point of 
regulation trying to stay ahead of this very fast-changing 
area--we think a more flexible approach is preferable.
    Senator Markey. Dr. Urmson?
    Dr. Urmson. Google is attacked on a regular basis. We have 
hundreds of people dedicated to cybersecurity, and what we've 
learned through that is that it's a very dynamic space, and 
that it's important to be able to adapt the principles with 
which you defend over time.
    Senator Markey. OK. I understand what you're saying. But 
witnesses sat here 30 years ago and said the same thing about 
airbags and seatbelts and how they should just leave it to the 
individual companies, that it was hard to mandate a specific 
airbag, and it would be very expensive. So I understand the 
consistency over the decades. But at the same time, people 
expect airbags to protect their children, and they're going to 
expect certain standards that are going to be mandated across 
the board that are going to protect people.
    I was hit by a car when I was five, running across the 
street, and I was chasing two 9-year-olds. I was only five, and 
I could see how difficult it was for the driver, in retrospect, 
to know I was going to do it.
    But as we're moving forward, we just want to make sure that 
we don't have unnecessary accidents, you know, and, clearly, 
hackers are going to have the ability to be able to break into 
these vehicles. There's going to be a whole bunch of very smart 
young people who are going to start playing games with this 
technology going forward.
    So the kinds of protections you build in can be voluntary, 
but if 10 companies do it and 10 don't, then those 10 are going 
to be identified by the hackers as the ones they're going to be 
playing games with out on the highways. I just think we need 
minimal standards that every company is going to meet. I just 
think the sooner we start the discussion and accept that as a 
responsibility, the better off we'll be.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Markey.
    Senator Blumenthal?

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman, and thank you 
all for being here. May I respectfully suggest that the answer 
to the question--should there be mandatory safety and privacy 
standards--is yes. And I didn't hear that from all of the 
witnesses.
    I heard answers that basically implied, ``maybe there 
should be.'' But with the clear need, it seems to me, and for 
the sake of this technology, the answer should be yes, because 
that's the credibility and faith that you want to establish--
that your technology is meeting mandatory standards.
    Let me ask Ms. Cummings: Is NHTSA equipped right now to 
establish those standards, in your view?
    Dr. Cummings. No, they are not, in my opinion.
    Senator Blumenthal. And in your opinion, should this 
technology be implemented widely until there are such 
standards?
    Dr. Cummings. No. I think that we need to address these 
issues before there is wide dissemination of the technology.
    Senator Blumenthal. Do any of the other witnesses disagree?
    Mr. Ableson. I would say yes. I want to speak a little bit 
about privacy, because we talked somewhat about cybersecurity, 
but from a privacy standpoint, GM is very clear. Privacy is 
very important. We operate only with an opt-in principle. We 
operate only where customers know what the data is being used 
for, and we only retain that data as long as we need to.
    Senator Blumenthal. So you agree there should be mandatory 
standards?
    Mr. Ableson. No. I think that we are operating with privacy 
as a very important part of how we implement this. I think that 
we'll continue to work with regulators on what is appropriate.
    Senator Blumenthal. You know, I have to say--and I'm not a 
technology person. I'm just a country lawyer from Connecticut. 
But if I ask somebody, ``Do you think that a red light means 
stop?'' and they came back and said, ``Well, you know, let me 
put it this way, and under these circumstances, maybe, and we 
have great respect for stop lights, and et cetera,'' I would 
say the answer is ``yes,'' because, again, the credibility that 
this technology has may become exceedingly fragile if people 
can't trust standards that are uniform and mandatory, not 
necessarily for you, but for all of the other actors that may 
come into this space at some point.
    So I don't want to belabor this point, but it's one of the 
reasons why Senator Markey and I have introduced this 
legislation. And for everyone who says, you know, the private 
sector companies can do it voluntarily, I would have more trust 
in that argument if the answer to this question was yes--that 
we will respect mandatory standards that are applicable 
uniformly throughout the industry.
    I went for a ride today in one of the vehicles that uses 
the current technology, and it's impressive. It occurred to me, 
when I heard the comparison between the open spaces of the 
Dakotas and Minnesota and Montana that I was also driving 
yesterday in downtown New York, Manhattan, in the midst of a 
rain storm. I was not driving myself. I was riding, thankfully. 
And I just don't know how this technology will fare in terms of 
safety in that kind of environment.
    So I would just close by suggesting that there really is a 
need to develop rules of the road here--standards--and 
distinctions in spaces to assure the driving public that safety 
and privacy will be respected.
    Thank you very much for being here today, and I look 
forward to working with you. Thank you.
    And I yield to my friend from Massachusetts.
    Senator Markey. I thank the gentleman.
    So can we go down on the privacy issue as well? We dealt 
with the question of safety. But what about privacy? Do you 
think there should be a mandatory minimum for privacy 
protection which is put on the books so that owners have to be 
made explicitly aware of collection, transmission, retention, 
and use of driving data, providing owners the right to say no 
to data collection without losing access to key navigation or 
other features and ensuring that personal driving information 
not be used for advertising or marketing purposes without the 
owner clearly opting in?
    Dr. Cummings?
    Dr. Cummings. Yes, Senator Markey. I think these are issues 
that we're facing across a number of industries and a number of 
technologies. And the fact of the matter is that these cars are 
going to be one big data-gathering machine--visual images, 
telemetry data, all of your personal data. So I see it in a way 
that once this happens--and, right now, the cars really do need 
to talk to each other, and they need to talk back to the 
manufacturers to let them know what's going on.
    So for the near term, they need to talk. But they are going 
to be gathering a lot of data, and it's not clear who is going 
to be doing what with that data. I, personally, would feel 
better to know that there was some set of standards in place 
that were protecting my personal data or at least, like you 
said, allowed me to know what's happening.
    Senator Markey. So you think there should be rules that the 
information can't be used for marketing purposes, being 
gathered about your driving and using some of that information.
    Dr. Cummings. Absolutely.
    Senator Markey. Do you agree with that, Mr. Okpaku?
    Mr. Okpaku. Senator Markey, thank you for the question. 
Similar to what Mr. Ableson said, Lyft has very strict policies 
in place where personal data cannot be used for any other 
purpose without strict opt-in by its users.
    Senator Markey. But should it be mandatory?
    Mr. Okpaku. Well, the way I would address that, sir, is 
that there should definitely be standards. How the standards 
are developed is really the question. And if I can draw this 
back to the ride-sharing industry, which is where my area of 
experience is, what we've examined there is that when we first 
launched, we put upon ourselves a lot of high standards with 
respect to safety, with respect to privacy, with respect to 
insurance.
    As an example, we developed a whole new type of insurance 
that provided a million dollars of coverage for all of our 
passengers. This had not been required by any law----
    Senator Markey. Let's just take me as a passenger and 
another 100 people who live in the Boston area, and somebody 
just wants access to the names of all the people and where they 
went, using your service. Do you think there should be a 
privacy protection for that that you're bound by, that you 
can't sell that information even though people would want to 
know who was coming into that area? Don't you think there 
should be an absolute prohibition on your selling the 
information as to where people are going inside of your cabs?
    Mr. Okpaku. There should definitely be privacy protections. 
I guess the only point I'm trying to raise is that there are 
very unique situations that can't always be foreseen in the 
development of new technology that we need to be mindful of in 
developing standards for this type of thing, and that's what 
we've----
    Senator Markey. Assuming you're already doing the right 
thing, which is what you're saying, then why would you have a 
problem with kind of just working to create a standard, then, 
that could be used across the industry?
    Mr. Okpaku. Well, if you will, sir, that was the point I 
was going to make, that in Lyft developing these policies 
internally, we've now seen policies that Lyft and other ride-
sharing companies have enacted of their own volition become 
kind of the standard for the industry. But I think that it is 
important to make sure of the involvement of the industry to 
ensure what the appropriate standards were.
    Senator Markey. And, again, my time is going to run out.
    So you've already heard the options here, Mr. De Vos. Yes 
or no? Mandatory?
    Mr. De Vos. We haven't really taken a position on 
mandatory. But what I would say is we would like to be part of 
that discussion to formulate how do you approach it.
    Senator Markey. But you should first just decide yes or no, 
though. That would be helpful.
    Mr. Ableson?
    Mr. Ableson. We'll continue to work with the regulatory 
agencies on what we think is required.
    Senator Markey. So you don't have a yes or no on it, then, 
in terms of mandatory minimal privacy standards.
    Mr. Ableson. I believe we fulfill----
    Senator Markey. I know you do, but all the bad companies 
out there that aren't as good as your company. That's what I'm 
saying. You know, we don't pass murder statutes for our 
mothers. They're not going to murder anybody. Can we do it for 
the people who we think might murder people? So you need kind 
of a minimal standard.
    So assuming your company never does anything wrong, you 
still need a statute for people who might do things wrong. So 
you don't think we need that statute?
    Mr. Ableson. Senator, we'll continue to work with----
    Senator Markey. OK. Good. I appreciate that.
    Dr. Urmson?
    Dr. Urmson. Google has a variety of policies that we use 
around privacy. It's foundational to our business, and we're 
very public in trying to----
    Senator Markey. What do you think about making that 
foundation a standard, though, that would have to be met 
statutorily?
    Dr. Urmson. I would have to submit an answer for the record 
on that. I'm not in a position to comment on that for Google.
    Senator Markey. Again, I think, ultimately, yes is the 
right answer so that there's a minimal standard, and, 
hopefully, we'll reach that day.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Markey.
    And there is no requirement for the panelists to agree with 
him.
    [Laughter.]
    The Chairman. So you can answer the question any way you 
want.
    I just have a couple of questions to sort of close things 
out. One has to do with this whole issue of consumer 
acceptance, because this is a very new technology, and any time 
a new technology comes onto the market, you have consumers who 
may welcome that technology because it's new and exciting and 
it affords a lot of, in this case, mobility benefits that I 
think people would find very valuable and certainly not met by 
traditional cars.
    But then you've got other consumers who prefer the look and 
feel of traditional driving and may resist autonomous vehicles 
because they have reservations about giving up control of the 
car. So I guess I would just say from the consumer standpoint, 
what are the biggest challenges that you see in terms of 
spurring demand, if you will, for autonomous vehicles?
    Mr. Ableson. I think what's important is to get the 
technology exposed to a large part of the population, including 
some of the underserved communities we talked about earlier. We 
think that deploying this technology in this ride-sharing model 
allows us to do that in a very effective way, where, again, 
we'll do it in a very safe way, but people don't need to 
purchase an autonomous vehicle to get their first experience 
with the technology. I think, like with all new technologies, 
as people gain experience with it, they'll get more comfortable 
with it.
    Mr. De Vos. I would add the AAA report that was on--you 
know, are people ready for automated, where it showed that the 
minority were. It also showed, though, that ADAS systems are 
really helping prepare and lay that groundwork and gain 
consumer acceptance of those technologies. That's why we think 
it's really important that we have a broad application of ADAS 
technologies for the safety benefit, but also for the consumer 
acceptance piece of it.
    Dr. Urmson. Senator, our experience is that when someone 
first hears about the idea of a self-driving car, it comes 
across maybe alien and very, you know, far out there. And, 
without fail, when someone comes in thinking that this is all 
smoke and mirrors or that this is never going to happen, within 
about 5 minutes of riding in one of our vehicles, they're in 
the back, on the cell phone, as if this was any other day.
    I think part of it is that people are so used to riding in 
vehicles that have been driven by someone else, whether it's 
their parents or their loved ones. So I think having people 
have the chance to experience it will increase adoption very 
quickly.
    The Chairman. And just as a follow up to that, during your 
tests, what have been the reactions of people, consumers, who 
have ridden in self-driving cars? Do they feel safe? I mean, 
you indicated that you feel like they have an experience that--
it seems like it would be initially a little bit hard because 
of the instinct that you want to control things.
    Dr. Urmson. We've done some studies of this, and what we 
find is the first 5 minutes is a little tense. You know, this 
car is driving itself. And then in 10 to 15 minutes, it feels 
like it drives pretty well, and 15 minutes on, you know, it 
drives better than me is their impression. So we're fairly 
confident that once people try it out, they're going to enjoy 
it and really appreciate the value.
    The Chairman. Mr. De Vos?
    Mr. De Vos. One of the other comments we get frequently is 
people say it's kind of boring. They basically say it's not 
that exciting. The cars don't accelerate harshly or slam on the 
brakes. They obey the traffic laws, and very quickly the ride 
becomes--you know, the driving is no longer the activity that 
you're focused on. You're focused on whatever it is you're 
doing.
    That's exactly what we want the technology to bring. It's 
not about the drive. That just fades away into the background, 
and it's about doing whatever it is you really need to do or 
want to do during that time.
    Mr. Okpaku. From our perspective, sir, in order to make 
sure that this is readily available for the consumers at large, 
it has to be safe, it has to be convenient, and it has to be 
cost effective, and this is where Lyft really thinks it can 
help in making sure that all of those three factors are met in 
deploying this technology to the people at large. This is 
essentially the same challenges that Lyft faced a few years ago 
when launching a purely peer-to-peer platform, and that idea 
was considered fairly out there at the time that we brought 
that product to market. And as I mentioned before, a few years 
later, it's already become probably one of the most popular 
modes of transportation today.
    So in order to really ensure that consumers are ready to 
adopt this, we need to convince them that it's safe, which I 
think everyone here is committed to doing. And in order to make 
sure that it is cost efficient, I believe that a ride-sharing 
platform like Lyft must be involved.
    Dr. Cummings. Senator Thune, I'd like to add just one 
thing, and this is really a critical point. Timing is 
everything. There is no question that someone is going to die 
in this technology. The question is when, and what can we do to 
minimize that.
    I think I speak for many people in the robotics community 
to say we are strong advocates of this technology, but if a 
death, a fatality, were to occur soon, at the wrong time, it 
could really set back the integration of this technology, which 
I fully think will help prevent those deaths on the road. So 
that's why I think we're very--we, being many academics in this 
community, are very concerned that we do want the safety 
testing data out there so that an accident that could have been 
prevented did not happen.
    The Chairman. Well, thank you all very much. This has been 
very helpful. In just looking at the technology, it seems like 
there's enormous potential there on so many levels, and first 
and foremost, of course, is safety. If we could reduce by any 
amount the number of fatalities we have on America's roadways 
in a given year, that would be a remarkable accomplishment.
    But I think in terms of the economic and the gains in 
productivity, quality of life, environmental, congestion, all 
these things that we talk about in our society today, it seems 
to me at least that we could have enormous benefits, but 
always, of course, with an eye toward the safety and making 
sure that we're doing things in the right ways.
    One of the questions that's been raised a lot today, as 
many of you responded to, is the issue of cyber attacks, hacks, 
and that sort of thing, and cybersecurity, and measures being 
taken, and I think that's something that people will inevitably 
raise a lot of concerns about, given just the overall cyber 
threats that we face in the world today. So, certainly, with 
autonomous vehicles, there's going to be no exception.
    And I'm interested in some of the responses that you all 
gave to that question, because I think it's--and, particularly, 
some of it, too, with redundancy that's built into the 
vehicles, any types of gaps that occur if there were some sort 
of disruption in the connectivity--I mean, it sounds like 
you've given a lot of thought to this, and there has been a lot 
of testing and a lot of research already done.
    So we encourage that and want to continue it and want to 
make sure that we do our job to ensure that it's done in the 
safest manner possible, but not in a way that inhibits or 
imposes any kind of a barrier or impediment to what we think is 
something that has tremendous upside and tremendous potential 
for the American economy and for the safety of our Nation.
    So thank you all for making your time available to us today 
and for your thoughts and insights. We look forward to 
continuing the conversation about this, and the sky seems to be 
the limit, so to speak, in terms of where we can go with this. 
So thank you all very much.
    I would just conclude that the hearing record remains open 
for 2 weeks, during which time Senators are asked to submit any 
questions for the record, and upon receipt, the witnesses are 
requested to submit their written answers to the Committee as 
soon as possible.
    Thank you all very much. This hearing is adjourned.
    [Whereupon, at 4:33 p.m., the hearing was adjourned.]

                            A P P E N D I X

                                                     HARMAN
                                       Stamford, CT, March 22, 2016

Hon. John Thune,
Chairman,
United States Senate Committee on Commerce, Science, and 
Transportation,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
United States Senate Committee on Commerce, Science, and 
Transportation,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson,

    HARMAN was very pleased to see the Senate Committee on Commerce, 
Science, and Transportation participate in the important dialogue 
between government and industry about a future with connected and 
autonomous vehicles. HARMAN is an industry leader in connected car 
technology, working every day at the industry's cutting edge to create 
the technology that ensures a safe and enjoyable driving experience.
    Autonomous and connected vehicle technologies are at the forefront 
of innovation and pose many benefits in the public interest. Like many 
of those who testified, HARMAN is eager to work with the government as 
it develops a regulatory framework that fosters innovation and growth.
    As autonomous vehicles inch closer to market, we agree that safety 
and privacy are things that should be taken very seriously by everyone 
involved. This commitment to cybersecurity and customer privacy is 
evidenced by our recent acquisition of TowerSec, the leading automotive 
cybersecurity firm. We have also implemented a robust multilayered 
automotive cybersecurity architecture that outlines the best practices 
in designing security features across the critical points of 
vulnerability in the connected and autonomous cars. HARMAN's leadership 
in these areas have received numerous industry accolades including the 
Business Intelligence BIG Innovation Award for automotive sector and 
the industry analyst firm Frost and Sullivan award for product 
innovation in cybersecurity.
    In addition to software security, a safe driving experience on the 
road naturally dominated this Senate hearing. We understand that safety 
is the foremost concern for lawmakers in an autonomous car future. 
However, HARMAN has developed numerous technologies that improve driver 
safety, not in the near future, but today. HARMAN's camera-based vision 
technologies, advanced navigation capabilities, pedestrian detection 
solutions, and head-up display products are all designed to help enrich 
the safety experience in the car while minimizing driver distraction. 
In addition, our company develops software that allows for vehicle-to-
vehicle (V2V) and vehicle-to-infrastructure (V2X) communication. 
HARMAN's secure communications technology serves as the vehicles 
central nervous system, broadcasting and collecting surrounding 
information to ensure increased road safety. This technology has a more 
immediate impact on road safety and the standards currently being 
crafted for this technology should foster further innovation and 
product deployment.
    HARMAN is very excited to play a role in the innovative work being 
done in this field. It's a pleasure to see that the Senate and those in 
government have an interest in working with the industry to allow for 
meaningful and safe innovation.
            Sincerely,
                                               Paula Davis,
                                 Vice President, Corporate Affairs 
                                                and Communications.
                                 ______
                                 
                           National Federation of the Blind
                                      Baltimore, MD, March 22, 2016

Hon. John Thune,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    I write on behalf of the National Federation of the Blind (NFB), 
the Nation's oldest and largest organization of the blind, to thank you 
for conducting last week's hearing on autonomous vehicles. It was my 
great privilege to attend the hearing last Tuesday afternoon and listen 
to the five witnesses as well as the insightful questions posed by 
members of the Committee.
    As a blind husband and father, the prospect of being able to drive 
using an autonomous vehicle excites me. I am not inclined to ask my 
wife and son to cart me around wherever I need to go. My blind 
colleagues in the NFB feel the same way. You should know that I am not 
writing to express a mere pipe dream.
    At Daytona International Speedway, on January 29, 2011, just before 
the start of the 2011 Rolex 24 at Daytona, the National Federation of 
the Blind conducted the Blind Driver Challenge. Mark Riccobono, who is 
now President of the NFB, became the first blind person to 
independently drive a car on the racetrack. We were pleased that 
Congressman John Mica of Florida was able to participate in the 
festivities of that historic day, and we believe that his position on 
the House Committee on Transportation and Infrastructure will be 
helpful in our continuing dialogue with Congress on this topic. Last 
week's hearing was a positive step. However, we expect that in the 
midst of all of the excitement about expanding opportunities for people 
with disabilities through the proliferation of autonomous vehicles, 
Congress and the private sector will engage the disability community.
    We anxiously anticipate the day that all blind people will have the 
opportunity to drive independently, and we believe that autonomous 
vehicles will make this day possible. This is why the National 
Federation of the Blind has done more work related to including blind 
people in the class of drivers than anybody in the disability space. As 
blind people, we know that we can live the life we want, and that with 
effort and American ingenuity we can transform dreams into reality. We 
know that blind people have the capacity to act with the controls under 
our hands including when those controls are installed in autonomous 
vehicles.
    Please do not hesitate to contact us with any questions you have 
about our experience and expertise in this area. We look forward to 
working with Congress in the near future, as we endeavor to expand 
opportunities for blind people with regard to an activity that most 
believe impossible for the blind. Thank you again for your attention in 
this important matter.
    With kind regards, I am,
            Sincerely,
                                        Parnell Diggs, Esq.
                                    Director of Government Affairs,
                                      National Federation of the Blind.
                                 ______
                                 
         Statement from Securing America's Future Energy (SAFE)
About Securing America's Future Energy
    Securing America's Future Energy (SAFE) has been leading efforts to 
improve U.S. energy security for economic and national security reasons 
for over a decade, led by retired four-star military officials and 
leading business CEOs on its Energy Security Leadership Council. SAFE's 
policies include increasing domestic production of oil and gas while 
breaking oil's monopoly over the transportation sector, which accounts 
for over 70 percent of all oil consumption in America. Last year, SAFE 
formed an Autonomous Vehicle Task Force--comprised of business, 
technology and policy leaders--to advise it on the transformation 
currently underway in the transportation sector and had actively 
started working in this space. SAFE recently testified at the 
California DMV hearings and is also completing a National Strategy with 
specific recommendations on autonomy for our CEOs and military leaders 
to be issued on May 19.
    Autonomous transportation could bring about the most dramatic 
transformation in society in the last 100 years. This shift could 
deliver unprecedented benefits by unleashing trillions of previously 
non-productive hours, addressing the dramatic underutilization inherent 
to the current vehicle ownership model, significantly curbing the more 
than one million traffic fatalities annually worldwide \1\, providing 
mobility and freedom to the disabled and elderly, and securing dramatic 
reductions in oil demand through efficiency and fuel diversification. 
It is the goal of SAFE to make sure that we are cognizant of the 
national interest as opposed of the interest of one company or industry 
over another, and to not allow incumbents to slow the advancement of 
critical technology down through regulatory mechanisms in the guise of 
safety or for other reasons.
---------------------------------------------------------------------------
    \1\ http://www.who.int/gho/road_safety/mortality/
traffic_deaths_number/en/
---------------------------------------------------------------------------
Benefits of technology
    Key benefits of autonomous vehicles will include:

        Energy Security: Studies, including our own internal modeling, 
        demonstrate the potential for autonomous vehicles to reduce 
        petroleum dependency. Autonomous vehicles will allow more 
        efficient operation, reduce congestion, and will encourage the 
        economic and technological case for Advanced Fuel Vehicles. 
        Morgan Stanley estimated that U.S. fuel savings would be $150 
        billion annually before even taking into consideration fuel 
        economy improvements.

        Safety: Preliminary data shows that even as effective advanced 
        safety technologies become more prevalent and reliable, motor 
        vehicle related accidents rose over 8 percent in 2015. The 
        total social and economic cost of vehicle crashes is estimated 
        to be over $800 billion per year. Autonomous vehicles have the 
        potential to avoid or mitigate many, if not most, of the 93 
        percent of crashes which are caused by human error.

        Mobility Access: By 2050, the number of Americans older than 65 
        will approach 90 million, more than double today's number. 
        Studies show that as Americans enter their 70s and 80s, their 
        travel is sharply reduced in large part due to age-related 
        infirmities. Autonomous vehicles can provide mobility, 
        independence and dignity, to older Americans, and better 
        integrate them into the economy.

    Similarly, the disabilities community could be transformed through 
better access to mobility. According to the U.S. Census Bureau, the 
labor force participation rate for individuals with an ambulatory 
disability is only 25 percent, compared to 75 percent for the broader 
population.
    Harvard economists have found that access to efficient, quick, and 
reliable transportation significantly improves the odds of individuals 
lifting themselves out of poverty.
Current technology status
    While it has long been possible to automate some of a vehicle's 
function (e.g., cruise control), the last few years have seen an 
increasing focus on the potential to deploy highly automated vehicles 
to the public. New entrants to this space who are outside the auto 
industry have been particularly influential. Google began to work in 
this space in 2009 and of January 2016, the company has tested more 
than 1.4 million autonomous miles.
    Traditional automotive companies sense a competitive threat have 
not ignored this important trend. By now, most have now announced 
autonomous vehicle development activities, although they differ in 
whether they are aiming for ``full automation'' where the driver is 
rendered unnecessary, or using autonomous vehicles as a ``backup 
driver'' to improve safety. Some automakers are experimenting with new 
business models such as carsharing and other mobility on-demand 
services, while others believe that personal vehicle ownership will 
remain the near-exclusive paradigm for most Americans for decades to 
come.
SAFE Activities in this space
    Regulatory Process: SAFE's Autonomous Vehicle Initiative advocates 
for policy framework which does not impede with the deployment of 
autonomous vehicles and that the regulatory process is reformed so that 
it can respond quickly to an increasingly changing technology 
environment.
    SAFE and several representatives of the Autonomous Vehicle Task 
Force participated in a workshop with the California DMV on regulations 
for the deployment of autonomous vehicles. SAFE, in conjunction with 
its Task Force and a network of external experts, is engaging 
California and offering resources for the creation of deployment 
regulations.
    Communications: SAFE has been educating the public and activating a 
broad range of constituents through a coordinated media campaign on 
autonomous vehicles. Articles written by or quoting SAFE affiliated 
experts include

  <bullet> SAFE Announcement: ``SAFE Launches Autonomous Vehicle Task 
        Force to Advance U.S. Economic and National Security''

  <bullet> Detroit News: ``Self-driving cars put the `auto' in 
        automobile'' (opinion by Mike Granoff, SAFE Autonomous Vehicle 
        Task Force member)

  <bullet> USA Today: ``Toyota, new task force could boost non-gas 
        options'' (news), also appeared in Detroit Free Press here

  <bullet> Detroit News: ``Group launches task force to speed 
        driverless cars'' (news)

  <bullet> Green Car Congress: ``SAFE launches Autonomous Vehicle Task 
        Force'' (news)

  <bullet> The Hill: ``Regulators: Don't Slam the Brakes on Driverless 
        Cars'' (opinion by Robbie Diamond)

  <bullet> SAFE Reaction: ``Autonomous Vehicle Task Force: Latest 
        California Regulation for Driverless Cars Will Stalemate 
        Progress, Send Innovation Elsewhere''

  <bullet> SAFE Reaction: ``SAFE CEO: DOT Regulations for Autonomous 
        Vehicles Should Leave a Wide Berth for Innovation, Improvements 
        in Efficiency and Safety''

  <bullet> Cleantechnica: ``Do Driverless Cars Need Drivers?'' (opinion 
        by Rutt Bridges, SAFE Autonomous Vehicle Task Force member)

    Coalition Building: SAFE is organizing both industry players and 
broader stakeholders to create consensus positions around autonomous 
vehicles. SAFE is organizing stakeholder groups and business interests 
who are potentially impacted by autonomous vehicle deployment.
SAFE Positions
    Don't Let Regulations Stifle the Technology: SAFE is actively 
promoting this message in response to California proposed autonomous 
vehicle regulations, which is an example of steps governments should 
not take. Government should allow the deployment of fully autonomous 
cars so long as they are demonstrably safe and the private sector is 
willing to deploy them.
    Government Role: The government's role is important but should be 
limited to ensure that policies advance, not impede innovation and 
progress of these technologies. Policies will be important to ensure 
that adoption is carried out smoothly and safely.
    There is a need for some government spending to create a regulatory 
framework and speed adoption, but not a major, multi-billion dollar 
spend. The private sector is capable of investing in development of the 
technology and there are strong incentives for it to do so.
    Energy Security and other social benefits: Market-based mechanisms 
should encourage the use of autonomous vehicles to achieve social 
benefits such as increased mobility for older Americans, Americans with 
disabilities, and lower-income Americans. Primarily among those 
benefits is the energy security benefits of autonomous vehicles. 
Autonomy has the potential expedite the end of oil dependence.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                            Dr. Chris Urmson
    Question 1. At the hearing, we discussed a number of potential 
benefits and opportunities offered by autonomous vehicles, including 
increased safety, mobility, and efficiency. How do you think 
transportation and mobility will change in the future? Will the design, 
operation, and ownership of cars change? How will the regulatory and 
legal environment need to adapt to those changes?
    Answer. We would like to transform mobility for everyone. From the 
very earliest days of the self-driving car project, we've wanted to 
realize the full potential of this technology to help as many people as 
we can--such as helping senior citizens get to doctor's appointments, 
or helping people who have health conditions that make driving 
difficult. We think fully self-driving cars could open up opportunities 
for new and interesting models in which people have access to a vehicle 
rather than owning a vehicle, but it's still too early to know how that 
would work or make any firm decisions. However, the regulatory 
environment will need to evolve to accommodate the safety innovations 
necessary to safely operate fully self-driving cars in the U.S. Current 
regulatory authority is insufficient to keep pace with safety 
technologies being developed by vehicle manufacturers and technology 
innovators. Among those technologies are adaptive beam headlights, side 
mirror-replacing sensors, and new automated systems necessary for fully 
self-driving cars. New and amended automotive safety standards take 
years to finalize through NHTSA rulemaking. Existing authority 
concerning ``general exemptions'' (49 USC 30113) provides some leeway 
for development and field evaluation of innovative features but its 
limitations on duration (two years) and vehicle numbers (2,500 in any 
12-month period) do not provide for full deployment. 49 USC 30114 
(``special exemptions'') is limited to research, investigations, 
demonstrations, training, competitive racing events, show, or display. 
The recently enacted section 49 USC 30112(b)(10) permits introduction 
of vehicles into commerce that do not comply with the FMVSS ``solely 
for the purposes of testing or evaluation.'' As we discussed during the 
hearing, we would propose giving the Secretary of Transportation new 
authority to permit implementation of innovative safety technologies in 
motor vehicles. The Secretary (likely acting through NHTSA by 
delegation) could grant such approval only after public notice and 
comment and only upon a determination that the terms of the approval 
and any accompanying conditions would ensure safety at least as well as 
relevant Federal Motor Vehicle Safety Standards (FMVSS). The result 
would supplement existing NHTSA authorities, to expedite the safe 
introduction of life-saving vehicle technologies.

    Question 2. Self-driving cars are likely to increase mobility, 
especially for those that are currently unable to drive. In developing 
such technologies, how does your company work to increase accessibility 
and incorporate the needs of people with disabilities, so that the 
technology and interfaces can be used independently?
    Answer. During our development, we have found it very important to 
include the feedback and experiences of people with disabilities--such 
as Steve Mahan, who works for the Santa Clara Valley Blind Center, and 
has tested every generation of our technology--from our Prius vehicles 
to our latest prototypes. We believe there is more work to be done in 
collaboration with the disability community to ensure that certain 
needs can be designed into the technology and interfaces as it becomes 
ready for broader testing and deployment.

    Question 3. In response to my question at the hearing about timing 
for the availability of autonomous vehicles in the marketplace, GM's 
witness expressed that GM expects to deploy vehicles in the next couple 
of years, depending on how the technology develops and the criteria 
established by regulators. When do you think these cars will be ready 
and available in the marketplace?
    Answer. We're currently testing our vehicles in four cities: 
Mountain View, Austin, Kirkland, and Phoenix; we have a few on the 
streets of Mountain View and Austin now. In this current phase of the 
project, we're studying how these communities perceive and interact 
with us, and we're continuing to smooth out the vehicles' behavior to 
make them feel more natural to people inside and around them. We also 
want to uncover challenges that are unique to a fully self-driving 
vehicle--e.g., where it should stop if it can't stop at its exact 
destination due to construction or congestion. The next step for us 
will be running pilot programs with our prototypes to learn more about 
what people would like to do with vehicles like this, though we don't 
have any specific timelines to share right now. As I described during 
the hearing, my oldest son is currently twelve years old, and my team's 
goal is to ensure that he won't have to obtain his driver's license 
several years from now.

    Question 4. While self-driving cars have the potential to save many 
lives, advanced computing and electronics may also create new concerns. 
Can you elaborate on what steps your company is taking to make sure it 
stays ahead of cyber vulnerabilities and other safety issues with these 
new technologies and connectivity?
    Answer. Google has a world-class team dedicated to making our 
technology secure, which includes measures to protect the cars from 
being hacked. All our communication to and from the car is over an 
encrypted and authenticated channel. Data that is stored in the car 
itself is encrypted such that even if the vehicles are compromised, 
there would be no readable data aboard them. The hard drive that stores 
the information is regularly removed from the car and wiped clean so 
that the car never has large volumes of data in it. We're also 
constantly testing and scrutinizing the security of Google's systems--
including our self-driving cars. Within Google, we have a team of 
engineers whose job is to try and break into our products, so we're 
able to continuously improve and evolve the security of our systems.

    Question 5. There are clearly benefits of driver assistance 
technologies, many of which are available today. Do you think driver 
assistance technologies can evolve to fully autonomous cars? Or will we 
see a mix of vehicles on the road?
    Answer. Many people assume that, over time, incremental 
improvements in driver assist technologies--things like automated 
parking, or automatic braking in stop-and-go traffic--are going to 
ultimately lead to fully self-driving cars. That isn't going to happen. 
It's impossible to keep adding assistive technology around the driver 
and someday end up in a place where a driver isn't necessary. It's not 
a continuum--it's a chasm--and that chasm is the difference between 
incremental benefits for society and a society that can shake itself 
free of many of the environmental, lifestyle, and safety burdens that 
our dependence on the automobile has unwittingly imposed on us. Getting 
to fully self-driving has important implications for how you design 
both the hardware and the software. If you think about how a typical 
automobile works, it's entirely built around having a human present and 
able to operate it safely. If you're going to have a vehicle that 
doesn't rely on having a fully alert and responsive human, you'll need 
to build extra systems in, like steering and braking. You may end up 
disrupting the normal way all the vehicle's systems function. Despite 
this, we recognize that the industry is continuing to develop and 
deploy driver assistance technologies in the market today, and expect 
that such vehicles would share the road with both standard human-
operated cars and fully self-driving cars.

    Question 6. How supportive has NHTSA been of your efforts to 
develop and get autonomous vehicles on the road? How can a public-
private partnership be helpful in developing and deploying these 
technologies?
    Answer. NHTSA's has rightly recognized the need to take quick 
action to help ensure that the United States is able to stay in the 
forefront of the development, testing, and safe deployment of this 
technology. The Department of Transportation has also recognized the 
safety, environmental and accessibility benefits of self-driving cars. 
Secretary Foxx has committed to quickly working with the states to 
remove regulatory roadblocks that would prevent self-driving cars on 
U.S. roads, when the technology is ready. This is why we support 
NHTSA's goal of working ``with the ITS-JPO to lead multiple pilot 
deployments of Level 4 automated light duty and heavy duty vehicles 
researching different approaches to automation in different places'' 
and ``developing new public-private partnership models for deployment'' 
to ``generate data and experience about how to effectively encourage, 
regulate and legislate around this technology.'' \1\
---------------------------------------------------------------------------
    \1\ FY 2017 Budget Estimates--NHTSA <http://www.nhtsa.gov/
staticfiles/administration/pdf/Budgets/FY2017-
NHTSA_CBJ_FINAL_02_2016.pdf>
---------------------------------------------------------------------------
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Steve Daines to 
                            Dr. Chris Urmson
    Question 1. Dr. Urmson, first thing on Google's self-driving 
website states: ``Navigating city streets. We've taught our cars to 
navigate through many complicated scenarios on city streets.'' In 
Montana, we have gravel roads, wildlife, towns without stop lights, 
roads that aren't mapped. What effort has Google taken to ensure 
functionality in rural environments?
    Answer. We recognize that rural communities have a significant 
demand for new mobility options. For example, 79 percent of seniors age 
65 and older in the U.S. live in car dependent suburbs or rural 
communities. This is why it is is so important that learn how different 
communities perceive and interact with self-driving cars--we want to 
get more experience testing our cars in new locations with different 
driving environments, traffic patterns, and road conditions. Since the 
Senate Commerce Committee hearing, we've added Phoenix to our mix of 
diverse communities including Mountain View, Austin, and Kirkland. The 
greater Phoenix area also offers the opportunity to test our cars and 
sensors in desert conditions, with extreme temperatures and dust in the 
air.

    Question 2. A portion of the 5 GHz frequency band is dedicated 
solely to automotive short-range communications. In 1999 the FCC said 
allocating this spectrum would foster innovation. Over the last 17 
years this spectrum has been left inaccessible by consumers. Since its 
inception, Google has innovated in many sectors and utilized a variety 
of frequencies. Considering usable spectrum is finite, what efforts are 
Google taking to share with other industries?
    Answer. Google has long advocated more intensive, dynamic spectrum 
sharing as a way to meet the growing data demands of 21st century 
broadband users. For example, Google was an early supporter of allowing 
opportunistic wireless use of the television broadcast bands, and in 
support of that efforts, it operates a television white spaces database 
to enable wireless devices to make non-interfering use broadcast 
spectrum. Google has also advocated more intensive sharing between 
governmental and civilian users, and is developing a Spectrum Access 
System to facilitate sharing between military radar, satellite users, 
fixed wireless broadband providers, and new fixed and mobile wireless 
users in the 3.5 GHz band.

    Question 3. In order for autonomous vehicles to become an everyday 
reality, an unprecedented amount of data will be necessary. Individual 
cars will collect much of this data. What data will Google be 
accumulating? Will Google be selling or sharing this data with 3rd 
parties?
    Answer. The cars process data in real time to be able to make sense 
of the surroundings and to help them drive safely. Radar is used to 
detect and avoid large moving objects such as other vehicles, lasers 
are used to detect and avoid pedestrians. Driving cameras are used to 
detect and recognize traffic lights, stop signs and emergency vehicles. 
While we're proving this technology out, we save this information to 
run simulations to complement the driving the cars do in the real 
world. The data collected by our vehicles is for testing and learning 
purposes.

    Question 4. Consumers are justifiably concerned about the privacy 
of their data. In the FAST Act, the Committee included the Driver 
Privacy Act, establishing privacy protections for vehicle data 
recorders. Will Google make it clear personal data is owned by the 
individual?
    Answer. Google's prototype vehicles do not include traditional 
vehicle event data recorders, since they were not designed to store 
accident crash data linked to human operation of a vehicle, for which 
the privacy protections under the FAST Act were designed. We also agree 
with the findings of the Senate Commerce Committee in S. Rept. 114-
147--DRIVER PRIVACY ACT OF 2015, that ``S. 766 would use the definition 
of EDR in section 563.5 of title 49 of the Code of Federal Regulations. 
In this context the Committee contemplates that the term should not be 
interpreted as to burden unnecessarily the development and 
dissemination of advanced vehicle safety technologies, including 
autonomous vehicles. In the latter respect, the Committee contemplates 
that the EDR would be discrete from any devices and functions used for 
the operation of such vehicles.'' Our vehicles are only being used for 
testing by our engineering team right now. When we begin any pilot 
tests, we will make it clear to users how any personal information will 
be used, and we plan to notify users before such personal information 
is used for any purpose other than getting them from point A to point B 
in our vehicle.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                            Dr. Chris Urmson
    Question 1. In her written testimony, Dr. Cummings stated that 
``the self-driving car community is woefully deficient in its testing 
and evaluation programs (or at least in the dissemination of their test 
plans and data)'' and that companies should commit to ``principled, 
evidence-based tests and evaluations.'' How would you respond to these 
concerns? Do you believe that the self-driving car community, including 
your company, is testing rigorously enough? If so, should there be 
greater dissemination and transparency of test plans and data?
    Answer. As we develop our self-driving car, we're constantly 
testing, analyzing and evaluating how our software performs. We do this 
on our test track, in the real world (1.5 million miles to date), and 
in our simulator (more than 3 million miles a day). Ultimately, a self-
driving car's readiness for the public can't be boiled down to a single 
number, but we can accumulate a portfolio of metrics for our system 
that are useful to watch over time.
    One metric we're watching closely as an important indicator of our 
progress is the rate of what we call ``simulated contacts.'' These are 
situations in which, when we replayed a real-world situation in our 
simulator, we determined that our vehicle would likely have made 
contact with another object if our test driver hadn't taken over 
driving. We have many other metrics and methodologies that will be 
useful for establishing our safety record over time. On our test track, 
we run tests that are designed to give us extra practice with rare or 
out-of-the-ordinary situations. And our simulator generates thousands 
of virtual testing scenarios for us; it executes dozens of variations 
on situations we've encountered in the real world by adjusting 
parameters such as the position and speed of our vehicle and of other 
road users around us. This helps us test how our car would have 
performed under slightly different circumstances--valuable preparation 
for a public road environment in which fractions of seconds can be of 
critical importance.
    In addition to the testing that is done on public roads, our 
simulator and on our private track, there is another important element 
to understanding that we are ready for operation. This is the 
completion of a functional safety analysis. This process is used to 
identify the ways in which the car can fail and and create a safety 
risk. The identified causes are then mitigated to reduce or eliminate 
the risk associated with the various failure modes. This analysis is 
supplemental to the various testing that is done and further 
strengthens our confidence regarding public road deployment.
    Thanks to all this testing and analysis, we can develop confidence 
in our abilities in various environments. Throughout these processes, 
it has proved extremely valuable for us to publish information on how 
far we've traveled, new capabilities we've added, and any accident 
encountered. We make this information available through monthly reports 
on our website at https://www.google.com/selfdrivingcar/reports/

    Question 2. As you may know, NHTSA is working on new guidance to 
states, policymakers, and companies on self-driving vehicles. Do you 
believe that NHTSA has sufficient expertise, in terms of staffing and 
resources, to guide the development of autonomous vehicles?
    Answer. There are significant areas of technical expertise within 
NHTSA today, supporting a range of advanced automotive safety 
technologies, including self-driving cars, which exceed those available 
at the state levels. However, we believe that additional staffing and 
resources would help accelerate the efforts that NHTSA is undertaking 
in this area going forward.

    Question 3. Specifically, what, if any, additional authorities 
should Congress consider providing NHTSA to allow for safe deployment 
of autonomous vehicles?
    Answer. We strongly support NHTSA's goals and believe that 
Congressional action is needed to keep pace with safety technologies 
being developed by vehicle manufacturers and technology innovators, 
including fully self-driving cars. To achieve this goal, we propose 
that Congress move swiftly to provide the Secretary of Transportation 
with new authority to approve life-saving safety innovations. This new 
authority would permit the deployment of innovative safety technologies 
that meet or exceed the level of safety required by existing Federal 
standards, while ensuring a prompt and transparent process.

    Questions 3a. Should Congress provide authority to an agency, such 
as the Federal Trade Commission, to issue privacy and data security 
rules for autonomous vehicles?
    Answer. We do not believe that the Federal Trade Commission has 
requested this type of authority but the agency has repeatedly publicly 
outlined how its current authority encompasses the privacy of new 
technologies. In an October 2014 filing with NHTSA on the V2V ANPRM, 
the FTC stated that, ``the Commission's primary source of legal 
authority in the privacy area has been Section 5 of the FTC Act, which 
empowers the Commission to take action against deceptive or unfair 
commercial practices.'' ``To date, the FTC has brought more than fifty 
cases against businesses that allegedly failed to maintain reasonable 
security.'' ``In addition to enforcing the law, the FTC has distributed 
millions of copies of educational materials for consumers and 
businesses to improve their understanding of ongoing threats to 
security and privacy. On the policy front, the Commission regularly 
holds seminars and workshops to examine the implications of new 
technologies and business models on consumer privacy.''
                                 ______
                                 
    Response to Written Question Submitted by Hon. Edward Markey to 
                            Dr. Chris Urmson
    Question. Mr. Urmson, would Google support mandatory cybersecurity 
and privacy standards for autonomous vehicles?
    Answer. Cybersecurity and privacy must be front of mind for those 
working on this technology. We believe that it will be critical for the 
automotive and technology industries to apply existing industry 
cybersecurity and privacy standards from the technology sector to self-
driving cars to ensure the security and privacy of both the vehicles 
and their passengers. For example, all our communication to and from 
the car is over an encrypted and authenticated channel. In addition, 
data that is stored in the car itself will be encrypted such that even 
if the vehicles were compromised, there would be no readable data 
aboard them. The same security practice is used in Google's Data 
Centers today, to prevent data from being accessed even if a system is 
compromised (e.g., (see Google Transparency Report on E-mail Encryption 
in Transit).
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                            Dr. Chris Urmson
    Question 1. The need to protect connected vehicles from 
cybersecurity threats presents an opportunity for the auto industry to 
partner with security researchers to ensure the robust safety of these 
technologies. Can you describe the value of the ``bug bounty'' programs 
your companies offer to security researchers and hackers to share 
vulnerability information with your company?
    Answer. Since 2010, Google's Security Reward Programs have been a 
cornerstone of our relationship with the security community. Part of 
this relationship involves providing cash rewards for quality security 
research that identifies security vulnerabilities in products that we 
provide or proactive security improvements to select products. Google 
currently offers the following security reward programs: Google 
Vulnerability Reward Program (VRP), Patch Reward Program, Vulnerability 
Research Grants, Chrome Reward Program, Android Reward Program. We've 
now paid more than $4,000,000 in rewards to security researchers since 
2010 across all of our reward programs, with rewards ranging from $100 
to $20,000 for each vulnerability disclosed based on the severity. 
These programs have been successful because of two core beliefs:

  <bullet> Security researchers should be rewarded for helping us 
        protect Google's users.

  <bullet> Researchers help us understand how to make Google safer by 
        discovering, disclosing, and helping fix vulnerabilities at a 
        scale that's difficult to replicate by any other means.

    In 2015, Google added the Vulnerability Research Grants program to 
proactively identify bugs beyond the areas of research normally 
supported by our vulnerability rewards. These are up-front awards that 
we will provide to researchers before they ever submit a bug. We 
publish different types of vulnerabilities, products and services for 
which we want to support research beyond our normal vulnerability 
rewards. We then award grants immediately before research begins, with 
no strings attached. Researchers then pursue the research they applied 
for, as usual, and are still eligible for regular rewards for the bugs 
they discover.

    Question 1a. Are these programs an effective way to engage the 
security and privacy communities?
    Answer. Yes, these security vulnerability reward programs have 
helped Google identify thousands of vulnerabilities across numerous 
product areas since 2010. In addition, they continue to foster a 
crucial relationship between Google and the security research community 
in identifying current and future vulnerabilities. The programs also 
incentivize researchers to disclose vulnerabilities to Google first, to 
allow adequate time for repairing it, before it is publicly disclosed 
and puts users at risk.

    Question 2. What data does your company collect from cars, and how 
are you storing it on your own systems?
    Answer. Our self driving vehicles currently use a number of sensors 
to help understand their surroundings and arrive safely at their 
destination. This information is crucial to maintaining and improving 
road safety. The vehicles use this information in real time to do 
things like navigate, obey traffic rules, and avoid hazards. This 
information also powers simulations used by our engineering team to 
test the self-driving software, which improves the safety and passenger 
experience of the vehicles, and are stored in Google's state-of-the-art 
Data Centers. Security is part of our data centers' DNA. We build 
custom servers exclusively for our data centers, never selling or 
distributing them externally. We've also designed them so they don't 
include unnecessary hardware or software--reducing the number of 
potential vulnerabilities. We also have robust disaster recovery 
measures in place. For example, in the event of a fire or any other 
disruption, we shift data access automatically and seamlessly to 
another data center so that our users can keep working, uninterrupted. 
Our emergency backup generators continue to power our data centers even 
in the event of a power failure. At the data centers themselves, we 
have access controls, guards, video surveillance, and perimeter fencing 
to physically protect the sites at all times.

    Question 3. How is that data being protected from privacy and from 
cyber threats?
    Answer. We have a world-class team dedicated to making our 
technology secure, which includes measures to protect the cars from 
being hacked. All our communication to and from the car is over an 
encrypted and authenticated channel. Data that is stored in the car 
itself is encrypted such that even if the vehicles are compromised, 
there would be no readable data aboard them. The hard drive that stores 
the information is regularly removed from each car and wiped clean so 
that the car never has large volumes of data onboard.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                           Michael F. Ableson
    Question 1. In her written testimony, Dr. Cummings stated that 
``the self-driving car community is woefully deficient in its testing 
and evaluation programs (or at least in the dissemination of their test 
plans and data)'' and that companies should commit to ``principled, 
evidence-based tests and evaluations.'' How would you respond to these 
concerns? Do you believe that the self-driving car community, including 
your company, is testing rigorously enough? If so, should there be 
greater dissemination and transparency of test plans and data?
    Answer. At GM we are working diligently to test this technology. We 
regularly partner with outside experts and the academic community. We 
also undertake significant testing at our dedicated Milford Proving 
Grounds facility.
    We have state of the art simulation testing capabilities and are 
building an Autonomous Driving Simulation Lab and a Driver in the Loop 
Simulator Lab at the Milford Proving Ground, which will be in use in 
2016. The Autonomous Driving Simulation Lab will provide capability to 
simulate autonomous driving dynamics over a wide variety of conditions. 
The full motion Driver in the Loop Simulator will enable us to 
rigorously develop the vehicles systems, optimize safety and ensure 
passenger comfort. Our partnership with Virginia Tech University has 
also enabled us to test and model tire performance which will be used 
in the Autonomous Simulators as well as regularly test vehicles on the 
Virginia Smart Road and in the SoVa Motion Labs.
    In addition, we believe that controlled ride-sharing projects, such 
as those we are planning with Lyft provide us with a safe testing 
platform for automated vehicles. We also believe transparency 
surrounding testing and data are important, and we are exploring ways 
to further this objective to increase consumer confidence. We are also 
regularly engaged with NHTSA in connection with its automated vehicle 
efforts, which includes testing and data considerations.

    Question 2. As you may know, NHTSA is working on new guidance to 
states, policymakers, and companies on self-driving vehicles. Do you 
believe that NHTSA has sufficient expertise, in terms of staffing and 
resources, to guide the development of autonomous vehicles?
    Answer. We cannot speak to NHTSA's staffing and resources but we 
are extremely encouraged by NHTSA's actions taken to date. This 
technology is changing rapidly and all involved parties will have to 
continue to adapt to these changes.

    Question 3. Specifically, what, if any, additional authorities 
should Congress consider providing NHTSA to allow for safe deployment 
of autonomous vehicles?
    Answer. We believe NHTSA is taking the correct steps within the 
parameters of its authority. As noted in my testimony, we will continue 
to work with NHTSA to find creative ways to advance automated 
technology in real world controlled projects to accelerate learning 
about the technology and how it performs. As we learn through real 
world projects, we will have better information to determine if 
additional legal authority is needed going forward.

    Questions 3a. Should Congress provide authority to an agency, such 
as the Federal Trade Commission, to issue privacy and data security 
rules for autonomous vehicles?
    Answer. GM's commitment to data privacy and security is unwavering 
and we appreciate any effort aimed toward increasing privacy and 
security. We do not believe, however, that a single binding set of 
rules or a particular set of practices apply in all contexts. The best 
approach will vary depending upon circumstances, and automakers must be 
free to choose the solution that best fits both the needs of the 
product and the demands of automotive safety and innovation. We also 
believe that existing authority already exists through Federal and 
state consumer protections statutes to protect consumers of autonomous 
vehicles.

    Question 4. At the hearing, many of us on the Committee couldn't 
help but be reminded of the hearings that took place two years ago in 
that very room. In that case, the defect in the ignition switches 
wasn't something related to software or LIDAR or anything approaching 
the technological complexity of what's required in a self-driving car. 
In fact, the deadly problem in GM's ignition switches was really just a 
simple nuts-and-bolts mechanical problem.
    Question 4a. Could you walk us through what your company does in 
terms of spotting and reporting potential safety issues as your company 
develop autonomous vehicle technologies?
    Answer. GM utilizes a number of processes in an attempt to detect 
potential safety issues in GM vehicles, including data analytics and 
GM's Speak Up for Safety program. GM's Emerging Issue Identification 
process, along with the Safety and Field Investigations (SFI) process, 
help identify and analyze potential safety issues and conduct specific 
investigations as appropriate. Where a cybersecurity issue is 
identified that may impact vehicle safety, the issue is brought into 
the SFI process. GM routinely communicates with NHTSA regarding issues 
currently under investigation by GM and the results of GM's 
investigation and decision-making processes. In addition, we 
periodically meet with NHTSA and review cybersecurity issues that might 
be of interest. These processes apply to all vehicles, including those 
with autonomous technologies.

    Question 4b. What internal processes are now in place to prevent 
personnel from covering up defects?
    Answer. Please see the Answer to 4a above.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                           Michael F. Ableson
    Question 1. The need to protect connected vehicles from 
cybersecurity threats presents an opportunity for the auto industry to 
partner with security researchers to ensure the robust safety of these 
technologies.
    Question 1a. Can you describe the value of the ``bug bounty'' 
programs your companies offer to security researchers and hackers to 
share vulnerability information with your company?
    Answer. GM finds great value in working with the security research 
community. We welcome their input; we have, in fact, as of April 12, 
thanked 68 hackers, through our website, https://hackerone.com/gm for 
their contribution to GM's Security Vulnerability Disclosure Program.

    Question 1b. Are these programs an effective way to engage the 
security and privacy communities?
    Answer. General Motors has established strong relationships with 
many security researchers, various consortiums and other third-party 
cybersecurity experts. These relationships are implemented through 
contractual security-focused arrangements, contractual vulnerability 
testing and solution engagements and mutual collaboration agreements. 
In addition, General Motors engages with the cybersecurity research 
community through regular attendance at research community conventions 
and meetings. Also, General Motors employees play leading roles in SAE 
and other standard setting organizations that are actively engaged with 
the research community. GM's Security Vulnerability Disclosure Program 
is a way to allow researchers who may not be already working with GM to 
communicate to GM if they know of vulnerabilities in GM products.

    Question 2. How does your company ensure that the supply chains are 
protected from cyber threats?
    Answer. We utilize our requirements as pre-sourcing cybersecurity 
qualifications for suppliers for relevant components. Our cybersecurity 
organization interacts with suppliers throughout the development 
process conducting, among other activities, design reviews, code scan 
reviews, supplier security testing results reviews, security and 
penetration testing (conducted by General Motors and external experts) 
and final cybersecurity sign off. We also have contracts requiring our 
suppliers to meet our requirements, with rights to conduct audits and 
reviews. We are also working towards a supplier training program on 
topics including GM's cybersecurity requirements and best practices.

    Question 3. How does the Auto-ISAC assist in ensuring that cyber 
threat information is efficiently exchanged across the industry, 
including suppliers and manufacturers?
    Answer. The Auto ISAC can facilitate cyber threat information 
exchange across the industry through its information sharing portal. 
Since its inception, the ISAC has accomplished the following:

  <bullet> 100+ intelligence reports published

  <bullet> 10 public speaking events organized

  <bullet> 428 intelligence sources developed

  <bullet> 40 vehicle hacking tools tracked

  <bullet> 130+ active users on the portal

  <bullet> 18+ Board of Directors and Standing Committee meetings held

  <bullet> 9 portal training sessions (in both English and Japanese)

  <bullet> 30+ mentions in the press

    The Auto ISAC has also identified and reported more than 14 
vulnerabilities, provided by both Auto-ISAC members and other cyber 
intelligence sources.

    Question 4. What data does your company collect from cars, and how 
are you storing it on your own systems?
    Answer. The type of information generated by vehicles can vary by 
make, model, model year, as well as individual customer use of a 
vehicle and its features and services. In general terms, GM vehicles 
generate raw data regarding system status and operation through on-
board computers or electronic control units within the vehicle. The 
majority of this data is not transmitted outside the vehicle or 
retained permanently in the vehicle's systems. Data that is transmitted 
off-board the vehicle through the OnStar system is encrypted during 
transit into our back office systems, where the data is stored with 
appropriate data protection safeguards in place.
    OnStar is GM's primary mechanism for collection of vehicle data. 
OnStar's Privacy Statement delineates three categories of data 
collected (https://www.onstar
.com/privacy). These categories are defined as Vehicle-Related 
Information (examples include odometer, oil life remaining, tire 
pressure, diagnostic data and information about vehicle collisions); 
Driving Information (examples include geolocation, speed, safety belt 
usage, and other similar information about how the vehicle is used); 
and Account Information (examples include contact and billing 
information and information about how customers use certain OnStar 
services and its website).

    Question 5. How is that data being protected from privacy and from 
cyber threats?
    Answer. General Motors continues to devote substantial resources 
and effort to protect vehicles from cybersecurity threats and to 
maintain data privacy practices that promote security, transparency, 
choice, and integrity. We are taking a multi-layered approach to in-
vehicle cybersecurity and are designing many vehicle systems so they 
can be updated with enhanced security measures as potential threats 
evolve. For example:

  <bullet> We were the first auto manufacturer to create an integrated 
        and dedicated global organization focused on minimizing the 
        risks of unauthorized access to vehicles and customer data. 
        Jeff Massimilla, our Chief Product Cybersecurity Officer, has 
        responsibility for the end to end cybersecurity of our vehicles 
        and reports on a regular basis to our CEO and Board of 
        Directors.

  <bullet> We have collaborated with experts in the defense and 
        aerospace industries, government organizations, academia and 
        industry consortiums on best practices and key lessons.

  <bullet> We are also in full support of the recently formed Auto 
        Information Sharing and Analysis Center (Auto ISAC), which will 
        identify trends and common cyber threats and focus the 
        industry's ongoing efforts to safeguard vehicle electronic 
        systems and networks. Jeff Massimilla is the Vice Chairman of 
        the Auto ISAC Executive Committee.

  <bullet> GM has launched a Security Vulnerability Disclosure Program 
        through which security researchers who are not already working 
        with us that find security bugs or vulnerabilities related to 
        our products or services can inform GM via a security website 
        portal.

    We strive to ensure that our customers are aware of what data we 
might collect and how it could be used. The user terms and privacy 
statements implemented across our customer-facing channels are designed 
to provide customers with clear, meaningful, descriptions of our data 
policies and practices. We also publish our policies in order for 
consumers to make informed choices about our products and services. It 
is also our practice to obtain opt-in consent for any services that may 
fall outside those described in the OnStar User Terms and Privacy 
Statement. Once OnStar services are activated, a customer may 
subsequently cancel the services at any time, however, cancelling core 
services means that vehicle connectivity will no longer be available.

    Question 6. As the software and operating systems of GM vehicles 
offer increasing automated functionality, it is possible that liability 
will swing towards the manufacturers.
    Question 6a. Do you expect automakers to assume more liability at 
higher costs?
    Answer. One of the great promises of automated functionality is the 
potential improvement in driving safety by the reduction of driver 
error as a factor in the number and severity of accidents. At present, 
it is difficult to estimate the impact of increasing automated 
functionality on the norms of liability, given the nascent state of the 
technology, the large and growing car park of conventional vehicles, 
and the role of autonomous in ride-sharing platforms versus 
individualized driving, all of which can influence the approach to 
autonomous vehicle liability by the tort bar and OEMs.

    Question 6b. How could you see this potential shift affecting 
suppliers and consumers?
    Answer. Please see above.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                             Glen W. De Vos
    Question 1. At the hearing, we discussed a number of potential 
benefits and opportunities offered by autonomous vehicles, including 
increased safety, mobility, and efficiency. How do you think 
transportation and mobility will change in the future? Will the design, 
operation, and ownership of cars change? How will the regulatory and 
legal environment need to adapt to those changes?
    Answer. Autonomous vehicles are expected to significantly 
revolutionize the driving experience. First, safety will be 
dramatically increased. Today's commercially available active safety 
features, also known as Advanced Driver Assistance Systems (ADAS), 
alone will reduce annual driving deaths in the U.S. by one-third or 
more than 10,000 lives a year once adopted throughout the fleet. Full 
automation has the promise to go even further, making most auto crashes 
and injuries a thing of the past. The reduction in accidents will also 
significantly lessen road congestion, which crashes greatly exacerbate. 
Vehicle-to-Vehicle (V2V) and Vehicle-to-Infrastructure (V2I) 
communication, together known as V2X, will further help with congestion 
as better information flow from infrastructure to vehicles can, not 
only allow cars to reroute to the least congested road, but also allow 
for better traffic management practices, such as better traffic light 
timing. These technological advances will allow cars to operate more 
efficiently and with fewer impediments. In addition, fuel economy will 
improve since reducing both idling and the start/stop of most daily 
commutes saves fuel. All of this can happen in advance of full 
automation.
    Full automation can produce even more remarkable changes. Road 
design, for example, can be simplified since many of the current road 
design features are intended to address drivers' limitations. From 
roundabouts replacing clover leafs, to platooning vehicles allowing for 
faster speeds and fewer lanes on the highway, automated vehicles could 
have a profound impact on the built infrastructure, reducing cost, and 
saving energy.
    It remains to be seen how car ownership patterns change. Automated 
vehicles make it easier to foresee a future in urban areas where fewer 
residents own their own cars, instead relying on fleets of driverless 
vehicles as shared personal transportation devices. Automated vehicles 
could also allow people with disabilities, including age-related 
ailments, to safely drive--restoring freedom of mobility to millions--
and therefore expand the ranks of car owners.
    It will be important for the industry and regulators to work 
together to adapt to these changes. The first area where the Department 
of Transportation (DOT) and National Highway Traffic Safety 
Administration (NHTSA) can work with the industry is through 
implementation of the STICRs Act. The STICRs Act will speed consumer 
adoption of ADAS by updating the 5-star safety rating system. Safety 
conscious consumers want to buy cars that are highly rated and the 
inclusion of active safety in the 5-star rating will have an almost 
immediate impact on consumer adoption of these life-saving 
technologies. Greater adoption of ADAS will not only save lives now but 
will set the stage for greater consumer acceptance of full automation 
in the future.
    It is also important to develop a uniform set of policies and 
regulations pertaining to automated driving. Currently, many states are 
establishing their own regulations in this space. It will be important 
to have national policies, not 50 potentially varying state-level 
policies, that are flexible enough to allow for the roll-out of 
automated vehicles for fleets, the movement of goods and services, and 
individual consumers.

    Question 2. Self-driving cars are likely to increase mobility, 
especially for those that are currently unable to drive. In developing 
such technologies, how does your company work to increase accessibility 
and incorporate the needs of people with disabilities, so that the 
technology and interfaces can be used independently?
    Answer. Fully automated driving will revolutionize the driving 
population. It will provide more mobility and driving opportunities to 
people who are currently unable to drive due to disabilities.
    In the immediate future, ADAS has the potential to help people who 
may be discouraged from driving. Technologies such as automatic 
emergency braking will create a safer environment for drivers with 
potentially slower reflexes or who do not have as much driving 
experience, such as the elderly or new young drivers. The cocoon of 
safety that is created by ADAS will increase confidence among drivers 
and encourage more independent vehicle use.

    Question 2a. In response to my question at the hearing about timing 
for the availability of autonomous vehicles in the marketplace, GM's 
witness expressed that GM expects to deploy vehicles in the next couple 
of years, depending on how the technology develops and the criteria 
established by regulators. When do you think these cars will be ready 
and available in the marketplace?
    Answer. Despite the success of our cross-country drive and our 
demonstration of urban driving at CES 2016, significant challenges 
remain in moving automated driving from concept to reality and finally 
to commercialization. The availability of automated cars in the 
marketplace will also depend on regulatory activity and mass consumer 
adoption--which is difficult to predict. Technological advances and 
strong consumer demand could result in fully automated cars entering 
the consumer marketplace in the next decade. Several automobile 
manufacturers have already announced automated vehicle launches for as 
early as 2020 and Delphi is helping lead the way. Delphi V2V technology 
is scheduled to be introduced on the 2017 Cadillac CTS later this year. 
Volvo and others began offering automated functions like automatic 
emergency braking and traffic jam assist in 2014. V2V and V2I will also 
play an important role in providing information about the environment 
in which the vehicle is driving. These technologies are important 
foundations for automated vehicles and will help save lives before 
fully automated vehicles are deployed.

    Question 3. While self-driving cars have the potential to save many 
lives, advanced computing and electronics may also create new concerns. 
Can you elaborate on what steps your company is taking to make sure it 
stays ahead of cyber vulnerabilities and other safety issues with these 
new technologies and connectivity?
    Answer. Delphi takes cybersecurity and safety very seriously. 
Making sure that our products are safe and secure has always been a 
priority for Delphi. Accordingly, Delphi was the first Tier 1 supplier 
to join the Automotive Information Sharing and Analysis Center (Auto-
ISAC) to further improve cybersecurity threat awareness and 
coordination across the industry. The Auto-ISAC provides a forum for 
information exchange among entities in the automotive industry for the 
purpose of sharing trusted and timely information about existing or 
potential cyber-related threats and vulnerabilities in light duty on-
road passenger vehicle electronics and associated networks.
    Additionally, Delphi is in the midst of creating a state-of-the-art 
R&D cybersecurity lab to verify new tools and technology and process 
security incidents when they occur.
    Delphi works with a number of international organizations, 
government agencies and companies to ensure a coordinated approach to 
the safety and security of interconnected vehicles--including the 
National Institute of Standards and Technology (NIST) and Society of 
Automotive Engineers (SAE). We have also worked with Original Equipment 
Manufacturers (OEMs) to ensure that the products we engineer meet OEM 
specifications, and leverage open-source and industry accepted 
information security protocols.
    Delphi has also taken an aggressive internal approach to ensure 
that our products are secure. In 2014, we appointed a central 
cybersecurity director to ensure a uniform and comprehensive corporate 
wide approach to cybersecurity. We also have a dedicated team of 
engineers and IT professionals who provide oversight in the area of 
cybersecurity and connected vehicles from supply to delivery and 
aftermarket. Additionally, a steering committee meets regularly to 
provide appropriate guidance with respect to policies, procedures, and 
standards.
    We also strategically engineer safety into technology. For example, 
Engine Control Units or ECUs are developed with a secure boot and 
programming functionality so only valid and trusted programs and 
software are executed. A vehicle's wireless connectivity is also 
protected using industry encryption standards to protect the vehicle 
network and the user's privacy.

    Question 4. There are clearly benefits of driver assistance 
technologies, many of which are available today. Do you think driver 
assistance technologies can evolve to fully autonomous cars? Or will we 
see a mix of vehicles on the roads? How will the STICRS Act, enacted 
into law as part of the FAST Act, help to speed the deployment of such 
technologies?
    Answer. The STICRs Act will greatly speed the adoption of life-
saving active safety technology. There are technologies that are 
available in the marketplace today, such as automatic emergency 
braking, blind spot detection and lane departure warning which can have 
an immediate safety impact. Before STICRs, ADAS was not mandated as 
part of the New Car Assessment Program's (NCAP) 5-star safety rating. 
The 5-star rating is an important factor in driving consumer demand. 
Safety conscious consumers want to buy cars that are highly rated. 
Including active safety in the 5-star rating will give consumers a 
clearer picture of which vehicles are the safest to own and increase 
demand for active safety technology.
    ADAS will be a crucial aspect as we move towards fully automated 
cars. Over time, automated driving will likely evolve from ADAS. 
Technologies that are available in the market today will provide a 
foundation for automated driving. In addition, as a March 2016 AAA 
survey of drivers illustrated, only one in five drivers today trust 
``self-driving'' cars. Increased consumer adoption of ADAS will speed 
consumer acceptance of fully automated vehicles. The same survey found 
that ADAS technology is already desired by sixty percent of the driving 
public.

    Question 5. While driver assistance technologies may serve as the 
building blocks for self-driving cars of the future, there are some 
concerns that, if we have cars that handle nearly all driving 
situations, human drivers might get complacent and not pay attention 
and take control of the car when they need to. What is Delphi doing to 
address those concerns?
    Answer. With respect to driver engagement, there are two technology 
systems that we implemented in our driverless car to help address the 
issue.

  A.  Driver Monitoring: Delphi's automated driving platforms are 
        equipped with state-of-the-art driver state sensing systems, 
        which allow the vehicle to monitor the availability of the 
        driver in situations where a takeover may be necessary. If the 
        driver is found to be unavailable, the vehicle is capable of 
        coming to a stop until it is safe to proceed.

  B.  Drive-by-wire system: The drive-by-wire system featured in 
        Delphi's automated driving platforms is implemented in a manner 
        that preserves the function of the production vehicle's 
        steering and drivetrain. When manually operated, the vehicle 
        drives exactly as a production vehicle would. When auto mode is 
        engaged, the automated system uses the same vehicle input 
        interfaces as a human driver, which allows passengers to 
        directly see and feel how the vehicle is behaving. The 
        automated driving system is completely separable from the stock 
        system, which allows the driver to instantaneously assume full 
        control of the vehicle at any time.

    Question 6. How supportive has NHTSA been of your efforts to 
develop and get autonomous vehicles on the road? How can a public-
private partnership be helpful in developing and deploying these 
technologies?
    Answer. In December of 2015, NHTSA announced the creation of new 5-
star safety rating systems that would include ADAS. The new ratings 
will include three 5-star ratings: crashworthiness, crash avoidance, 
and pedestrian protection. The announcement follows passage of the 
STICRs Act and will increase consumer demand for active safety 
technology, a building block for automated vehicles. The timeline set 
by the STICRs Act is to promulgate a rule within one year. It is 
critical that this timeline does not slip.
    Additionally, the Obama Administration's announcement of a ten-
year, $4 billion effort to ``accelerate the development and adoption of 
safe vehicle automation through real-world pilot projects'' through the 
programs authorized by the FAST Act demonstrates broad support for 
moving the U.S. to an automated future. These pilots should be a useful 
public-private partnership. For example, DOT's Smart Cities initiative 
will be helpful in driving development of intelligent transportation 
systems on a city-wide basis that no single company or local government 
could accomplish on its own.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                             Glen W. De Vos
    Question 1. In her written testimony, Dr. Cummings stated that 
``the self-driving car community is woefully deficient in its testing 
and evaluation programs (or at least in the dissemination of their test 
plans and data)'' and that companies should commit to ``principled, 
evidence-based tests and evaluations.'' How would you respond to these 
concerns? Do you believe that the self-driving car community, including 
your company, is testing rigorously enough? If so, should there be 
greater dissemination and transparency of test plans and data?
    Answer. Delphi is committed to ensuring that all of our products 
are safe and reliable. Our technologies go through a rigorous testing 
process to guarantee that they are safe and will perform to the 
specifications set by our customers. In addition to the substantial and 
continuous testing Delphi performs in the development and manufacture 
of its existing ADAS product line, Delphi conducted the first cross-
country automated drive last year. During the test drive, the car was 
in autonomous mode 99 percent of the time. This drive allowed us to 
collect nearly three terabytes of data that will be instrumental in 
improving automated driving technologies. Delphi will continue to be at 
the forefront of developing, testing and evaluating the component 
technologies that are saving lives today, and that will allow for 
automated vehicles in the future. We look forward to continuing to work 
with DOT and NHTSA to improve and evolve the testing and evaluation 
programs and protocols on these critical safety features.

    Question 2. As you may know, NHTSA is working on new guidance to 
states, policymakers, and companies on self-driving vehicles. Do you 
believe that NHTSA has sufficient expertise, in terms of staffing and 
resources, to guide the development of autonomous vehicles?
    Answer. Delphi has a strong working relationship with NHTSA and has 
been pleased with NHTSA's recent steps on updating NCAP to include 
ADAS, and its outreach to industry on the future of automated vehicles. 
In addition to its talented staff, continued collaboration with the 
automotive industry will help NHTSA access some of the specialized 
expertise it requires to make informed decisions about the future of 
automated vehicles.

    Question 3. Specifically, what, if any, additional authorities 
should Congress consider providing NHTSA to allow for safe deployment 
of autonomous vehicles?
    Answer. NHTSA currently has broad authorities in the regulation of 
vehicle safety. Congress has proven in the past that additional 
legislative action can have a beneficial impact on vehicular safety, 
specifically as it relates to automation technologies. Congress's 
passage of the FAST Act which included the STICRs bill gave NHTSA the 
mandate to quickly update its NCAP 5-star rating system to include ADAS 
technologies. This new legislative requirement was a significant step 
towards driving consumer adoption of ADAS technologies which will save 
thousands of lives annually, and is a critical step on the road to 
consumer acceptance of full automation.
    There are a number of areas in which NHTSA and DOT need to continue 
to be active. One is in the V2V roll-out. DOT needs to have sufficient 
authority to ensure that through a collaborative process with industry, 
V2V and V2I can rollout in a timely and coordinated fashion. V2V will 
be a major safety improvement not only for new cars but, through the 
after-market, existing vehicles. The Federal Government will be a 
driver of this adoption, through infrastructure spending as well as 
through the designation and protection of the necessary spectrum.
    Another area that could benefit from NHTSA's expertise is the 
reconciling of the multiple state rules governing automated driving. A 
balkanized 50-state framework will increase the cost and slow the roll-
out of automated vehicles. A collaborative process involving NHTSA and 
the companies that are developing the marketing of automated and semi-
automated technologies that helps drive national rules of the road 
makes more sense than 50 state solutions.

    Questions 3a. Should Congress provide authority to an agency, such 
as the Federal Trade Commission, to issue privacy and data security 
rules for autonomous vehicles?
    Answer. With respect to privacy, as a Tier 1 supplier, Delphi 
builds to the standards requested by our OEM customers. Delphi only 
keeps and stores data associated with its own test vehicles, unless 
data storage is a product feature that is disclosed and agreed to by 
customers. For our aftermarket offering, Delphi Connect, Delphi stores 
data associated with end customer vehicles. This attribute, however, is 
an essential product feature and is clearly disclosed to customers in 
our terms of service for Delphi Connect. Delphi's experience and 
practices do not inform the question of whether additional regulatory 
authority in this space is needed or advisable.
    With respect to cybersecurity, it is clear that expanded 
collaboration and information sharing among and between the companies 
responsible for building automated systems, as well as with relevant 
agencies of the Federal Government, is critical. It is for this reason 
that Delphi was the first Tier 1 supplier to join the Automotive 
Information Sharing and Analysis Center (Auto-ISAC). There is a long 
list of agencies that either currently are or would like to collaborate 
with the automotive sector on cybersecurity. They include the National 
Institute of Standards and Technology (NIST), DOT (including NHTSA), 
and the Department of Homeland Security, as well as others with cyber 
security and research expertise in the field. Delphi believes that 
strong internal controls, adoption and implementation of best practices 
and collaboration and information sharing between and among the 
industry and with government agencies are key to developing and 
maintaining cybersecurity in automated vehicles. At this time, it is 
unclear if expanding FTC's regulatory authority would improve the 
cybersecurity of automated vehicles.

    Question 4. At the hearing, many of us on the Committee couldn't 
help but be reminded of the hearings that took place two years ago in 
that very room. In that case, the defect in the ignition switches 
wasn't something related to software or LIDAR or anything approaching 
the technological complexity of what's required in a self-driving car. 
In fact, the deadly problem in GM's ignition switches was really just a 
simple nuts-and-bolts mechanical problem.
    Question 4a. Could you walk us through what your company does in 
terms of spotting and reporting potential safety issues as your company 
develop autonomous vehicle technologies?
    Answer. Delphi is committed to making cars safer. Delphi's business 
is built around the megatrends of Safe, Green, Connected, and as these 
megatrends converge and become more integrated, we work to remain 
uniquely positioned to bring full-system solutions to our customers. We 
have a robust and market leading development and manufacturing process 
that ensures the highest quality standards are achieved in all our 
products.
    All of our technologies are commercialized following a rigorous 
development process which includes--but is not limited to--component 
qualification, simulation, verification, environmental validation, 
functional testing, FMEA, Functional Safety (ISO<INF>2</INF>6262) 
compliance, and fleet testing. Systems are verified at both the sensor 
level (bench, chamber, real world usage profile) per functional test 
plans with derived performance requirements and at the vehicle feature 
level using functional test plans that evaluate true positive and false 
positive performance on test track and in real world environments. The 
false positive performance requirements are generated from a functional 
safety case and typically require very large amounts of real world data 
collection to ensure that the vehicle performs properly under all 
conditions and in all environments. This testing always includes 
environments where issues had been identified during the development of 
prior systems. All performance issues identified are resolved using 
structured problem solving in a ``test/develop countermeasure/re-
simulate process.

    Question 4b. What internal processes are now in place to prevent 
personnel from covering up defects?
    Answer. Delphi has conducted a thorough review of its policies and 
procedures related to safety. We believe our policies and practices are 
robust, are being improved and will continue to improve.
    Delphi's chief technology officer meets routinely with the 
company's global engineering team to reinforce the importance of 
raising concerns and providing feedback to our customers. Additionally, 
the chief technology officer personally reinforces with the company's 
global engineering team the importance of promptly raising concerns so 
that they can be handled.
    We have strengthened our procedures to promptly communicate safety 
concerns to our senior management team. Also, we have strong document 
retention policies in place and our critical engineering documents are 
stored digitally. We continuously improve our processes and procedures 
to increase vehicle safety.
    We have enhanced monitoring of safety issues that arise during 
product development, so that we can ensure they are identified and 
addressed early in the process.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                             Glen W. De Vos
    Question 1. How does your company ensure that the supply chains are 
protected from cyber threats?
    Answer. Delphi takes cybersecurity and safety very seriously. 
Delphi will qualify the integrity and operation of new software and ICs 
that will be used for our cybersecure product designs. This will be 
accomplished through collaboration and cooperation with dedicated 
suppliers during the development phase, followed by testing in our lab 
during product development.
    Making sure that our products are safe and secure has always been a 
priority for Delphi. Accordingly, Delphi was the first Tier 1 supplier 
to join the Automotive Information Sharing and Analysis Center (Auto-
ISAC) to further improve cybersecurity threat awareness and 
coordination across the industry. The Auto-ISAC provides a forum for 
information exchange among entities in the automotive industry for the 
purpose of sharing trusted and timely information about existing or 
potential cyber-related threats and vulnerabilities in light duty on-
road passenger vehicle electronics and associated networks.
    Delphi works with a number of international organizations, 
government agencies and companies to ensure a coordinated approach to 
the safety and security of interconnected vehicles including the 
National Institute of Standards and Technology (NIST) and Society of 
Automotive Engineers (SAE). We have also worked with Original Equipment 
Manufacturers (OEMs) to ensure that the products we engineer meet OEM 
specifications, and leverage open source and industry accepted 
information security protocols.
    Delphi has also taken an aggressive internal approach to ensure 
that our products are secure. In 2014 we appointed a central 
cybersecurity director to ensure a uniform and comprehensive corporate 
wide approach to cybersecurity, and we have a dedicated team of 
engineers and IT professionals to provide oversight in the area of 
cybersecurity and connected vehicles from supply to delivery and 
aftermarket. Additionally, a steering committee meets regularly to 
provide appropriate guidance with respect to policies, procedures, and 
standards.

    Question 2. What data does your company collect from cars, and how 
are you storing it on your own systems?
    Answer. Delphi only keeps and stores data associated with its test 
vehicles. We collect a broad array of data from the sensors associated 
our automated vehicles. The data is both stored on-board and outside 
the vehicle. These are Delphi owned vehicles. Delphi does not store 
data from consumer owned vehicle unless data storage is a product 
feature that is disclosed and agreed to by customers. For our 
aftermarket offering, Delphi Connect, Delphi stores data associated 
with end customer vehicles. This attribute, however, is an essential 
product feature and is clearly disclosed to customers in our terms of 
service for Delphi Connect.

    Question 3. How is that data being protected from privacy and cyber 
threats?
    Answer. As noted in Question 1, Delphi takes protection from 
privacy and cyber threats very seriously. Delphi has developed its 
Engine Control Units, or ECUs, with secure boot and programming 
functionality, so only valid and trusted programs and software are 
executed. The wireless connectivity is protected using industry 
encryption standards to protect the vehicle and user's privacy, 
including security to authenticate and gain access (WiFi protected 
access 2 or WPA2). We also leverage Bluetooth to connect a user's 
personal devices, but ensure that the connection is via Secure Simple 
Pairing (or SSP) which allows for encryption of data between linked 
devices, thus providing additional security.
    Delphi has a history of working to improve cybersecurity across the 
automotive sector. Delphi has, on multiple occasions, hosted the SAE 
International/Battelle CyberAuto Challenge. The challenge entails a 5-
day workshop where teams of students and professionals, including 
automotive engineers, government engineers, and ``white hat'' hackers, 
work on production vehicles to find real solutions to the challenges 
posed by cybersecurity in automobiles. Teams work to identify 
automotive cybersecurity trends and develop talent in a new technical 
discipline in this high tech space.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                             Joseph Okpaku
    Question 1. At the hearing, we discussed a number of potential 
benefits and opportunities offered by autonomous vehicles, including 
increased safety, mobility, and efficiency. How do you think 
transportation and mobility will change in the future? Will the design, 
operation, and ownership of cars change? How will the regulatory and 
legal environment need to adopt to those changes?
    Answer. The notion of car ownership is already changing at a rapid 
pace. As I stated in my testimony, according to a study by the 
University of Michigan, in 2014 only 24 percent of sixteen year olds 
obtained a driver's license. In 1983, that figure was 46 percent. 
Additionally, as millennials age and gain more market buying power, it 
is more likely that they will spend money on access to services, likely 
through a smartphone, rather than spending on full ownership of a good 
or service.
    Today, we are a nation driven by innovation, creativity, and 
positive transformation, all of which are shared core elements in our 
emerging digital economy. Lyft's co-founders John Zimmer and Logan 
Green have undertaken the formidable goal of filling the 80 percent of 
empty seats in cars on the road, and providing a true alternative to 
car ownership. With rapid urbanization comes increased traffic 
congestion, a detriment that continues to strain our economy, 
infrastructure, and environment. Lyft's vision is that through a mobile 
ridesharing platform, we will be able to take more cars off the road 
and complement existing public transit options. Lyft believes that this 
vision can only be achieved through collaborating and partnering with 
government, to ensure there are regulations in place to protect 
consumers and allow for competition.
    Now, three and half years after Lyft launched, smart regulations 
have been enacted in over 30 states across the country. As the digital 
economy continues to grow, and broadband and spectrum issues become 
even more important with the advent of self-driving cars, there will be 
new opportunities that lie ahead for government and industry. Lyft sees 
similar parallels to the developing autonomous vehicle industry, and 
would caution not to overly regulate too quickly. Thoughtful and 
unburdensome regulations need to be developed to allow for innovation, 
promote fair competition, and provide set safety standards. Lyft looks 
forward to working with Congress, states, and NHTSA as autonomous 
testing continues, and thoughtful regulations develop.

    Question 2. Self-driving cars are likely to increase mobility, 
especially for those that are currently unable to drive. In developing 
such technologies, how does your company work to increase accessibility 
and incorporate the needs of people with disabilities, so that the 
technology and interfaces can be used independently?
    Answer. Lyft has long been on a mission to reconnect people and 
their communities through better transportation options. We're making 
sure that people who need rides most are able to easily get them. Over 
the last few years Lyft has been committed to helping people with 
disabilities through rideshare, and we anticipate that this shift to 
autonomous vehicles will only continue to improve mobility options for 
all.
    Lyft has partnerships with a broad range of accessibility/
disabilities groups from across the country, including the National 
Federation of the Blind and the National Down Syndrome Society. These 
partnerships are based on the notion that, among other things, having a 
safe, reliable, on-demand, and cashless form of transportation has been 
transformative for people with disabilities. These partners have helped 
us think through improvements to the Lyft platform and policy 
developments, as well as how to best engage and educate our community. 
As we move into the new autonomous vehicle mobility space, we look 
forward to continuing to work with our partners on ensuring that our 
platform provides an inclusive service that benefits everyone in our 
community.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dean Heller to 
                             Joseph Okpaku
    Question 1. Given that seniors in Nevada represent 13 percent of 
our state's population, expanding seniors' mobility is of great concern 
to me. I know many of the populations that could benefit the most from 
ride sharing and ultimately on-demand autonomous vehicles are the very 
people who either can't afford or struggle to use technologies, like 
smart phones, that are needed to actually request a vehicle.
    Last August, my office held a roundtable in Reno with seniors, 
Federal agencies, health care providers, community leaders, and others 
who are concerned about the health and well-being of Nevada's senior 
citizens.
    The Nevada legislature had recently passed legislation clearing the 
way for ride share companies like Lyft and Uber to operate in the 
state, so I heard directly from a constituent with her interest in your 
services, but she doesn't own a cell phone. Another constituent said he 
only had a flip phone so he could call his family during emergencies.
    I think on-demand autonomous vehicles could be a major benefit for 
the elderly. It could help seniors get to their doctor's appointment, 
run errands like getting groceries, or simply ensure they maintain 
their independence even though it might not be safe for them to drive.
    What can we do to make sure these types of technologies are more 
available to elderly populations?
    Answer. Lyft has been dedicated to increasing mobility options by 
providing safe, affordable, and reliable rides. For seniors, many of 
whom no longer have a driver's license and have limited mobility 
options, Lyft has provided them with an on-demand service that can get 
them to medical appointments and restore their freedom and 
independence.
    Every year almost 3.6 million Americans miss or delay medical care 
because they lack appropriate transportation to their appointments. 
However, more than a quarter of Americans 65 years and older do not own 
smartphones, so that segment of the population had not been able to 
access the traditional Lyft platform. To address this issue, Lyft was 
excited to announce a digital dispatch partnership with National 
MedTrans Network that would allow for seniors or caretakers to call for 
a Lyft ride through their phone or a desktop computer. Through this 
kind of partnership we're already fulfilling 2,500 rides per week in 
New York City alone. Across the country, Lyft has transported nearly 
100,000 people through our partnerships with healthcare organizations. 
Lyft has lowered ETAs by 80 percent, and reduced the average cost of 
non-emergency medical transportation by an average of 20 percent, 
providing dramatic reductions in wait times and missed physician 
appointments.
    As we shift into the autonomous space, access to more mobility 
options will only increase for our senior populations and their 
caregivers. We look forward to working with communities to best serve 
their needs in innovative and impactful ways.

    Question 2. Likewise, I think on-demand autonomous vehicles could 
have major benefits for our veterans. In the Pahrump, NV area, the VA 
was providing taxi cab vouchers to get veterans to their appointments. 
However, cab access in that area was limited.
    Has Lyft done any work with veteran service organizations or the VA 
to develop strategies to improve veteran mobility?
    Answer. Lyft has been proud to work with veteran's communities 
across the country. Last November, in honor of Veterans Day, Lyft 
teamed up with First Lady Michelle Obama's Joining Forces initiative to 
provide free transportation to former military men and women who lack a 
way to get to job interviews.
    Since then we have been developing partnerships with local Veteran 
Service Organizations (VSOs) and the National Coalition for Homeless 
Veterans to continue to help provide transportation options to homeless 
veterans going to job interviews.
    As we shift toward autonomous vehicles, Lyft's goal is to deploy 
this new technology and service for all communities at all income 
levels. We look forward to continuing to work with VSOs to ensure that 
our heroes have access to reliable transportation options.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Steve Daines to 
                             Joseph Okpaku
    Question. Mr. Okpaku, last year, Montana enacted a law permitting 
ride-sharing companies to operate. Uber begin registering drivers in 
January. Lyft does not yet have a presence. How will autonomous 
vehicles enable Lyft and other transit providers to expand services to 
rural communities?
    Answer. Lyft commends Montana for its great work in enacting 
legislation at the State level that permits ride-sharing companies to 
provide safe, affordable rides throughout the State. Lyft looks forward 
to opportunities to develop a rider and driver market-base in the 
state. The advent and deployment of autonomous vehicles will bring many 
benefits to consumers across various communities, both urban and rural. 
The anticipated benefits of autonomous vehicles such as better, more 
efficient vehicle utilization rates and a reduction in the frequency 
and severity of vehicle incidents, will all help drive down the cost of 
providing a shared mobility ridesharing platform that integrates 
autonomous vehicle technology. While the focus of such platform is 
likely to be in in urban markets at first, the anticipated cost savings 
of such a platform will make investment in expanding such platform to 
all communities, including rural communities, more likely. Lyft looks 
forward to working with you as these technologies continue to develop.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                             Joseph Okpaku
    Question 1. In her written testimony, Dr. Cummings stated that 
``the self-driving car community is woefully deficient in its testing 
and evaluation programs (or at least in the dissemination of their test 
plans and data)'' and that companies should commit to ``principled, 
evidence-based tests and evaluations.'' How would you respond to these 
concerns? Do you believe that the self-driving car community, including 
your company, is testing rigorously enough? If so, should there be 
greater dissemination and transparency of test plans and data?
    Answer. At Lyft, safety has always been the cornerstone of our 
business model, and it will continue to be the foundation for our 
evolution into the autonomous vehicle space. We fully agree with Dr. 
Cummings' statement that ``principled, evidence-based tests and 
evaluations are needed.'' Lyft announced its partnership with GM in 
January 2016 to, among other things, grow an autonomous vehicle on-
demand network. This joint partnership will leverage GM's deep 
knowledge of autonomous technology and Lyft's capabilities in providing 
a broad choice of ride-sharing services to consumers. Lyft will not be 
manufacturing the actual autonomous hardware that is subject to the 
testing referenced by Dr. Cummings. Our role is to remain focused on 
consumer networks and providing a safe, established, and affordable 
means by which to build consumer support, awareness, and comfort with 
self-driving cars.
    Lyft will continue to work with GM and regulators to ensure that 
each vehicle that any of our passengers enters is one that is safe, 
reliable, and secure. This includes ensuring that any autonomous 
vehicle that integrates with the Lyft platform has undergone and passed 
a rigorous testing and validation process. While we disagree with Dr. 
Cummings' statement that ``the self-driving car community is woefully 
deficient in its testing and evaluation programs,'' we are always 
supportive of a more open dialogue about transparency and seeking the 
right balance between sharing of information, protection of consumer 
privacy, and safeguarding proprietary business information.

    Question 2. As you may know, NHTSA is working on new guidance to 
states, policymakers, and companies on self-driving vehicles. Do you 
believe that NHTSA has sufficient expertise, in terms of staffing and 
resources, to guide the development of autonomous vehicles?
    Answer. Similar to the Transportation Network Companies (TNCs) in 
the rideshare industry, there is no regulatory precedent for the new 
autonomous vehicle industry. Thoughtful and targeted regulations need 
to be developed to allow for innovation, fair competition, and adequate 
safety standards.
    Lyft looks forward to working with NHTSA on its guidance to be 
released in the summer of 2016. To date, Lyft has not engaged directly 
with NHTSA on its proposed guidance, but Lyft commends NHTSA for its 
foresight to engage in this discussion at this time and for the 
thoughtful and open manner in which it has undertaken this task. Given 
that we believe the forthcoming guidance is only the first step in the 
development of sound, uniform policy regarding autonomous vehicles, 
Lyft would support increased funding to NHTSA to further build and 
strengthen its staff and core competencies with regard to autonomous 
vehicles.

    Question 3. Specifically, what, if any, additional authorities 
should Congress consider providing NHTSA to allow for safe deployment 
of autonomous vehicles?
    Answer. Lyft does not have insight into any additional authorities 
that NHTSA may need at this time, and would defer to the agency to 
express its needs to Congress.

    Question 3a. Should Congress provide authority to an agency, such 
as the Federal Trade Commission, to issue privacy and data security 
rules for autonomous vehicles?
    Answer. We do not believe that Congress should, at this time, 
provide additional authority to issue privacy and data security rules 
specifically for autonomous vehicles. We anticipate AV technology will 
evolve quickly, whereas by its nature the regulatory and rule-making 
process is comparatively slow. Even well intentioned regulations or 
rules issued now to protect against data security or privacy threats 
could quickly become obsolete.
    However, Lyft would welcome an opportunity to partner with NHTSA, 
DOT, FTC or other appropriate agencies to develop industry standards 
that address data security and privacy concerns without unduly 
burdening new and promising technology and business models relating to 
autonomous vehicles. In this regard, it should be noted that the FTC 
already believes it has the general authority to safeguard against 
privacy and data security violations. See generally, https://
www.ftc.gov/news-events/media-resources/protecting-consumer-privacy, 
stating:

        ``The FTC has been the chief Federal agency on privacy policy 
        and enforcement since the 1970s, when it began enforcing one of 
        the first Federal privacy laws--the Fair Credit Reporting Act. 
        Since then, rapid changes in technology have raised new privacy 
        challenges, but the FTC's overall approach has been consistent: 
        The agency uses law enforcement, policy initiatives, and 
        consumer and business education to protect consumers' personal 
        information and ensure that they have the confidence to take 
        advantage of the many benefits of the ever-changing 
        marketplace.''

    Given the FTC's involvement in privacy enforcement, we have 
confidence that the Commission can and will use their existing 
authority to address improper conduct relating to data security and 
privacy in connection with autonomous vehicles.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                             Joseph Okpaku
    Question 1. What data does your company collect from cars, and how 
are you storing it on your own systems?
    Answer. Lyft currently neither owns nor operates cars, and 
therefore collects no data from cars. During the driver onboarding 
process, Lyft collects general identifying information regarding 
vehicles, such as the make, model and year of vehicles, which is 
required to comply with regulatory obligations in jurisdictions where 
it operates. Lyft also collects evidence of compliance with local 
vehicle inspection requirements.

    Question 2. How is that data being protected from privacy and from 
cyber threats?
    Answer. Lyft maintains an information security program to prevent 
unauthorized access, destruction, modification, transfer or disruption 
of Lyft systems and infrastructure that store, host, process, or 
dispose of the data we collect to operate the Lyft service. Lyft's 
security engineering team is primarily responsible for the Lyft 
information security program and works closely with the engineering, 
IT, and legal teams to handle cross-functional security projects and 
issues. The information security program is designed to prevent, 
detect, and respond to security incidents that may compromise data 
confidentiality, integrity, and accessibility, including but not 
limited to, unauthorized computer or network access, compromised 
systems or credentials, malware attacks such as viruses, Trojan horses, 
and worms, password cracking, denial of service, network spoofing, 
phishing, social engineering, non-malicious employee misuse or error, 
and lost or stolen digital devices.
    Lyft is hosted entirely on a third party cloud infrastructure, 
which is standard across the technology industry, and provides a strong 
security foundation and physical security controls. The cloud 
infrastructure has achieved numerous compliance certifications, 
including ISO 27001 and SOC 2. Internally, Lyft implements and 
maintains measures to prevent and detect security vulnerabilities prior 
to any security incident. These measures include network access 
controls and segmentation, network monitoring technologies to detect 
and investigate anomalous activity, automated configuration management 
tools, monitoring and identification of security vulnerabilities. Lyft 
also places strong limitations on employee and machine access to the 
cloud infrastructure, limits employee access to applications and data 
(including customer data) on an as-needed basis, subjects employees to 
a responsible data usage policy, uses single-user accounts, strong 
authentication mechanisms, and does not collect or store payment card 
data. Furthermore, the security team is involved in all stages of 
software development process and all changes to Lyft applications and 
infrastructure are subject to approval through this process.
    Lyft's information security program is also designed to address and 
respond to security vulnerabilities and data incidents, should they 
occur. Our information security program includes a privacy and data 
security reporting policy, an incident response team, and an incident 
response plan that clearly establishes policies and procedures to 
identify, assess, investigate, escalate, and respond to security 
vulnerabilities and incidents. Upon identification of a potential 
security vulnerability, the security team mitigates and resolves the 
issue in a timely manner according to the severity of the vulnerability 
and its likelihood of exploitation. Lyft also conducts regular backups 
for disaster and incident response purposes and captures and retains 
log data for debugging, monitoring, and responding to incidents. 
Finally, Lyft seeks to limit security incidents by training employees 
on our responsible data use and handling policy, basic security 
awareness to prevent social engineering, phishing and other network 
attacks, and escalation policies.

    Question 3. As the software and operating systems of GM vehicles 
offer increasing automated functionality, it is possible that liability 
will swing towards the manufacturers.
    Question 3a. Do you expect automakers to assume more liability at 
higher costs?
    Answer. We agree that this is an important question, but it is 
probably too early for anyone to predict how litigation risk and 
liability will shift. However, as safety experts and industry leaders 
acknowledge, autonomous vehicles will significantly reduce the number 
of accidents leading to injuries and fatalities on our Nation's streets 
and highways. Thus, even if manufacturers and operators of autonomous 
vehicles wind up taking on a higher proportion of litigation risk--risk 
that in essence is being shifted from drivers--the inherent safety of 
this technology will reduce litigation and overall exposure to 
liability. We are confident that our court system, our common law 
jurisprudence and our insurance markets have sufficient flexibility to 
evolve along with autonomous vehicle technology, and look forward to 
working with Congress to ensure that it does so in a fair and efficient 
way.

    Question 3b. How could you see this potential shift affecting 
suppliers and consumers?
    Answer. Please see above.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                           Dr. Mary Cummings
    Question. In light of the concerns you raised about the inherent 
limitations of human-automation interaction, would you say that Google 
is taking the better path by developing completely self-driving cars 
instead of the many other companies that are developing and 
commercializing numerous semiautonomous features as stepping stones to 
fully self-driving cars?
    Answer. There is no one ``right path'' in terms of developing self-
driving cars. Because of known issues with human inattention and 
propensity for distraction, Google X is moving towards a fully 
autonomous car. This could be a good path but it assumes that the 
technology is mature enough to function in all weather conditions, 
under all driving scenarios including low probability events, and in 
mixed vehicle settings, i.e., where human drivers of widely varying 
abilities still command vehicles that have no advanced technology on 
them. If the technology is not mature enough (which it will eventually 
be but is not currently), then these vehicles should only operate in 
limited environments with significant safety controls in place.
    Other companies are choosing the ``optionally-operated'' concept 
where the technology provides driver assistance. While more achievable 
in the near-term, driver assist is also not a perfect technology in 
that most systems require humans to pay attention under dynamic 
conditions, which is not likely in the typical driving population. 
However, this stepping stone approach allows manufacturers to introduce 
incremental functionalities in limited releases that can be assessed 
and modified. But because of the need to still include the human in the 
loop in some capacity, manufacturers of these partially capable systems 
need to pay much more attention to the human-technology interaction 
aspects of their designs, which few companies are doing.

                                  [all]
</pre></body></html>
